<html>
<title> - THE DEVELOPING CRISIS FACING WILDLIFE SPECIES DUE TO BUSHMEAT CONSUMPTION</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
    THE DEVELOPING CRISIS FACING WILDLIFE SPECIES DUE TO BUSHMEAT 
                              CONSUMPTION

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             July 11, 2002

                               __________

                           Serial No. 107-137

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

80-615              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona               Tim Holden, Pennsylvania
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 11, 2002....................................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2
    Underwood, Hon. Robert A., a Delegate in Congress from Guam, 
      Prepared statement of......................................     3

Statement of Witnesses:
    Agnagna, Marcellin, Chairman, CITES Bushmeat Working Group...    30
        Prepared statement of....................................    32
    Bakarr, Dr. Mohamed, Senior Technical Director, Center for 
      Applied Biodiversity Science, Conservation International...    72
        Prepared statement of....................................    75
    Burnam, Jeffry M., Deputy Assistant Secretary of State for 
      Environment, Bureau of Oceans and International 
      Environmental and Scientific Affairs, U.S. Department of 
      State......................................................     3
        Prepared statement of....................................     5
    Carroll, Dr. Richard W., Director, West and Central Africa 
      and Madagascar Program, World Wildlife Fund................    57
        Prepared statement of....................................    59
    Graham, James A., Project Manager, Central Africa Regional 
      Program for the Environment, U.S. Agency for International 
      Development................................................    18
        Prepared statement of....................................    19
    Hutchins, Dr. Michael, Director, Department of Conservation 
      and Science, American Zoo and Aquarium Association, and Co-
      Chairman, Bushmeat Crisis Task Force.......................    38
        Prepared statement of....................................    39
    Robinson, Dr. John G., Senior Vice President and Director, 
      International Conservation, Wildlife Conservation Society..    68
        Prepared statement of....................................    70
    Stansell, Kenneth, Assistant Director for International 
      Affairs, Fish and Wildlife Service, U.S. Department of the 
      Interior...................................................     6
        Prepared statement of....................................     8

Additional materials supplied:
    Article ``Bushmeat and the Origin of HIV/AIDS'' submitted for 
      the record.................................................    84
    Article ``Warfare on gorillas poses threat to survival'' 
      submitted for the record...................................    90
    Hoyt, Reginald, Senior Vice President, Conservation and 
      Science, Philadelphia Zoo, Statement submitted for the 
      record.....................................................    93


OVERSIGHT HEARING ON THE DEVELOPING CRISIS FACING WILDLIFE SPECIES DUE 
                        TO BUSHMEAT CONSUMPTION

                              ----------                              


                        Thursday, July 11, 2002

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 11:05 a.m., in 
room 1324, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.

  STATEMENT OF THE HON. WAYNE GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. The Subcommittee will come to order.
    Good morning, everyone. Thank you all so much for being 
here. We are looking forward to the testimony this morning for 
this hearing on the present crisis in the African bush trade 
problem, which I am sure is similar in nature in many other 
places around the world. But the present crisis warrants our 
focused attention and energy.
    According to the U.S.-based Bushmeat Crisis Task Force, 
hunters in Central Africa now kill more than a million metric 
tons of wildlife each year. The total value of the bushmeat 
trade has reached the staggering level of more than US$50 
million annually and potentially could grow to hundreds of 
millions of dollars in the next two decades. The trade has been 
called the ``most significant threat to wildlife in Africa 
today.''
    Among the animals prominently killed for the trade are 
forest elephants, gorillas, and chimpanzees. Each of these 
species is endangered and internationally protected, but unless 
we take steps, these flagships species could disappear forever. 
In fact, earlier this month poachers killed two adult female 
mountain gorillas in Rwanda. This is a tragedy for the species 
that is already on the brink of extinction.
    While no one would suggest that people in Africa should be 
denied the opportunity to feed their families, the 
international community must encourage the consumption of 
alternative sources of protein and the creation of other types 
of income-generating employment. According to Mr. Peter Walsh 
of the Wildlife Conservation Society, ``We're not talking about 
starving villagers needing meat. This is heavily organized 
commercial poaching where money is the motivation.'' In 
reality, a great deal of bushmeat is not even eaten by the 
indigenous population but by consumers who order it from menus 
at exotic restaurants in Paris, Tokyo, Taipei, and the United 
States.
    Furthermore, we are just beginning to understand the health 
implications of eating tainted bushmeat. Wildlife, particularly 
primates, harbor diseases which can jump between species and 
cause lethal diseases such as AIDS and Ebola.
    Our choices are quite simple. We can sit idly by and allow 
the crisis to exterminate wildlife species throughout Africa, 
or we can embrace the philosophy of E. O. Wilson who writes 
that ``Every scrap of biological diversity is priceless, to be 
learned and cherished, and never to be surrendered.'' I would 
choose this approach.
    We are here this morning to learn from the witnesses, who 
we can work with to create a strategy so that we will be 
prepared in this generation to meet the new ``Silent Spring'' 
challenge. We will save every scrap of biodiversity that we 
can. And we will do it in an ever-increasing, wider team effort 
with the international community.
    [The prepared statement of Mr. Gilchrest follows:]

       Statement of The Honorable Wayne T. Gilchrest, Chairman, 
      Subcommittee on Fisheries Conservation, Wildlife and Oceans

    Good morning, today, the Subcommittee will conduct an unprecedented 
oversight hearing on the growing crisis of bushmeat consumption on 
various wildlife species.
    According to the U.S. based Bushmeat Crisis Task Force, hunters in 
Central Africa now kill more than a million metric tons of wildlife 
each year. The total value of the bushmeat trade has reached the 
staggering level of more than $50 million U.S. dollars annually. The 
trade has been called the ``most significant threat to wildlife in 
Africa today''.
    Among the animals prominently killed for the trade are forest 
elephants, gorillas and chimpanzees. Each of these species is 
endangered and internationally protected but unless steps are taken, 
these flagship species will disappear forever. In fact, earlier this 
month, poachers killed two adult female mountain gorillas in Rwanda. 
This is a horrible tragedy for a species that is already on the brink 
of extinction.
    While no one would suggest that people in Africa should be denied 
the opportunity to feed their families, the international community 
must encourage the consumption of alternative sources of protein and 
the creation of other types of income generating employment. According 
to Mr. Peter Walsh, of the Wildlife Conservation Society, ``We're not 
talking about starving villagers needing meat. This is heavily 
organized commercial poaching where money is the motivation''. In 
reality, a great deal of bushmeat is not even eaten by the indigenous 
population but by consumers who order it from menus at exotic 
restaurants in Paris, Tokyo, Taipei and in the United States.
    Furthermore, we are just beginning to understand the health 
implications of eating tainted bushmeat. Wildlife, particularly 
primates, harbor diseases which can jump between species and cause 
lethal diseases such as AIDS and Ebola. Our choices are quite simple. 
We can sit idly by and allow this crisis to exterminate wildlife 
species throughout Africa or we can embrace the philosophy of E. O. 
Wilson who writes that ``every scrap of biological diversity is 
priceless, to be learned and cherished, and never to be surrendered''. 
I choose this approach because each species is vital to the future 
survival of the ecosystem of the continent.
    While I do not have the answer on how to solve the bushmeat crisis, 
I am confident that our distinguished witnesses will shed some light 
and will propose some potential solutions to this vexing problem.
    I am now pleased to recognize my friend, the distinguished 
gentleman from Guam, Congressman Robert Underwood.
                                 ______
                                 
    Mr. Gilchrest. At this point I ask unanimous consent that 
the gentleman from Guam, Mr. Underwood's statement be put into 
the record.
    [The prepared statement of Mr. Underwood follows:]

Statement of The Honorable Robert A. Underwood, a Delegate in Congress 
                               from Guam

    Good morning, Mr. Chairman. Thank you for holding this hearing on 
the bushmeat crisis in Africa. I look forward to hearing from the 
experts about what the United States and the international community 
can do to stop the wanton extermination of Africa's wildlife.
    At first glance, this problem is simply appalling. Our closest 
relatives, the Great Apes, with complex human-like social behavior, are 
on the brink of extinction. Africa's diverse populations of mammals, 
reptiles, and invertebrates are being decimated. In one example, a 
single logging camp of 648 people in the Republic of Congo can harvest 
8,251 animals annually, or the equivalent of 124 tons of wild meat.
    Experts contend that the motivation for the consumption of bushmeat 
varies from hunger and poverty to cultural traditions to sport. A 
growing luxury market in urban centers for bushmeat is another ominous 
threat.
    Regrettably, the problem appears intractable. The only way to find 
solutions is to ask the experts. And perhaps, our only hope to achieve 
success may be to engage many types of organizations, including 
commercial entities or industries operating in remote areas, that have 
access to both financial resources and local people.
    I contend that strong leadership by the United States is necessary 
on this front. As you know, Mr. Chairman, I have been in support of, 
and worked closely with you to reauthorize, several international 
conservation laws. I have also supported increased funding for the 
Multinational Species Conservation Fund.
    We have the opportunity today to learn about a topic that could 
become one of the world's great environmental tragedies. My hope is 
that we will be spurred on to take more purposeful action.
    Thank you, Mr. Chairman, for creating this forum for discussion. I 
trust that this hearing is only the first of many discussions in this 
Committee and in the Congress.
                                 ______
                                 
    Mr. Gilchrest. And since I am alone up here on the dais and 
the staff probably don't have any opening statements to make in 
public, we will start the hearing.
    Our first witness is Mr. Jeffry Burnam, Deputy Assistant 
Secretary for the Environment, Bureau of Oceans and 
International Environment and Scientific Affairs with the 
Department of State; Dr. Kenneth Stansell, Assistant Director 
for International Affairs, U.S. Fish and Wildlife Service, 
Department of Interior; and Mr. James Graham, Project Manager, 
Central Africa Regional Program for the Environment, USAID 
Bureau of Africa.
    Good morning, gentlemen. Mr. Burnam, you may begin, sir.

  STATEMENT OF JEFFRY BURNAM, DEPUTY ASSISTANT SECRETARY FOR 
 ENVIRONMENT, BUREAU OF OCEANS AND INTERNATIONAL ENVIRONMENTAL 
        AND SCIENTIFIC AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Burnam. Thank you, Mr. Chairman. I appreciate the 
opportunity to share with you the Department of State's views 
on the international aspects of the growing problem of bushmeat 
consumption, which you highlighted in your opening remarks. 
With your permission, I would like to submit my full statement 
for the record and only read portions of it.
    Mr. Gilchrest. Without objection, so ordered.
    Mr. Burnam. On a recent trip to the Republic of Congo, I 
saw firsthand the seriousness of the large-scale bushmeat 
consumption problem. I had the opportunity to visit a pilot 
project where a forestry concessionaire and a local community 
were working together to help control poaching in a buffer zone 
around a reserve. I believe that this pilot project suggests 
that there are many opportunities in Central Africa to work 
effectively with logging companies to help control activities 
that have an adverse impact on forests and wildlife.
    As you pointed out, the scale of bushmeat consumption is 
threatening the survival of species such as elephants, 
gorillas, and chimpanzees in Africa. While bushmeat provides 
animal protein and a source of income for many families, the 
bushmeat trade has recently increased dramatically. Concession 
logging is an important activity in many of these countries. 
However, it must be properly managed because concession logging 
results in construction of roads as well as in the migration of 
populations into previously undisturbed and remote forest 
areas. In the pilot project I visited in the Republic of Congo, 
for example, there were only a few hundred villagers in the 
area prior to the opening of the logging concession, but now 
there are four or five thousand employees of the logging 
concession, so you can imagine the impact those additional 
people have on bushmeat consumption.
    The threat to wildlife from the bushmeat trade is also 
related to political, social, and economic issues. In the Congo 
Basin, wildlife harvesting is occurring beyond sustainable 
levels. The illegal trade in wildlife often goes hand in hand 
with illegal logging and with lack of respect for the rule of 
law and good governance.
    The Department of State has taken a number of steps to 
address these concerns. The project which I visited in Congo 
(Brazzaville) is supported by the Department of State, by the 
International Tropical Timber Organization, and by the United 
States Agency for International Development through the CARPE 
program. Nongovernmental and private partners include the 
Wildlife Conservation Society, the Columbus Zoo, and the 
logging concessionaire itself. The pilot project employs local 
people as ``eco-guards.'' It provides income for communities 
living on the edge of a national park, and it provides a means 
to enforce the forestry and wildlife laws.
    Two aspects of the project I found particularly interesting 
were the attempts to develop alternative sources of protein for 
the local residents, and then, second, employees of the logging 
company, who are, for the most part, the residents of the area, 
are penalized if they violate the poaching laws. So you can be 
fined if you are an employee and you violate the laws against 
hunting, and there have even been some that have been 
dismissed. So this buffer zone around the national park is 
actually very helpful in protecting the national park because 
it provides an effective way of reducing poaching and other 
threats to wildlife in the area.
    In the CITES convention, a Bushmeat Working Group was set 
up which the Department of State has supported. We have also 
supported the work of the Bushmeat Crisis Task Force. And our 
own, my Bureau of OES has worked with the Bushmeat Crisis Task 
Force in Central Africa, and CARPE, and there is a workshop in 
Brazzaville at the end of this month and the beginning of next 
month which should be very promising because it will review the 
progress of a number of pilot projects in the area and get 
people together to focus on an awareness of the issues 
involved.
    State considers commercial harvesting of bushmeat a 
significant biodiversity issue. We are committed to working 
with partners, both domestically and internationally, to 
address the problem. In general, I believe there are four areas 
we can focus on for international collaboration to address this 
problem, which, as you point out, is badly in need of focused 
attention.
    First would be education about the bushmeat problem, 
education in the concept of sustainability. The Columbus Zoo 
was involved in the education aspect of this particular 
project;
    Working through international organizations and agreements;
    Encouraging further pilot programs, and I only mention this 
particular one because I visited it, but there are other 
programs. The World Wildlife Fund will testify to pilot 
programs that are similar in nature;
    And, of course, educating those consumers in the fancy 
restaurants about the impacts of their consumption on the 
bushmeat trade.
    Mr. Chairman, effective solutions to the bushmeat problem 
require a multifaceted approach. We all share the common goal 
of preserving biological diversity for future generations. Our 
ability to do so depends upon devising practical measures to 
move science and policy toward that end.
    Thank you very much for the opportunity to testify, and I 
would, of course, be pleased to answer any questions that you 
may have.
    [The prepared statement of Mr. Burnam follows:]

  Statement of Jeffry Burnam, Deputy Assistant Secretary of State for 
   Environment, Bureau of Oceans and International Environmental and 
              Scientific Affairs, U.S. Department of State

    Thank you for the opportunity to share the Department of State's 
views on the international aspects of the growing problem of bushmeat 
consumption.
    On a recent trip to the Republic of Congo, I saw firsthand the 
seriousness of the large-scale bushmeat consumption problem. I had the 
opportunity to visit a pilot project where a forestry concessionaire 
and a local community were working together to help control poaching in 
a buffer zone around a reserve. I believe that this pilot project 
suggests that there are many opportunities in Central Africa to work 
effectively with logging companies to help control activities that have 
an impact on forests and wildlife.
    The scale of bushmeat consumption is threatening the survival of 
species such as elephants, gorillas and chimpanzees in Africa. While 
bushmeat provides animal protein and a source of income for many 
families, the bushmeat trade has recently increased dramatically. 
Concession logging is an important economic activity in many of these 
countries. However, it must be properly managed because concession 
logging results in construction of roads and the migration of 
population into previously undisturbed and remote forest areas. These 
factors, combined with the development of social and economic networks 
to support the bushmeat industry and an increasing demand 
internationally, have transformed bushmeat harvesting from a 
subsistence activity into a commercial enterprise.
    The United States recognizes the cultural and nutritional needs of 
many communities who use bushmeat for subsistence. Our concern is that 
the large-scale, unregulated and illegal trade in bushmeat could lead 
to extinction of many wildlife species and irreversible impacts on 
African ecosystems.
    The threat to wildlife from the bushmeat trade is intimately 
related to political, social and economic issues. In the Congo Basin, 
wildlife harvesting is occurring beyond sustainable levels. The illegal 
trade in wildlife often goes hand in hand with illegal logging and with 
lack of respect for the rule of law and good governance.
    The Department of State has taken a number of steps to address 
these concerns. The project which I visited in the Republic of Congo is 
supported by the Department of State, by the International Tropical 
Timber Organization (ITTO) and by the United States Agency for 
International Development through its Central African Regional Program 
for the Environment (CARPE). Nongovernmental (NGO) and private partners 
include the Wildlife Conservation Society (WCS), the Columbus Zoo and 
the logging concessionaire itself, the Consortium Industrielle Des Bois 
(C.I.B.) This pilot project employs local people as ``eco-guards'' to 
protect against commercial-scale bushmeat hunting. It provides income 
for communities living on the edge of a national park and a means to 
enforce the forestry and wildlife laws.
    The Convention on International Trade in Endangered Species of Wild 
Fauna and Flora (CITES) set up a Bushmeat Working Group to promote 
awareness of the issue of cross-border trade in bushmeat, which the 
Department of State supported. The United States has also supported the 
work of a coordinating NGO, the Bushmeat Crisis Task Force, which works 
with governments and concerned NGOs to address the bushmeat crisis in 
Africa. I understand that the Bushmeat Crisis Task Force has recently 
secured several grants from private foundations and from the U.S. Fish 
and Wildlife Service to assist six Central African governments in 
addressing the bushmeat crisis.
    At the Department of State, our Bureau of Oceans and International 
Environmental and Scientific Affairs (OES) has supported the Bushmeat 
Crisis Task Force's work in Central Africa in conjunction with the 
Central African Regional Program for the Environment (CARPE). We are 
also helping to sponsor a workshop on wildlife management and 
conservation in timber concessions in Central Africa in August 2002, 
focusing in particular on raising the awareness of government policy 
makers and regulators on the relevance of these issues to sustainable 
forest management.
    The Department of State considers commercial harvesting of bushmeat 
for widespread consumption a significant biodiversity issue and is 
committed to working with partners domestically and abroad to address 
the problems associated with it, including in the context of 
sustainable development. In general, further international 
collaboration on this issue could include:
      LEducating governments, forest concessionaires, and local people 
about the bushmeat problem and empowering them to understand the 
concept of sustainability in terms of wildlife harvest.

      LWorking through international agreements such as CITES, CBD and 
ITTO to further efforts to control the illegal commercial bushmeat 
trade.

      LEncouraging governments, forest concessionaires, and local 
communities to take responsibility and put programs in place for 
maintaining viable and sustainable wildlife populations.
      LEducating consumers internationally about the impacts of the 
bushmeat trade on wildlife populations.
    Mr. Chairman, effective solutions to the bushmeat problem require a 
multifaceted approach that addresses the fundamental social, political 
and economic causes of the problem. We all share the common goal of 
preserving biological diversity for future generations. Our ability to 
do so depends upon devising practical measures to move science and 
policy towards this end.
    Thank you very much. I would be happy to answer any questions that 
you may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Burnam.
    Dr. Stansell?

     STATEMENT OF KENNETH STANSELL, ASSISTANT DIRECTOR FOR 
    INTERNATIONAL AFFAIRS, FISH AND WILDLIFE SERVICE, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Dr. Stansell. Good morning, Mr. Chairman. I, too, 
appreciate the opportunity to appear before you today to 
present the views of the U.S. Fish and Wildlife Service on the 
growing crisis of illegal bushmeat consumption in Africa. We 
have provided our written testimony for the record, so today I 
would like to make a few brief remarks highlighting the causes, 
current Service activities, and additional measures that we 
feel may be needed.
    The illegal commercial killing of wildlife, particularly 
threatened and endangered species, is certainly not unique to 
Africa. However, it is in Central and West Africa that world 
attention has been focused on the serious threat to the 
survival of great apes throughout the region. The lives of 
humans and wildlife in Africa are intimately entwined. Many 
rural communities must utilize wildlife resources to satisfy 
their basic needs. Therefore, it is important to make clear a 
distinction between the legal harvest of wildlife on a 
sustainable basis and the unsustainable and illegal commercial 
exploitation that now exists in many parts of Africa.
    The underlying factors driving this exploitation include 
social and political unrest, lack of adequate protected areas 
for wildlife, inadequate law enforcement, lack of management 
capacity in range countries, and a staggering increase in 
demand.
    Roads are built for harvesting timber, penetrating 
previously inaccessible forests. Poachers have the increasing 
availability of technology: large-caliber automatic weapons and 
steel snares. The result is a greatly enhanced ability to kill, 
process, and transport large quantities of bushmeat to meet an 
ever-increasing demand.
    Dozens of species, both common and endangered, are being 
exploited at unsustainable rates. Long-lived and slow-
reproducing species, such as the great apes and elephants, are 
among the hardest hit. Chimps and gorillas are particularly 
prized and often command the highest prices in faraway markets. 
Through our International Affairs Program, the Service actively 
participates in a number of activities with a wide range of 
partners, some that you will hear from today. These include 
other Federal agencies, governments of other countries, and 
national and international NGO's. Through our leadership role 
in the Convention on International Trade in Endangered Species, 
we have supported efforts to bring this issue to a global 
forum, resulting in the establishment of a working group that 
very importantly includes the affected range countries to 
explore ways to address the illegal trade and bring attention 
to the conditions that foster it.
    Also, through our Multinational Species Conservation Funds 
particularly for African elephants and great apes, the Service 
is supporting a number of on-the-ground projects. Our focus is 
two-pronged: helping to foster local community awareness of the 
need to manage wildlife sustainably for the long run, and 
working with our counterpart agencies in range countries, 
helping to build law enforcement capacity and, where 
appropriate, to support development of effective systems for 
legal hunting and trade in the near term.
    Through the witnesses today, this Committee will hear a 
great deal about the crisis and what is being currently done. 
Regrettably, however, much more remains. We should sustain and 
enhance these ongoing collaborative efforts. They are making a 
difference. But we also must address more effectively the 
underlying causes of this crisis, such as the lack of adequate 
wildlife monitoring and sustainable management, inadequate 
systems of protected areas, and, importantly, the need for 
capacity building.
    Range states and local communities must be provided the 
tools to allow for greater enforcement of existing laws and 
technical assistance to support wildlife conservation that is 
sustainable, based both on science and the practical realities.
    Mr. Chairman, the Service appreciates your interest in this 
critical problem, and we look forward to working with you to 
find solutions to this growing crisis. I, too, would be pleased 
to respond to any questions that you might have. Thank you.
    [The prepared statement of Dr. Stansell follows:]

  Statement of Kenneth Stansell, Assistant Director for International 
  Affairs, Fish and Wildlife Service, U.S. Department of the Interior

    Good morning, Mr. Chairman and Members of the Subcommittee, I am 
Kenneth Stansell, Assistant Director for International Affairs for the 
U.S. Fish and Wildlife Service. I appreciate the opportunity to present 
testimony for the U.S. Fish and Wildlife Service on the issue of 
illegal bushmeat consumption in Africa. My testimony will provide the 
Subcommittee with information regarding the causes of the problems, and 
the Service's role in wildlife conservation in Africa and how it helps 
reduce the bushmeat trade. I will also suggest additional measures to 
address the issue.

Background
    Humans and wildlife in Africa share a long and intimately entwined 
relationship. Many rural communities utilize wildlife resources to 
satisfy nutritional, economic, and cultural needs. Some communities are 
almost entirely dependent on wildlife for their subsistence. Meat from 
domestic species, sometimes imported over long distances, is usually 
more expensive in remote areas. Livestock husbandry is extremely 
limited in the forest zone, and even when present, domestic animals are 
usually utilized as a living bank account (i.e. to be bought and sold) 
rather than as a sustained source of animal protein through 
consumption. Urban dwellers are reported to maintain a preference for 
meat from wild animals over available domestic meat such as beef, fish, 
and poultry, and indulge this preference if it is affordable. The 
contrast between the consumption of wildlife in urban centers and in 
rural areas, and between legal and illegal exploitation of wildlife, 
require careful qualification in the context of this discussion. The 
Service would like to make clear the distinction between the legal 
harvesting of wildlife on a sustainable basis and the unsustainable, 
illegal trade that exists in many parts of Africa on such an enormous 
scale.
    The conservation community refers to the problem under discussion 
as at the Illegal Commercial Trade in Bushmeat,@ to distinguish it from 
legal, small-scale hunting for subsistence and use by local populations 
in the areas of production. Dozens of species, from rodents to 
elephants, and including numerous endangered and threatened species, 
are utilized in the bushmeat trade. [A list of such species is 
attached.] Legally harvested bushmeat forms a major component of many 
rural household economies and is a vital source of protein, 
particularly in rural areas in the forest zone, where alternatives are 
few or expensive. However, the continued legal utilization of bushmeat 
by local populations is threatened by illegal commercial-scale 
exploitation.
    Outside traders export large quantities of illegally, and legally, 
taken bushmeat from areas of production using modern technology such as 
firearms, wire snares, and transport on motor vehicles. Local hunters 
are often stuck in a cycle of indebtedness to these traders who, along 
with market sellers, acquire the major share of profits from the 
bushmeat trade. It is important to note that some cultures, such as the 
numerous BaAka Pygmy groups indigenous to the Central Africa region, 
are at risk of extinction as a result of shifting economies and the 
advent of the commercial bushmeat trade. The underlying factors driving 
the bushmeat trade lack of adequate protected areas for wildlife, lack 
of protein and economic alternatives for rural people, lack of law 
enforcement capacity in regional governments, and increasing demand for 
bushmeat must be addressed if the current unsustainable and destructive 
practices are to be effectively managed. This requires an innovative 
collaborative effort not only by governments and conservation 
professionals, but also development experts from throughout the global 
community.
    The bushmeat problem is by no means unique to Africa; it is 
widespread throughout Asia and Latin America as well. However, it is in 
Central and West Africa that world attention has been focused on the 
illegal, commercial killing of wildlife for meat and its impacts on 
both faunal integrity and ecosystem functions. Due to the low 
productivity of tropical forest ecosystems, the impacts of poaching 
over a relatively short period are threatening many species with local 
extinction and some species, such as the Great Apes, with extinction in 
much of their range.
    An important question to consider is, what has changed in Africa to 
cause such a steep decline in wildlife populations? People have hunted 
and eaten wildlife throughout known history, but until recently, large 
areas still contained significant wildlife populations. However, 
economic, technological, and social conditions have changed in ways 
that make a once localized phenomenon widespread across the continent.
    Over history, it is likely there were periodic local increases and 
decreases of hunting pressure and wildlife population levels. Recent 
decades have seen a dramatic increase in human population growth rates 
in Africa and a corresponding increase in demand for meat. Wildlife 
populations may now be unable to reproduce sufficiently to keep up with 
this growing demand. They are being adversely affected by a combination 
of over harvest and reduced availability of undisturbed habitat.
    The introduction of modern cash economies and transport networks to 
once isolated, traditional communities puts a monetary value and trade 
mechanism on what had been only locally consumed and shared. This 
opportunity for earning income in areas where virtually no alternatives 
exist provides motivation for hunting that exceeds meeting the basic 
needs of family or community. Studies have clearly shown that in some 
places where economies are rapidly developing, there is an increase in 
available income. A increase in the demand for and the consumption of 
bushmeat usually follows.
    Another economic change in some areas of Central Africa that 
exacerbates the crisis is the collapse of commodity prices on the world 
market for crops such as cacao. Previously productive plantations now 
stand idle and overgrown in many places. Even crops such as oil palm 
nuts are now produced and shipped more efficiently in West Africa or 
Asia, thereby rendering these economic alternatives unattractive.
    Another cause of the problem is the ease of access to wildlife 
populations. Historically, access to distant tracts of forest was very 
difficult, and the ability of poachers to kill, process, and transport 
large quantities of bushmeat was limited. Today, roads penetrate into 
previously inaccessible forests. In addition, the technology used to 
kill wildlife has also changed dramatically in recent times.
    Underlying these changes in Africa is the political and social 
backdrop. Recent decades have seen abrupt and unpredictable, as well as 
chronic civil conflict. With the breakdown of law and the displacement 
of large numbers of people, hunting for bushmeat increases 
dramatically. This is well illustrated in recent years in the 
Democratic Republic of the Congo, formerly Zaire. National parks and 
protected areas are settled by refugees and rebel soldiers who turn to 
wildlife for money and sustenance. Enormous commercial operations in 
the eastern parts of that country even export bushmeat northward to 
countries that have already exterminated their wildlife.
    The effects of the over harvest of wildlife for the commercial 
bushmeat market may include species extinction over large areas or 
entire ecosystems. Some species are more vulnerable than others. Long-
lived and slow-reproducing species such as elephants and apes are the 
hardest hit. Elephants are usually the first species to be taken when a 
new area is opened to bushmeat hunting. Until recently, elephants were 
poached primarily for ivory, with their meat being a by-product for 
local consumption or left in the forest. Now, because of the increased 
demand for bushmeat, and the ease with which it can be transported and 
sold often across international borders bushmeat commerce may be a 
greater threat to the remaining elephant herds than ivory trading.
    Gorillas, chimpanzees and bonobos are all illegally hunted for 
bushmeat, and they are particularly sensitive to disturbance. As 
species populations come under illegal hunting pressure, they often 
move into the territory of a neighboring population. This may provoke 
additional stress, including fighting, among individuals from the two 
groups. Because of the slow reproductive rate, the loss of even a few 
percent of a population of these species each year over long periods is 
sufficient to drive species such as the bonobo to local extinction. 
Chimpanzee and gorillas are prized by some bushmeat consumers and often 
fetch the highest price on the market. Some hunters specialize in 
hunting apes with devastating effects on local populations.
    Many more endangered or threatened species are also victims of 
over-exploitation, including numerous species of monkeys and three 
species of crocodiles. Thousands of dwarf crocodiles are captured each 
year in some areas and shipped live to markets in urban centers days or 
weeks away by riverboat. Our Congolese colleagues inform us that dwarf 
crocodile numbers are plummeting, and they now are absent from much of 
their range. This carries serious implications for the aquatic 
ecosystem.

Role of the Fish and Wildlife Service
    The Service is an active participant in a variety of conservation 
activities with a range of partners in the governments of developing 
countries and with international and national non-governmental 
organizations. The Service is responsible for the implementation of the 
African Elephant Conservation Act of 1989 and the African Elephant 
Conservation Fund (AfECF) created by the Act, as well as the Great Ape 
Conservation Act of 2000 and Great Ape Conservation Fund (GACF) created 
by that Act. With authority under these and two additional 
Multinational Species Conservation Acts, the Service is forging 
effective working relationships with range country governments and non-
governmental organizations (NGO) active throughout Africa and Asia. Our 
Division of International Conservation is also a partner in U.S. Agency 
for International Development (USAID)'s Central African Regional 
Program for the Environment (CARPE), a collaboration of US-based NGOs 
and government agencies working for conservation in the Central Africa 
forest zone. Our experience in working with partners to conserve and 
manage wildlife and their habitats in Africa continues to grow. Through 
our involvement on the ground and in developing networks, the Service 
has gained some valuable but alarming consciousness about serious 
wildlife conservation issues.

The African Elephant Conservation Act
    Central Africa has been a major focus of technical and financial 
support through AfECF. One project developed and implemented in 
cooperation with the World Wildlife Fund and the government of the 
Central African Republic emphasizes conservation of elephants and their 
habitats in protected areas such as the Dzanga-Ndoki National Park. 
During the course of this project, an ecoguard force was trained and 
equipped, and thousands of wire snares and dozens of illegal firearms 
have been confiscated. Work with local communities has also led to a 
better understanding, and increased level of cooperation, among 
villagers and park personnel. The control of illegal bushmeat trade has 
been greatly improved through this project.
    AfECF funds two important bushmeat control projects in the Republic 
of Congo, both led by the Wildlife Conservation Society and the 
Congolese Ministry of Water and Forests. One is a seminal project to 
regulate bushmeat production and trade in a logging concession south of 
the Nouabale-Ndoki National Park in northern Congo. In addition to 
controlling bushmeat poaching and traffic, the project is making 
significant progress developing a model for the relationship among a 
logging company, local communities and hunters, and an international 
conservation NGO to minimize illegal trade in bushmeat. The model will 
play an important role in the re-examination of policies and 
regulations relating to logging concessions to address wildlife 
management and exploitation concerns.
    The other project is in the Lac Tele Community Forest Reserve in 
the northern Congo. Because there are few roads in this remote area, 
the river network is used to illegally transport large quantities of 
bushmeat northward to markets in the Central African Republic. The 
AfECF grant assists the reserves warden and his team from the Ministry 
of Water and Forests with controlling key points in the river system 
that traverses the reserve. In addition, the project has a community 
awareness component that seeks to inform villagers of the need to 
conserve wildlife for the long-term, rather than merely as a means for 
immediate reward.
    These three examples of joint projects pursued under AfECF 
demonstrate that there are ways to help build law enforcement capacity 
among African government agencies, and to support the development of 
effective legal hunting and trade regulation systems in the near term.
    In the longer term, the training and education provided by these 
projects will yield sustained benefits to conservation efforts. As the 
ability of the government to analyze and deal with emerging problems 
increases, more effective conservation will follow.

The Great Ape Conservation Act
    The GACF currently supports 18 projects in 15 countries in Africa. 
An integral component of some of these projects is conservation 
education and bushmeat awareness programs. These programs inform local 
communities that the Great Apes are often targeted as bushmeat species, 
and are particularly hard-hit by poaching. The Cameroon Wildlife Aid 
Fund, a national NGO with a conservation education program at the 
Yaounde Zoo, runs a project that educated an urban audience about the 
bushmeat trade and its impact on apes and other wildlife. This project 
is particularly valuable because urban audiences have been largely 
neglected in most countries in Central Africa.
    Another important contribution to public awareness of the crisis is 
a wide-reaching project in partnership with the Bonobo Conservation 
Initiative (BCI). BCI a small international NGO that is working with 
the government of the Democratic Republic of Congo, local NGOs, and 
communities in the area to the north of Salonga National Park. The 
Salonga area and its surroundings comprise the entire range of the 
bonobo. Therefore, protection and management of the area is critical to 
the survival of the species. This BCI program studies bonobo 
distribution north of Salonga NP and has a major component to exchange 
information with communities about the threat posed to bonobos by 
poaching. The BCI also plans a major radio campaign to raise awareness 
at a national level and has established an excellent working 
relationship with Congolese governmental agencies.
    The Service's Division of International Conservation is a CARPE 
partner and is now in its second year of working with many partners 
from government agencies, NGOs and academia. Our broad range of 
partners include U.S. Department of Agriculture/Forest Service, Peace 
Corps, and the National Aeronautic and Space Administration (NASA); 
World Wildlife Fund, Wildlife Conservation Society, Conservation 
International, African Wildlife Foundation, World Resources Institute, 
and Innovative Resources Management; and, the University of Maryland. 
The focus of the Service's efforts under USAID's CARPE project is to 
support the Convention on International Trade in Endangered Species 
(CITES) Bushmeat Working Group (CBWG). The CBWG was formed in response 
to an adopted proposal at the Eleventh CITES Conference of the Parties, 
April 2000. The proposal's mandate is to find ways to address the 
illegal trade in endangered and threatened species (CITES Appendices I 
and II) across international borders as bushmeat, and the conditions 
that foster illegal trade in the countries from which the animals 
originate.
    The CBWG is composed of representatives from six Central African 
countries including the Central African Republic, the Republic of Congo 
(Brazzaville), the Democratic Republic of the Congo (Kinshasa), Gabon, 
Cameroon, and Equatorial Guinea. The national representatives are the 
heads of the respective wildlife divisions, and each country has an 
appointed national bushmeat officer. A regional coordinator is planned 
for Yaounde, Cameroon, who will work with the member countries to 
develop and execute a series of priority actions to address this trade. 
In addition, the CBWG Regional Coordinator will work closely with the 
CITES-Monitoring of Illegally Killed Elephants Coordinator for Central 
Africa to assure a harmonization of effort regarding monitoring of 
elephant killing and law enforcement patrols.
    The Service is working with the governments of these six range 
countries, the United Kingdom, and international NGOs such as the 
Bushmeat Crisis Task Force, to support the CBWG and its work. Current 
efforts include: national wildlife policy reviews; understanding the 
nature and details of the production sites, transport routes and means, 
border crossing points, and other information that can be used to 
control the illegal trade; a study on the status of various regulatory 
mechanisms within forestry concessions, how they are designed and work, 
and how they can be improved; and, ways to improve information exchange 
and the harmonizing of laws among countries in the Central African sub-
region. In addition, the CBWG will be responsible for developing and 
implementing a region-wide awareness campaign regarding the bushmeat 
trade, which has been identified as a critically important and 
effective mechanism for effecting beneficial change in behaviors with 
regard to wildlife use.

Recommendations
    The Service recommends the following to address the bushmeat 
problem: (1) sustaining collaborative efforts such as the Multinational 
Species Conservation Acts and CARPE Partnership; (2) Central African 
wildlife policy review and revision, wildlife monitoring and 
sustainable management, and strengthening the protected areas system in 
Central Africa; and (3) licensing and regulation of hunting seasons and 
wildlife trade should be based on science and practicality.
    In Central Africa, as elsewhere on the continent, laws exist to 
regulate hunting and commercial exploitation of wildlife and other 
forest products. Certain species cannot be hunted, such as the great 
apes; and some areas are off limits to hunters, such as national parks 
and other protected areas. In some countries there are closed hunting 
seasons, and legal methods of hunting and quotas for some species are 
limited. In most areas, hunters must be licensed and their firearms 
registered by the authorities. In other places, hunters may only employ 
traditional means such as crossbows, spears, or nets made of natural 
fibers. Although the law regulates the commercialization of wildlife, 
the means to enforce laws and to regulate hunting and trade in wildlife 
products is very limited. Enforcement of existing laws is needed to 
regulate hunting and trade so that it is sustainable over the long 
term.
    The CBWG, in cooperation with the CARPE partnership, will conduct 
policy review and revision in the coming year. Within existing 
resources, the Service will examine ways to further support this work 
with technical advice and to assist the range states, when asked, to 
develop optimal wildlife policies that are harmonized across the sub-
region.
    In order for wildlife to be sustainably used for food or 
recreation, monitoring of populations, including threats, health 
status, off-take, and habitat condition, must be carried out. The 
Service supports monitoring elephant populations in this area through 
the CITES Monitoring of the Illegal Killing of Elephants (MIKE) 
project. As part of this program, information acquisition, 
transmission, storage, analysis, and interpretation is being developed. 
This approach is an efficient way to monitor certain bushmeat species 
in key areas. Within existing resources, the Service could be of 
assistance in building these essential capacities among range states 
and local communities. Linking this effort and the CBWG mandate would 
enable a harmonization of efforts and efficient use of limited 
resources and personnel.
    Protected areas form the nucleus of wildlife management in Central 
Africa, and may play a vital role in a source and <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dcafb5b2b79c">[email&#160;protected]</a> model. This 
model describes a system that allows protected areas to act as a 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b2c1ddc7c0d1d7c1f2">[email&#160;protected]</a> of wildlife, that when reaching carrying capacity, could move 
outward into multi-use forests, where they could be sustainable 
harvested by local people. This model requires sound scientific 
information, including wildlife monitoring, socioeconomic information 
about local conditions and attitudes, and the ability to regulate 
hunting and trade.
    In some respects this situation is not unlike that which faced the 
United States prior to the institution of scientific wildlife 
management in the 1920s and 1930s. At that time market hunting and loss 
of habitat had eliminated or nearly eliminated many species here in the 
United States. Initiatives taken by American hunters and their 
organizations led to the Migratory Bird Treaty, creation of State fish 
and wildlife agencies, the Federal Aid in Wildlife Restoration program, 
and establishment of National Wildlife Refuges and state wildlife 
management areas to protect habitat.
    With the resulting increase in knowledge of how to manage wildlife, 
dependable funding and continuing strong support from the hunting 
community, even once severely depleted species of game animals are now 
plentiful. Few Americans, even hunters, know that there were fewer than 
500,000 white-tailed deer in the entire United States in the 1920s, and 
that most States east of the Mississippi had no or very limited deer 
seasons. At that time, hunting of wood ducks was banned, and it was 
feared they would go extinct. They are now the most common breeding 
waterfowl in the East.
    While the American conservation experience cannot be transplanted 
wholesale to Africa, we have acquired a tremendous body of knowledge 
relating both to wildlife management and to fostering a conservation 
ethic among the hunting community which can serve as models to be 
adapted to local conditions elsewhere. Equally important, we know from 
our own experience that these measures can work.
    Finally, although anecdotal evidence identifies there is an 
existing problem concerning importation of bushmeat into the United 
States, there has yet to be a definitive review of the extent of the 
problem. It is important to work with partners internationally to 
identify how bushmeat is entering the United States and to develop 
training programs for customs agents in the countries of origin to 
control the export of bushmeat from the source.
    Mr. Chairman, the Service appreciates your interest in the critical 
problem of illegal bushmeat consumption and trade. We look forward to 
working with you and members of the Committee to seek ways to address 
this crisis. This concludes my testimony. I will be pleased to respond 
to any questions you may have.
                                 ______
                                 
    [Attachments to Mr. Stansell's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T0615.001
    
    [GRAPHIC] [TIFF OMITTED] T0615.002
    
    [GRAPHIC] [TIFF OMITTED] T0615.003
    
    [GRAPHIC] [TIFF OMITTED] T0615.004
    
    [GRAPHIC] [TIFF OMITTED] T0615.005
    
    [GRAPHIC] [TIFF OMITTED] T0615.006
    
    Mr. Gilchrest. Thank you very much, Dr. Stansell.
    Mr. Graham?

 STATEMENT OF JAMES A. GRAHAM, PROJECT MANAGER, CENTRAL AFRICA 
     REGIONAL PROGRAM FOR THE ENVIRONMENT, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Mr. Graham. Good morning, Mr. Chairman. I would like to 
thank you for inviting me to testify. If I could, I would like 
to have my written testimony submitted for the record and 
instead provide a brief summary of my statement.
    Mr. Gilchrest. Without objection.
    Mr. Graham. Thank you.
    As the project manager for USAID's Central Africa Regional 
Program for the Environment, I am quite familiar with the 
problem of commercial-scale bushmeat hunting in Sub-Saharan 
Africa. Among the rural population in the Congo River Basin, 
until recently, people made money growing and selling rice, 
cotton, cacao, coffee, and peanuts. With farming unprofitable 
and off-farm jobs difficult to come by, many rural people with 
access to the forest have resorted to commercial hunting and 
trading of bushmeat. The move toward bushmeat has occurred 
because high returns can be realized from a relatively small 
investment. Wildlife is a free good which is harvested when 
other alternatives to earn money are limited. Bushmeat is 
relatively inexpensive because hunters do not pay costs of 
producing wildlife, as do farmers who raise livestock.
    Moreover, logging companies have opened up once-isolated 
forests, providing hunters with easy access to abundant 
wildlife and traders with cheap transportation, which in turn 
reduces bushmeat production costs and increases supply to urban 
markets. Rampant availability of firearms as a spinoff from 
political insecurity in the region has made harvesting bushmeat 
easy.
    Though habitat loss is often cited as the primary cause of 
wildlife extinction, over the next 5 to 10 years commercial 
bushmeat hunting will constitute the most immediate threat to 
wildlife conservation in Central Africa. At current levels of 
exploitation, this will result in the progressive depletion and 
local extinction of most species of apes and other primates, 
large antelope, and elephant from hunted forests.
    Moreover, hunting indirectly impacts the forest by: first, 
threatening the survival of forest carnivores that rely on 
bushmeat species as prey; and, two, significantly reducing the 
number of seed-dispersing animals, thus changing tree species 
regeneration rates and forest structure and composition. The 
direct and indirect impacts of this unsustainable hunting will 
have both immediate and long-term adverse impacts on the 
structure and function of the forest.
    For example, while rates of deforestation in the region are 
currently low, it is estimated by CARPE that forest cover may 
decline by between 29 and 46 percent by the year 2050. The 
transmission of disease from animals to humans is also well 
documented. Bushmeat consumption may place people in increased 
jeopardy of contracting and transmitting animal-derived 
diseases or other emerging pathogens.
    USAID's CARPE program has supported preliminary initiatives 
in several areas to blunt the trend toward increased bushmeat 
consumption. CARPE partners, among whom you will hear from WWF, 
WCS, CI, and the Fish and Wildlife Service already, have 
recently worked to help CARPE in creating CITES, the Convention 
on International Trade in Endangered Species, Bushmeat Working 
Group, which attempts to exchange information on bushmeat 
activities among the Congo Basin states.
    USAID is also directly supporting gorilla conservation 
activities that include several efforts to ensure that primates 
are not hunted for bushmeat in locations in Central Africa. In 
addition, USAID conducts a number of health and nutrition 
programs in the Congo River Basin that have the effect of 
combating the spread of diseases stemming from practices such 
as the consumption of bushmeat.
    In conclusion, I would note that the bushmeat crisis is 
only a symptom of a much greater problem of the lack of 
sustained development in the Congo Basin. The solution to the 
bushmeat crisis will only be achieved by fully involving 
Africans in undertaking essential broad development actions, 
thus raising their overall standard of living to allow them to 
secure the alternative sources of protein.
    Thank you, Mr. Chairman. I would be happy to answer any 
questions.
    [The prepared statement of Mr. Graham follows:]

Statement of James A. Graham, Project Manager, Central Africa Regional 
 Program for the Environment, U.S. Agency for International Development

    Mr. Chairman and distinguished members of the Committee, I would 
like to thank you for inviting me to testify about the environmental 
problems confronting the Congo River Basin in light of the growing 
trend of bushmeat consumption in the region. As the project manager for 
the U.S. Agency for International Development's (USAID) Central Africa 
Regional Program for the Environment (CARPE), I am quite familiar with 
the problem of bushmeat consumption in sub-Saharan Africa.
    While wildlife has been hunted for food throughout the history of 
human existence, only in the last several years has bushmeat become 
commercialized [What does this mean, ``become monetized''? Can we say 
this more clearly?], and consequently, an important source of income in 
Central Africa. Among the rural population in this region, until 
recently, people made money growing and selling rice, cotton, cacao, 
coffee, and peanuts. Over the past 20 years, however, livelihoods have 
suffered as commodity prices have plummeted and increasingly poor road 
systems have made it more difficult and costly to transport goods to 
market. With farming unprofitable and off-farm jobs difficult to come 
by, many rural people with access to the forest have resorted to the 
commercial hunting and trading of bushmeat.
    The move toward bushmeat has occurred because high returns can be 
realized from a relatively small investment. Firearms, which have 
become abundant as a result of assorted civil conflicts, and other 
items, such as snares, are readily available for use in the hunting of 
game for bushmeat. Furthermore, wildlife is a free good. Increasing 
urban populations have fueled the demand for bushmeat and while these 
populations have grown, their buying power has declined with the 
weakening regional economy. Families that were once able to afford 
beef, chicken, and pork now have shifted to typically less expensive 
wildlife as their primary source of protein. Bushmeat is relatively 
inexpensive because hunters do not pay the costs of producing wildlife, 
as do farmers who raise livestock. Moreover, logging companies have 
opened up once-isolated forests, providing hunters with easy access to 
abundant wildlife and traders with cheap transportation, which in turn 
reduces bushmeat production costs and increases supply to urban 
markets.
    Though habitat loss is often cited as the primary cause of wildlife 
extinction, over the next 5 10 years, commercial bushmeat hunting 
constitutes the most immediate threat to wildlife conservation in 
Central Africa. The scale of commercial hunting required to supply 
large, rapidly growing urban populations with meat is now exceeding 
levels that can be tolerated by most large-bodied, slow-reproducing 
forest animals. At current levels of exploitation, this will result in 
the progressive depletion and local extinction of most species of apes 
and other primates, large antelope, and elephant from hunted forests. 
Only small, rapidly reproducing animals such as rodents and the 
smallest of antelope are likely to survive the pressure from commercial 
hunters.
    Moreover, hunting indirectly impacts the forest by (1) threatening 
the survival of forest carnivores such as leopards, golden cats, 
crowned eagles, and snakes that rely on bushmeat species as prey; and 
(2) significantly reducing the number of seed dispersing animals, thus 
changing tree species regeneration rates and forest structure and 
composition. The direct and indirect impacts of this unsustainable 
hunting will likely have both immediate and long-term adverse impacts 
on the structure and function of the forest. For example, while the 
rates of deforestation in the region are currently low, it is estimated 
by CARPE that forest cover may decline by between twenty-nine and forty 
six percent by 2050. In addition, bushmeat consumption may place people 
in increased jeopardy of contracting and transmitting animal-derived 
(epizootic) diseases or other emerging pathogens. For instance, by 
eating a partially cooked chimpanzee a bushmeat consumer could contract 
a fatal disease such as Ebola. This transmission of disease from 
animals to humans is well documented, with brucellosis and 
toxoplasmosis serving as two additional examples.
    Today, bushmeat continues to be an economically important food and 
trade item for as many as 30 million poor rural and urban people in the 
Congo Basin. In Central Africa, over 1 million metric tons of bushmeat 
are consumed each year the equivalent of almost 4 million cattle. A 
hunter can make the equivalent of $300 $1,000 per year more than the 
average household income for the region. This income figure is also 
comparable to the salaries paid to park officials, leaving them 
susceptible to graft. Traders, transporters, market sellers and 
restaurateurs also benefit from the commercial trade in bushmeat, and 
in combating this problem, the USG must acknowledge that all of these 
incomes would decline if laws against the trade were strictly enforced. 
As demand for bushmeat increases, more people will be encouraged to 
become involved in the trade, increasing the pressure on wildlife 
populations, threatening the survival of rare species, and jeopardizing 
access of future families to the nutritional and income benefits from 
non-endangered wildlife.
    Rising demand for bushmeat, lack of income-generating options for 
rural and urban communities, the absence of affordable and acceptable 
substitutes, the opening up of ``frontier'' forests by logging and 
mining companies, the complicity of government lawmakers and law 
enforcers, and the fact that almost anyone can go hunting anywhere 
without restriction are the most important factors driving commercial 
hunting and working against wildlife conservation. On top of all of 
this there is an emerging link between what is becoming known as 
``illegal logging'' and the bushmeat trade. While ``illegality'' is at 
times a somewhat murky concept in the Congo Basin--in that the 
enforcement of many laws often serves more as an inducement to pay 
bribes than to benefit the state--much logging is done outside strict 
application of the laws. Bushmeat (including the meat of endangered 
species) is gathered as ``value added'' to logging activity. Increased 
attention devoted to ``illegal logging'' may in time, however, have a 
dampening effect on the worst excesses of the bushmeat trade.
    International awareness and support for control of the bushmeat 
trade was virtually non-existent until the late 1990s, and it is urgent 
that concerned individuals and conservation groups work with an 
expanded group of government personnel and other key decision makers to 
convince them of the significance of the bushmeat crisis. They also 
must cultivate the political will to ensure that adequate financial 
resources and professional capacity are provided to address the 
problem. Nongovernmental organizations (NGOs), governments, and 
industry are awakening to the challenge, and are currently seeking ways 
to address the bushmeat crisis at the local, national, and 
international level. Their pilot initiatives include working with 
logging companies to reduce or halt the flow of bushmeat from 
concessions and to minimize employee reliance on bushmeat as a source 
of food and supplementary income; convincing donors to increase their 
long-term support for protected area management; piloting projects to 
provide consumers with affordable and palatable alternatives to 
bushmeat; encouraging governments to develop legislation and law 
enforcement capacity appropriate to the local context; and facilitating 
collaboration among the numerous organizations and agencies working in 
the region.
    USAID's CARPE program has supported preliminary initiatives in 
several of these areas. CARPE partners have recently worked to create 
the Convention on International Trade in Endangered Species (CITES) 
Bushmeat Working Group (CBWG), which attempts to exchange information 
on bushmeat activities among the Congo Basin states. The CBWG is 
composed of representatives from a half dozen Central African 
countries. The national representatives are the heads of the respective 
wildlife divisions of the individual countries and each nation has 
appointed a national bushmeat officer. The organization plans to set up 
a regional coordinator in Cameroon who will work with the member 
countries to develop and execute a series of actions to limit the 
bushmeat trade. Current efforts include: national wildlife policy 
reviews; improving local understanding of the details of production 
sites, transport routes, and border crossing points; a study of the 
status of various regulatory mechanisms within forestry concessions; 
and ways to improve information exchange and the harmonization of laws 
among the countries. The CBWG will also be responsible for developing 
and implementing a region-wide awareness campaign regarding the 
bushmeat trade. USAID is also directly supporting gorilla conservation 
activities that include efforts to ensure that these primates are not 
hunted for bushmeat in three locations in Central Africa. We are doing 
this by providing our U.S. private voluntary organization partners with 
$1.5 million in each of the two past fiscal years.
    USAID also conducts a number of health and nutrition programs in 
the Congo River Basin that have the effect of combating the spread of 
diseases stemming from practices such as the consumption of bushmeat. 
As I mentioned earlier in my testimony, wildlife, particularly wild 
primates, harbor viruses that can be transmitted between species. For 
example, outbreaks of diarrhea have been associated with the 
consumption of bushmeat. USAID supports a wide range of health and 
nutrition programs in the Congo River Basin aimed at reducing the 
morbidity and mortality of infectious diseases. These programs include 
diarrheal disease control, prevention of tuberculosis, polio 
eradication and routine immunization, integrated disease surveillance 
and epidemic preparedness and response.
    In conclusion, I would note that the bushmeat crisis is only a 
symptom of the much greater problem of the lack of sustained 
development in the Congo Basin. With burgeoning populations, 
deteriorating terms of trade for most primary products, insecurity, and 
dilapidated infrastructure, much of the Congo Basin has a lower 
standard of living than at independence more than 40 years ago. The 
``solution'' to the bushmeat crisis will only be achieved by fully 
involving Africans in undertaking essential broad development actions, 
thus raising their overall standard of living to allow them to secure 
the alternative sources of protein.
    Thank you. I would happy to answer your questions.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Graham.
    A couple of months ago, I was in Africa and we went to 
visit it, some for a couple of days, some for just a few hours, 
I believe close to 13 countries. And the statement by a petite 
German nun in an AIDS clinic in Ethiopia, Addis Ababa, she was 
a dentist in Germany and gave that up to find a much more 
satisfying way to find meaning in life, so she went to an AIDS 
clinic for children in Ethiopia. She said ``Africa goes through 
three cycles, and three cycles only: drought, war, and disease. 
And each one of those has their own devastating ramifications 
and causes.''
    So we are engaged in a very, very difficult enterprise 
that, unless we get the cooperation from vast numbers of 
people, including governments and nonprofits and the people who 
are looking to find some type of work, some type of food, some 
type of dignity, and those that invest in opportunities in 
Africa, which would be the miners, the loggers, essentially 
foreign governments, I guess we are going to have a tough road 
to hoe--not impossible but we just want to be as important a 
part of that strategy as humanly possible.
    Mr. Burnam, can you tell us about how many pilot projects 
there are in this arena dealing with the bushmeat problem?
    Mr. Burnam. No, I don't have an exact number. I think the 
witness from the World Wildlife Fund might be able to fill you 
in on their activities. This particular project has been going 
on for about 3 years, and it is sort of widely regarded as a 
potential model for the region. I know across the border in 
Cameroon and the Central African Republic, there are also eco-
guards and there is cooperation between the eco-guards in this 
trinational area. But my impression is the pilot projects are 
just sort of getting off the ground.
    Mr. Gilchrest. So this particular pilot project that you 
went to--
    Mr. Burnam. Yes.
    Mr. Gilchrest. --there are eco-guards there as well?
    Mr. Burnam. There are 39 eco-guards.
    Mr. Gilchrest. How are they paid?
    Mr. Burnam. They are paid partly by the logging concession 
and also by the NGO's who are funded also by CARPE.
    Mr. Gilchrest. What is the logging concession? Is that 
locally owned? Is that foreign owned?
    Mr. Burnam. No, it is actually a Swiss holding company. It 
is one of the major logging companies in the area. Most of the 
logging companies are--
    Mr. Gilchrest. When you say one of the largest logging 
companies in the area, does that go beyond the Congo?
    Mr. Burnam. I'm not sure exactly what their holdings are. 
There are a number of major French and European logging 
companies that work--
    Mr. Gilchrest. But they are fairly substantial?
    Mr. Burnam. Oh, yes. There are also sort of fly by-night 
logging companies.
    Mr. Gilchrest. They are the fly by-night logging company?
    Mr. Burnam. There are some, yes.
    Mr. Gilchrest. Oh, there are some.
    Mr. Burnam. Yes. One of the problems is if a responsible 
company increases costs by 3 or 4 percent, can they compete 
with the fly by-night ones? And that is a problem. But I do 
think that having the concession there with the eco-guards and 
the controls they place on the wildlife harvesting is very 
important. It is encouraging, and I think more projects like 
this need to be started up.
    Mr. Gilchrest. What are the other sources of protein? I 
guess if the eco-guards are fairly well paid and there is a bit 
of an infrastructure there for employment for the loggers, but 
we don't want people to eat the bushmeat, and agriculture is 
not working very well or has disappeared, do they have a plan 
right now for sources of food for the people in this region?
    Mr. Burnam. Well, the plan really ensures that the local 
residents have adequate supplies of bushmeat. I mean, you don't 
need to cut them off entirely. There are hunting laws. They 
hunt in certain zones in certain seasons, just the way you 
would in the U.S.
    Mr. Gilchrest. Who enforces that?
    Mr. Burnam. The eco-guards and the logging company. And 
some of them--some of the people turn in their firearms outside 
hunting season so they won't be caught, they won't be tempted. 
So it is really--there are a lot of controls. The alternative 
sources of protein, vegetable gardens, they are trying to work, 
as you would know, more effectively on the poultry farms, which 
are a problem in Africa because of viruses, but they are trying 
to work on poultry farms. They are bringing in beef in small 
quantities. I was told anecdotally that the price of bushmeat 
on the market has doubled, which is a sign that, you know, the 
controls of bushmeat can raise the price. A lot of it is price. 
The bushmeat, as Mr. Graham pointed out, is pretty cheap. It is 
pretty cheap to harvest, and it is pretty cheap on the market. 
And so if you have got the price of chicken and the price of 
beef--they even have a snail project going on. You get those 
things to--
    Mr. Gilchrest. Peanuts, do peanuts grow there?
    Mr. Burnam. Pardon me?
    Mr. Gilchrest. Peanuts?
    Mr. Burnam. Peanuts, I don't know.
    Mr. Gilchrest. That wouldn't work there.
    Mr. Burnam. I am not sure. But they--a lot of it is price 
and education, and the people of the area, they love the 
wildlife. They really don't want to see--they don't want to 
lose their wildlife. So there is a lot of support for the 
program from the people in the area, once they are educated as 
to the nature of the problem. So I think it is a very promising 
concept.
    Mr. Gilchrest. Mr. Graham, are you familiar with the pilot 
project that Mr. Burnam is talking about?
    Mr. Graham. Yes, I am familiar with it because it is with 
one of our CARPE partners that it is being implemented.
    Mr. Gilchrest. Who is the partner?
    Mr. Graham. I believe it is WCS in this particular area, if 
it is the same project. This is a project that has basically 
brought--it was a very innovative project on the part of WCS, 
Wildlife Conservation Society of New York, bringing together 
what I would like to characterize as a reformed lumber baron 
who had his difficulties in court, et cetera, in Europe and has 
basically come around a long way to being antagonistic to 
national parks and to game preservation to now being very 
cooperative. And I think the WCS deserves--
    Mr. Gilchrest. How did that happen?
    Mr. Graham. I think WCS deserves high credit for inducing 
him to be a cooperator.
    Also, the Government of Congo has cooperated a great deal 
with the evolution of this project, as has a small eco-tourism 
organization called Safari International. The four of them got 
together and have basically created a large area in North Congo 
which can serve the multiple requirements that are necessary 
for the game to continue to exist. It is, as Mr. Burnam has 
pointed out, it is possible to continue to harvest a very 
moderate amount of bushmeat for the local needs. The biggest 
issue is what happens when that bushmeat starts to go into the 
urban areas where the demand is high, the price is high, and 
the production just skyrockets.
    Mr. Gilchrest. When you say bushmeat--I understand that we 
still hunt deer here. They trap fox, possum, et cetera, all 
over the country. And it makes sense to allow local people to 
continue to harvest moderate amounts of bushmeat for 
consumption. Would you include gorillas in that bushmeat?
    Mr. Graham. No, sir. I believe that in most--the range of 
the various different kinds of gorillas, the four major 
divisions within the gorilla community, there is only one where 
it isn't severely endangered, and that is in the area of 
western lowland. But even in that area, it is by no means a 
situation where it would be the kind of thing that you could go 
out and have your--like a deer hunt. There should not be an 
open season on gorillas under any circumstances.
    Mr. Gilchrest. In reading and preparing for the hearing 
today, it seemed that there was at least somewhere some 
evidence--and I mentioned it in the opening statement--about 
restaurants in various parts of the country that serve exotic 
meals and in some cases maybe even gorilla meat.
    What is done in those countries--Europe, Japan, or the 
United States--as far as enforcement is concerned in dealing 
with these international agreements to not deal in endangered 
species? Are you aware of any restaurant--or any effort to 
pursue the restaurants?
    Mr. Graham. No, sir, I am not aware of any; in this country 
I am not familiar. I have seen menus in Africa that include a 
number of animals that I don't choose to eat and I am not sure 
I would want to digest. But the issue that you bring up I would 
defer to Dr. Stansell because it really falls under the CITES; 
transportation of gorillas in any way, whether they are dead, 
in a diplomatic bag or whatever, is strictly against CITES. And 
I would defer--
    Mr. Gilchrest. Dr. Stansell, can you tell us what the Fish 
and Wildlife Service is doing in that area?
    Dr. Stansell. Yes, Mr. Chairman, thank you. As I said in my 
testimony, there are literally dozens of species that are 
utilized for bushmeat. Some of those are fairly common 
throughout the continent. Some of those are very rare and very 
limited. Through the Convention on International Trade in 
Endangered Species, we have identified those species that are 
particularly threatened or endangered as a result of 
international trade, which include species like gorillas, 
elephants, and some of the crocodile species. There is a 
complete commercial ban on the trade in their meat for any 
reason. And the U.S. Fish and Wildlife Service aggressively 
enforces those kinds of imports into the United States.
    I would say the Convention, however, is made up of 158 
parties now, and the strength of that Convention is based on 
the ability of those individual parties to do the enforcement. 
You could very well see species that are technically listed on 
the Convention appear in a situation like in a restaurant, but 
hopefully not here in the United States. In fact, we have made 
a few cases in the United States on certain species that were 
illegally imported. So I think it is a problem and it is 
outside the United States. I think there are--
    Mr. Gilchrest. Has there ever been a restaurant cited or 
fined or closed down because they have served gorilla meat or 
some other type of endangered species?
    Dr. Stansell. Not in the United States, and I don't know 
about other countries and their enforcement. We have much 
stricter domestic measures under the Endangered Species Act 
that also cover a number of these species.
    Mr. Gilchrest. Is there any way to know whether the trade 
in bushmeat, especially to restaurants in foreign countries, is 
widespread, is a small part of the bushmeat trade problem?
    Dr. Stansell. I believe that it is a growing part of the 
bushmeat problem, even if it affects species that are fairly 
common and not gorillas. It feeds the demand and the desire for 
others to have access to those kinds of species. So I think 
that this is an example of how the process is growing now that 
we are actually seeing these kinds of products showing up in 
developed countries and in international markets far beyond the 
borders of Africa.
    We see this phenomenon in--not only Africa, but 
particularly Southeast Asia, where a number of turtle species 
are going into the food market. Our concern is that this is 
growing, and perhaps bushmeat in Latin America may be the next 
focal point. So it is leading the demand.
    Mr. Gilchrest. As we move to try to find solutions to this 
problem and create a strategy, the United States, I guess, 
works with various elements in the international community. How 
does State, Fish and Wildlife, and USAID collaborate in this 
arena?
    Dr. Stansell. I can certainly start to answer your 
question. Fish and Wildlife Service has, through at least the 
two grant programs that are directly related to conservation of 
elephants and great apes, we are able to provide actual--
    Mr. Gilchrest. Well, actually what I meant was do the three 
of you or your representatives collaborate on the U.S. end as 
you engage the international community? Mr. Burnam, Dr. 
Stansell, and Mr. Graham, do you three or your representatives 
discuss this issue in both the particulars and the big picture, 
maybe as far as you have a region in the Congo or you are 
dealing with Liberia or Sierra Leone or Guinea or some other 
place, in your strategy do you include the medical community 
for the problems of disease? Do you include the Department of 
Agriculture to create an agricultural corridor or an 
agricultural zone to tap the kinds of potentials that could be 
a food source? Do you collaborate with the enforcers, the eco-
guards, you know, the full range--the nonprofits that are out 
there? Is there a fairly coordinated, united front from the 
U.S. perspective?
    Mr. Burnam. Well, Mr. Chairman, forest law enforcement has 
been a major diplomatic initiative of the U.S. Department of 
State. In fact, President Bush has offered to help developing 
nations combat illegal logging. And as we began to look at that 
issue, we realized that the illegal trade in wildlife is 
intimately related to illegal logging because of the connection 
I tried to bring out in my testimony. So we have been studying 
the issue on an interagency basis. Jim and I were in the Congo 
for a planning meeting on forest law enforcement. That is what 
we were there for. But as soon as you take up the issue of 
forest law enforcement, you realize logging is both sort of a 
problem and a solution. It is a problem because it opens up the 
roads, but it also offers the opportunity to do some of the 
things that the CARPE program and WCS and others have been 
working on.
    So there is a good deal of attention in the Administration 
to this problem, which has been heightened by your hearing, 
and--
    Mr. Gilchrest. Did you say ``tension'' in the 
Administration or ``attention''?
    Mr. Burnam. I am sorry. Attention to it.
    Mr. Gilchrest. Attention.
    [Laughter.]
    Mr. Burnam. Oh, there is no tension in this area. I am glad 
you corrected the record.
    Mr. Gilchrest. When we look at this issue--and I don't want 
to broaden it beyond the scope of the hearing, necessarily. But 
we are looking at an area of the world where there is 
difficulty because of the banking system. The economic 
infrastructure, in some cases, is totally absent. The cultural 
differences of private property versus no concept of private 
property, the investment potential, there is just a myriad of 
issues out there that make it very difficult to make a 
connection where there is very steady progress.
    When I go to my district, people are always saying, ``What 
are you doing to bring us jobs?'' Well, you know, they say that 
to every Member of Congress. But there are some aspects of 
economic growth in this country that are pretty standard and 
almost taken for granted. But if you move into an arena where 
you are working in West Africa and Central Africa, in much of 
Africa, it seems that you are starting at the very beginning. 
Each decade we start at the very beginning to try to develop 
something that will take hold.
    As you work with these governments--and I would assume 
probably there is a great deal being done. And I guess to bring 
the point home, when I was in Addis and in Mozambique and a 
number of other countries, and we sat down with members of 
parliament or the prime minister, there was an overwhelming 
sense of trials and the difficulties that lie ahead in 
stabilizing governments and countries where what we take for 
granted is absent almost in its entirety.
    So would State, would USAID, and the myriad of programs 
that you have throughout the continent, as you move through 
with these reborn logging folks and local people and create in 
some way a sense of a stable government based in the early 
stages on the rule of law, equal opportunity, representative 
democracy, the concept of private property, those kinds of 
things?
    Mr. Burnam. I think you have focused very eloquently on the 
factors that need to be addressed. You know, the Administration 
believes that sustainable development has three pillars: the 
environmental, the economic, and the social. And you really 
have to--all those three pillars have to be strong if you are 
going to have sustainable development. You cannot have--you 
cannot just draw a line on a map and create a park and say, OK, 
we have protected biodiversity. You have got to have the 
economic and the social component. As you pointed out, you have 
to provide a better livelihood for the people and a better 
income for the people.
    Some of the forests in Central Africa are still relatively 
untouched. The resources that are there, many people within the 
Congo Basin themselves are unaware of. There are waterfalls 
that were discovered last June. There is a vast area here of 
untouched moist forest, but riddled with logging concessions at 
the moment. And so the question is--
    Mr. Gilchrest. Where did the logging concessions come from?
    Mr. Burnam. From the government. The government will--this 
are national--
    Mr. Gilchrest. And this is a source of revenue for the 
government?
    Mr. Burnam. The government, in some cases, yes, it is 
viewed as a source of revenue, although the concessions are 
often simply given out with the expectation that the economic 
development, which--
    Mr. Gilchrest. Is there any criteria that the government 
uses to issue these concessions?
    Mr. Burnam. Yes, there are.
    Mr. Gilchrest. Such as conservation--
    Mr. Burnam. Yes, and most of the governments have within 
the past few years revised or are in the process of revising 
their forestry laws.
    I guess the point I am trying to make, in the Congo we are 
kind of--we are at the fork in the road, and the question is 
which way do we go. Do we move toward a system of sustainable 
forestry with controls on wildlife harvesting? Or do we keep 
going down the road of basically, you know, unregulated 
activity? So I think it is a very--and the game isn't over yet. 
There are a lot of opportunities to build on what the CARPE 
program has already done. And so I think it is a place where we 
should be focusing our attention and where the kind of focused 
effort that you are calling for is, in fact, needed.
    Mr. Gilchrest. Do you have any recommendations for the 
Congress in this regard?
    Mr. Burnam. Well, we will come back here with 
recommendations if we develop some.
    Mr. Gilchrest. Dr. Stansell? Mr. Graham?
    Mr. Graham. I didn't have recommendations for the Congress. 
I just wanted to underline the partnership among the three of 
us, our institutions. I would bring to your attention a book 
that the CARPE project has put down lessons learned over the 
last 5 years, and I believe that this supports what Mr. Burnam 
has indicated, that we are at a fork in the road. We have 
learned a lot about the kinds of issues that are taking place 
in the Congo Basin, broadly put, and also in detail on the 
bushmeat crisis. And I believe that the partnership, the three 
institutions that are sitting here are collaborating formally 
and informally to try to address these. And I just wish for you 
to realize that this is a process that is going ahead.
    Mr. Gilchrest. Thank you very much.
    Dr. Stansell?
    Dr. Stansell. Yes, thank you, Mr. Chairman. I would only 
add that this is an extensive problem, as you have indicated, 
that really gets at the heart of the social structure on the 
continent.
    That said, I would hope that we didn't lose sight of the 
fact that there is an awful lot that we are doing, there is an 
awful lot that we can continue to do, while we are trying to 
sort out all of the bigger issues, the bigger social issues 
that underlie this crisis. So I would just ask that we continue 
to support, to the extent that we can, the collaborative 
efforts that we have got going. We have participated in a dozen 
or so projects through our various grant programs that really 
have provided--
    Mr. Gilchrest. How much money is in the grant programs?
    Dr. Stansell. Right now we have $1 million in our elephant 
grant program, $1 million in our great apes program, and--
    Mr. Gilchrest. These grants go to--
    Dr. Stansell. These grants go to on-the-ground projects, 
either through participating nongovernmental organizations or 
working directly with the African governments. And they really 
do bring--it is a small focus, but they bring a focus to the 
kinds of solutions that we have talked about today. A perfect 
example is through CARPE we have collaborated in providing 
additional funds for game guards, some very specific things 
that can be done today to achieve a solution to those problems.
    Mr. Gilchrest. Would you say a country like Liberia is lost 
or is there anybody working in Liberia right now? Can that 
country and its wildlife be saved?
    Dr. Stansell. I don't know specifically about activities in 
Liberia, but I do know enough about the country to know that 
the answer is yes. Habitat is still there. If you look back at 
the turn of the century in the United States and count the 
number of wild turkeys or white-tail deer or wood ducks, with 
all the market-based hunting that was going on at that point in 
time. So I do believe that we still have time, but it is 
running out, and the kinds of activities that we can move 
forward are going to be critical.
    Mr. Gilchrest. Is USAID in Liberia right now? Are they back 
in Liberia? Anybody in Liberia?
    Mr. Graham. I believe that USAID still has a presence 
associated with Liberia. I am not sure whether it is in 
Monrovia or in a separate city serving the interests of trying 
to keep a presence in Liberia. Exactly what it is doing in 
regard to the environment, I am sorry, Mr. Chairman, I am not 
privy. I just simply don't know.
    Mr. Gilchrest. Sierra Leone?
    Mr. Graham. The same would be true in Sierra Leone. I do 
know that USAID has activities that are associated with Sierra 
Leone, but, again, I believe it is being managed out of another 
city.
    Mr. Gilchrest. I see. So you get some brave souls to go in 
there. So your sense of the crisis is it is truly solvable, it 
can get better? Is there some hope that the world's great 
species will survive through this century?
    Mr. Burnam. Oh, yes. I think we are at a fork in the road, 
as I said. You know, there are a lot more elephants in Africa 
than we thought. When they first went into Gabon to survey the 
forests there in the 1980's, they thought there were only 5,000 
elephants in Africa. Well, there are about 100,000 elephants in 
Gabon. These areas are--I was at one clearing where I saw 87 
elephants in one clearing. I mean, this Congo has enormous 
natural resources that are there, and the whole question is: 
Are the governments and the NGO's and the other countries other 
than the United States, such as Germany and France and Great 
Britain, are we going--the European Union has some programs in 
the area. Are we going to really focus our efforts now and try 
to build on what has been done in the past 5 years? That is 
really the issue.
    Mr. Gilchrest. The last question. I know there is just a 
myriad of things to do and ways to approach this and dollars 
that need to be spent and so on and so forth. Would you say--
with all the things that need to be done, what is the most 
difficult problem in an ongoing solution? Is it competent, 
stable governments?
    Mr. Burnam. From my perspective, I think I would just cite 
one factor as--I think competent, stable governments, respect 
for the rule of law, are the heart of the problem. But, you 
know, simply sending out eco-guards to catch poachers isn't by 
itself going to do the trick. So I think the political and the 
economic and the social aspects have to be addressed in an 
integrated manner.
    Mr. Gilchrest. Very good.
    Dr. Stansell. I think I would only add to that that, of 
course, you have to have stability, at least to a degree, 
within the governments, but I think that the longer-term issue 
is developing a long-term land-use strategy and forest 
development strategy that would address many of these kinds of 
issues, and then moving forward in a collective global approach 
to try to get that kind of strategy implemented on a country-
by-country basis where the stability would allow it. We are 
talking about a vast area that has geopolitical boundaries that 
are just that. We can almost pick and choose in those areas 
where it is stable enough to work. So if we could collectively 
move forward, I would think that would probably be the most 
important thing that we could do to achieve this.
    Mr. Graham. I would like to simply make a complementary 
addition to the previous two speakers, but also to add that one 
of the real resources in Africa are the people. And the level 
of human resources there varies from very, very, very sound, 
professional, accomplished individuals to people who really are 
out in the bush, literally and figuratively. And we need to 
invest in those people.
    One of the great things that is harming the investment in 
those people, of course, is the diseases that are taking so 
many of them away. But the human resource capacity building is 
an extremely important complement to what the previous speakers 
have already indicated.
    Thank you, sir.
    Mr. Gilchrest. Thank you very much. Gentlemen, this has 
been very helpful and inspiring. We would like to stay engaged 
with each of you as the process moves along over the coming 
decades.
    Mr. Burnam, Dr. Stansell, and Mr. Graham, thank you very 
much, gentlemen.
    Mr. Burnam. Thank you, Mr. Chairman.
    Dr. Stansell. Thank you.
    Mr. Graham. Thank you.
    Mr. Gilchrest. Our next panel will be: Mr. Marcellin 
Agnagna, Chairman, CITES Bushmeat Working Group; Dr. Michael 
Hutchins, Director of the Department of Conservation and 
Science, American Zoo and Aquarium Association, and Co-
Chairman, Bushmeat Crisis Task Force; Dr. Richard Carroll, 
Endangered Species West and Central Africa Programs, World 
Wildlife Fund; Dr. John Robinson, Vice President and Director 
of Wildlife Conservation Society; Dr. Mohamed Bakarr, Senior 
Technical Director, Center for Applied Biodiversity Science at 
Conservation International.
    I think there are more seats, if everybody wants to sit 
down.
    I want to thank the witnesses for traveling here now this 
afternoon. We look forward to engaging you in your testimony, 
and, Mr. Agnagna, you may begin, sir.

           STATEMENT OF MARCELLIN AGNAGNA, CHAIRMAN, 
                  CITES BUSHMEAT WORKING GROUP

    Mr. Agnagna. Thank you, Mr. Chairman, for the opportunity 
to speak to this Committee concerning a very important 
challenge facing all Central Africans--the bushmeat crisis. But 
first I would like you to excuse me because of my English. I 
usually speak French, but I am going to try to express myself 
in English.
    Mr. Gilchrest. If it becomes difficult, you can speak 
French. Someone will interpret. But you are doing just fine, 
sir.
    Mr. Agnagna. Thank you. I was going to say that the massive 
African equatorial forest is the second largest humid tropical 
forest in the world after the Amazon, both in size and its 
biological wealth. It is an unequaled refuge for a number of 
species of fauna and flora, some of which remain to be 
discovered, while others are threatened with disappearance.
    This immense natural resource heritage continues to be the 
principal source of meeting the vital needs of the peoples of 
the Central African forest. The subsistence needs of yesterday 
have yielded to an improper lucrative exploitation of natural 
resources beyond reasonable limits and, most notably, the 
commerce of bushmeat.
    The situation is complicated and enhanced by the armed 
conflicts and logging activity in the region and the 
accompanying proliferation of weapons that are now used for 
poaching. Networks of well-equipped and well-organized poachers 
empty the forests using Kalashnikov rifles to feed the urban 
centers, penalizing the village populations that essentially 
depend on bushmeat for their survival. Suddenly there is a food 
security problem at the village level, and it is necessary that 
the new management strategies take into account traditional and 
long-forgotten knowledge.
    The use of natural resources was essentially for 
subsistence. Vital activities such as hunting, fishing, and 
cutting large trees in the forest were well regulated and often 
subjected to rituals.
    Species such as the leopard, bongo antelope, Nile 
crocodile, elephant, and the hippopotamus, to name a few, were 
revered by most of the tribes in Central Africa, and often were 
animals totemic or emblematic in the Bantu culture.
    Although prized by most of the Africans, bushmeat is a 
commodity that was not consumed daily It constituted an 
exceptional meal and was often reserved for special occasions. 
Even after the advent of firearms at independence, the 
tradition always was respected. Every weapon that entered the 
forest was only authorized to take a quota established by the 
chief. Bushmeat was not marketed but was consumed only inside 
the hunting territory.
    Unfortunately, this effective type of management, adapted 
to the African context, was rejected under the pretense of 
modernity or economic development.
    The economies of most countries of the region are supported 
either by oil or forest exploration. Logging constitutes the 
first or the second source of income to most of the countries 
of the region.
    Logging plays a very important role in growth of the 
illegal bushmeat trade and constitutes a serious threat to 
wildlife. The present situation is catastrophic in all the 
countries of Central Africa. At the start, it was simply a 
matter of small quantities for family usage, but this new type 
of city dwellers whose purchasing power was growing with 
employment found in the city began passing larger orders. The 
existing market and the increased requests provoked an 
unprecedented explosion of commerce of wild products, bushmeat 
in particular. It was more or less in the same manner that 
bushmeat found its place in the exotic restaurants of Western 
cities, such as Paris, London, Brussels, New York, and 
Washington.
    Some important efforts are underway in the region at the 
political level to mitigate the crisis, including establishment 
of consultative frameworks. The CEFDHAC, the COMIFAC, and the 
success of the Yaounde Declaration are illustrations of 
regional political will.
    One action which is taking place is the CITES Bushmeat 
Working Group. Approved by the CITES Secretariat in April 2000, 
this group has developed a five-point action plan and has 
secured the basic funds to operate a central office with 
support from National Bushmeat Officers. The five priority 
actions are: to review policy and legislation in the region 
with reference to bushmeat and establish a harmonization of 
this legislation for the region; create a regionwide public 
awareness campaign regarding the impacts of the illegal, 
commercial bushmeat trade and impacts on cultural heritage; 
develop a bushmeat trade monitoring system in conjunction with 
the CITES/MIKE; establish a regional approach to wildlife 
management and bushmeat control in logging concessions; and 
provide training and capacity building to bushmeat officers, 
ministry personnel, and law enforcement agents regarding the 
bushmeat trade.
    It is important to note that the approach taken by this 
group is not to forbid the consumption of bushmeat for those 
who actually need it but, rather, to increase strategies of 
sustainable use while developing alternative protein and income 
sources for local populations.
    To attain this objective, there are needs for more time and 
resources than the CITES Bushmeat Working Group alone has 
available. The international community is being summoned, and 
the Central African countries need international support to 
fight against this scourge that not only is decimating the 
wildlife habitat but is also a dangerous threat to the wildlife 
of the forest people--threat to the life of the forest people, 
notably the Pygmies.
    And to finish, I would say that the bushmeat trade kills 
the wildlife, but is also killing the village.
    Thank you very much.
    [The prepared statement of Mr. Agnagna follows:]

  Statement of Marcellin Agnagna, Chair, CITES Bushmeat Working Group

    The massive African equatorial forest, whose inhabitants are of 
Bantu Pygmy origin, dominates the Central Africa region. This humid 
tropical forest contains portions of six countries: Cameroon, Gabon, 
Equatorial Guinea, the Republic of Congo, the Central African Republic, 
and the Democratic Republic of the Congo. This forest is the second 
largest humid tropical forest in the world after the Amazon, both in 
size and its biological wealth. Various expeditions, scientific and 
other, conducted in the region during the last decade, made apparent 
the immensity of the biological, ecological and cultural potential of 
this forest of Central Africa. It is an unequaled refuge for a number 
of species of fauna and flora, some of which remain to be discovered, 
while others are threatened with disappearance. In Democratic Republic 
of the Congo, for example, more than 4,009 species of mammals, 1,086 
species of birds, and 1,060 species of fishes have been identified. In 
the Republic of Congo (Brazzaville), 45 species of reptiles, more than 
450 species of mammals, and 600 species have been identified.
    This immense natural resource heritage continues to be the 
principal source of meeting the vital needs of the peoples of the 
Central African forest. With no pastoral tradition, generations of 
forest dwellers through myths, beliefs and customs, established sacred 
rules of management of the resources that are essential to their 
survival. The rational or sustainable management notion, therefore, is 
not a new concept for these peoples, who already by tradition were 
involved in the management and monitoring of such vital activities as 
fishing, hunting and gathering (i.e. mushrooms, caterpillars, and wild 
fruit). Nevertheless today, all these sacred rules are trampled under 
foot, on the pretense of modernism and economic development. The 
subsistence needs of yesterday have yielded to an improper lucrative 
exploitation of natural resources beyond reasonable limits and most 
notably, the commerce of bushmeat.
    In Central Africa, the bushmeat trade is currently one of the 
sources of income for many of the inhabitants of forested areas. The 
development of logging has brought relatively large amounts of money to 
formerly isolated areas and human populations that were once exempt of 
excessive consumption habits. Poachers and game traders now use logging 
roads and other transportation means to bring illegally captured meat 
to market in the cities. The thousands of workers and their families, 
employed by the forestry companies, constitute a potential market for 
bushmeat, especially as logging companies usually prefer to ignore 
their employees' protein needs. This situation is complicated and 
enhanced by the armed conflicts of the region and the accompanying 
proliferation of weapons that are now used for poaching.
    The commerce of bushmeat is suddenly the principal income source 
for a good number of the inhabitants in areas that still hold wildlife. 
The conditions that favor the development of this activity are 
numerous, among which are unemployment, poverty, growing demand for the 
meat of wild animals (and thus, the existence of the market), 
demographic growth, development of logging on a large scale and 
ignorance, among others.
    The bushmeat trade takes on enormous proportions throughout all 
Central Africa. In all the markets of the large urban centers such as 
Libreville, Yaounde, Bata, Bangui, Kinshasa, Brazzaville, Pointe Noire, 
Malabo, or Douala, bushmeat is openly and consistently sold, whatever 
the season, despite its illegality. The quantities are disturbing and 
sufficiently illustrate the problem. In Pointe Noire, second largest 
city and economical capital of the Congo, a study carried out in 1996 
(PROGECAP) estimated that 150,000 metric tons of bushmeat is consumed 
annually. It is certain that the current rate is now double. 
Libreville, capital of Gabon, receives daily shipments of bushmeat by 
railway. About 1,200 metric tons of bushmeat flows into the markets of 
Libreville daily. Bangui consumes about 120,000 metric tons of bushmeat 
yearly; Bata, second largest city of Equatorial Guinea, daily offers a 
gruesome spectacle in its central market where transport vehicles bring 
piles of the whole animal carcasses of all species. All the species are 
impacted and some are threatened with extinction, notably the large 
animals such as duikers, gorillas, chimpanzees, and elephants.
    Everywhere in Central Africa, the bushmeat trade has become a true 
scourge that threatens the survival of several wildlife species and is 
of greatest conservation concern. The scarcity of game around some 
forest towns forces the inhabitants to leave. Networks of well equipped 
and well organized poachers empty the forests using Kalashnikov rifles 
to feed the urban centers, penalizing the village populations that 
essentially depend on bushmeat for their survival. Suddenly there is a 
food security problem at the village level, necessitating the use of 
more costly hunting methods that most villagers cannot afford. Some 
villagers are obliged to constantly roam in search of a better life in 
urban areas or forestry concessions. Although illegal in most countries 
of the region, the bushmeat trade is expanding, with the governments 
lacking the capacity to enforce the laws. The international community 
is being summoned. The Central African countries need international 
support to fight against this scourge that not only is decimating their 
wildlife heritage, but is also dangerous threat to the life of the 
forest peoples, notably the Pygmies. The bushmeat trade kills the 
wildlife and the village.
    The problem is complex, and the solutions cannot be found solely in 
classic conservation approaches. It is necessary, therefore, that new 
management strategies take into account traditional and long-forgotten 
knowledge; a return to traditional management seems inevitable. The 
participative management concept could be improved while taking into 
account the traditional values of forest peoples.
    Important efforts are underway in the region at the political 
level, including the establishment of consultative frameworks. The 
CEFDHAC (Conference on the Ecosystems of Dense and Humid Forests of 
Central Africa), COMIFAC (the Conference of the Ministers in charge of 
the Forests of Central Africa), and the success of the Yaounde 
Declaration are illustrations of regional political will. Nevertheless, 
the governments of the countries of this region do not have the means 
to deal with this scourge. International support would be most welcome.
    This political will is now augmented by the CITES Bushmeat Working 
Group [Appendix A] (CITES BWG), set up by Decision 11.166 of the 
Conference of the Parties to CITES in Nairobi Kenya in April 2000. The 
CITES BWG brings together all the Directors of the Central African 
Region, and their support staff, who are in charge of wildlife 
management and protected areas. Since its inception, this group has met 
several times with assistance of the international community, notably 
the Government of the United Kingdom, the United States, thought the 
U.S. Fish and Wildlife Service (USFWS), and the Bushmeat Crisis Task 
Force (BCTF). An action plan was developed and is being executed with 
funding of $135,000, obtained by the BCTF from the John D. and 
Catherine T. MacArthur Foundation. This financing, along with support 
from USAID's Central Africa Regional Program for the Environment 
(CARPE), is being used to execute the action plan and also permits the 
installation of a Regional Coordinator based in Yaounde, Cameroon.
    The BCTF closely collaborates with the CITES BWG and is helping to 
find additional funds from international sources, as it is now an 
international problem. It is not unusual to find African bushmeat in 
the restaurants of certain capitals such as London, Brussels, New York, 
and Washington. Well organized distribution networks allow the feeding 
of far-flung international markets The airlines that link Africa to the 
West play a very important role in this traffic. Just some months ago, 
I flew on an Air France flight from Brazzaville to Paris. To my 
surprise, I saw some passengers hurrying to embark with their 
accompanied luggage: suitcases full of bushmeat and of smoked 
freshwater fish, within the full view and knowledge of the customs 
officers that gladly helped to close the suitcases after their 
``inspection.'' The practice takes place in almost all the airports of 
Central Africa. The domestic airlines that connect large urban centers 
to the internal cities carry large quantities of bushmeat, as do other 
means of transport such as trains and boats. This situation is serious 
and demands the special attention of the international community.
TRADITIONAL MANAGEMENT OF NATURAL RESOURCES.
    To make a shift from classic conservation theory, we want here to 
focus on traditional management of the natural resources. In fact 
before and during the colonial period, the people of Africa had 
established natural resource management systems based on the respect of 
mythological beliefs. Every activity linked to the use of natural 
resources followed precise rules. It was not anarchical, but instead 
disciplined and respectful of established order. The system worked 
well, it did not need law enforcement agents to assure respect for the 
rules because they were inviolable. Mankind treated nature with care 
because we were conscious that our survival depended on it. The use of 
natural resources was essentially for subsistence. Vital activities 
such as hunting, fishing, and cutting large trees in the forest were 
well regulated and often subjected to rituals.
    Traditional Hunting and Fishing: Traditional hunting was practiced 
for a long time for subsistence and was subject to rules that varied 
from one ethnic group to another. With the Bantu-speaking peoples of 
Central Africa, for example, every clan or ethnic group had a territory 
or well delimited zone used for hunting. Access and hunting could not 
take place without the authorization of the traditional chief. A quota 
system existed by species and included some forbidden prey species. The 
belief was that spirits protected certain forbidden species, the taboos 
and other myths created beliefs surrounding them were inviolable 
barriers.
    Respect for tradition was severe. Species such as the leopard, 
bongo antelope, Nile crocodile, elephant, and the hippopotamus, to name 
a few, were revered by most of the tribes in Central Africa, and often 
were animals totemic or emblematic in the Bantu culture. Also, big game 
hunts were only practiced for special occasions. Killing an elephant, 
for example, took place with an agreement between neighboring villages 
or clans. With the tribe of the ``Kouyous'' in the north of the 
Republic of the Congo (Brazzaville), one organized a festival of folk 
dances and demonstrations of strength during a week before the elephant 
hunting party. The hunters were chosen among the elite of the town and 
then were prepared. For a full week they received spiritual blessings 
that protected them against the forces of the evil. Only after all 
these formalities did the hunters enter the forest to confront an 
elephant. The clan chiefs accompanied them at the end of the hunt to 
give them some final blessings. Every hunter carried with him a full 
measure of provisions and protection of amulets (talismans) and three 
to four previously-prepared and blessed spears of mystical strength. It 
was then that hunters began the long march tracking elephants. A large 
bull elephant ``Kamba'' was sought. Once the tracks were found, he was 
followed to the end. The endowed hunters were able to make themselves 
invisible ``Indzombi'' and approached the beast and finally pierced him 
in vital areas with their well sharpened spears, before disappearing 
into the forest and again reappearing in a place that was identified in 
advance. After reappearing, they returned to the assault by following 
the blood tracks and killing the animal if it has withstood the first 
attack. This process could repeat itself as much as necessary.
    The parties hunting small game were organized in forms of a 
collective between the inhabitants of a village or of neighbors, who 
used nets, traditional weapons such as spears, lances, harpoons, and 
hunting dogs. The meat was distributed freely among the inhabitants of 
the town, with every family receiving its share, however small is was.
    Although prized by most of the Africans, bushmeat is a commodity 
that was not consumed daily. It constituted an exceptional meal and was 
often reserved for special occasions (family gatherings, initiation 
ceremonies, festivals of traditional dances, etc.). Twenty years ago, 
this was practiced in most villages of the region. Even after advent of 
firearms at Independence, the tradition always was respected. The names 
of the possessors of firearms was known in every town. The use of these 
weapons was verified and monitored. Every weapon that entered the 
forest was only authorized to take a quota established by the chief. 
The arm owner could only sell the part that was surplus to his need. 
Bushmeat was not marketed but was consumed only inside the hunting 
territory.
    I remember during my youth in northern Congo, that my grandfather, 
with the name of notable Agnagna, was customary chief of the region of 
``Loko'' in the area of Owando (Fort Rousset). The notable Agnagna was 
a powerful and respected traditional chief that embodied the life of 
the inhabitants of Loko. It was he who gave the order to hunt, and it 
was to him that all hunters had to present the rewards of the hunt 
before any meat was eaten. He received the right hind leg and the 
trophy (horns, skins or head). The trophies were collected and kept in 
a sacred place where access was uniquely reserved to the initiated. A 
fire was lit there in permanence for the conservation of the trophies. 
The trophies were exposed during period ceremonies and served to 
inventory the number of game hunted during a given period. It was also 
a customary heritage and symbol of strength.
    The largest collection of trophies that I saw in my youth belonged 
to a big chief of the tribe of the ``Kouyous'' by the name of 
``Etoumbakoundou''. He lived in a village called Kouyougandza situated 
downstream of the city of Owando (former Fort Rousset) on the river 
Kouyou. This collection included pieces of very big value of which the 
dimensions were almost always records: antelope horns, leopard skins 
and those of other animals, hippo teeth, cranes and cane cats, feathers 
of rare bird, and elephant tusks. The notable Etoumbakoundou uniformly 
received visits from white settlers (colonial administrators) and a few 
tourists. The visitors' interest in the trophies led them to take one 
or more before leaving. I remember in 1963, when one of the last 
colonial administrators, whose name escapes me, the Commander of the 
Prefecture of Likouala-Mossaka, visited Kouyougandza. He left with a 
gigantic pair of elephant tusks. Six men were necessary to lift each 
tusk, whose weight may have reached 120 kilograms. The boat used by the 
Commander could not bear the weight of the tusks, and some passengers 
had to be left out and later transported on a second trip.
    I was greatly disappointed to note that at the time of my passage 
to Kouyougandza in 1986, that all of the trophies had disappeared after 
the death of the Chief Etoumbakoundou in 1974. An entire culture had 
disappeared.
    Fishing in freshwater was also seasonal. For example, the draining 
of ponds for fish followed a ritual. During the dry season of 1965, I 
witnessed the draining of a pond called ``Etsibi'' in the zone of 
``Loko'' under the authority of the notable Agnagna. In fact, the 
Etsibi Pond had a diameter of approximately 50 meters, and it 
articulated with the Kouyou River through a small canal that dried in 
dry season. ``Etsibi'' was forbidden to visit in period of the high 
waters. In it lived a large Nile crocodile that only the Chief Agnagna 
could observe.
    Baskets were used to drain the pond, and men, women, and children 
of the villages surrounding ``Ossambou'' camped around Etsibi during 
the event. Before the draining of the pond, a ritual was conducted in 
which Chief Agnagna struck the surface of the water with a stick and 
ordered the gigantic crocodile to leave. One could see this 6-meter 
long monster leave the pond and head toward the Kouyou River using the 
canal. After this, the spectacle began. The quantity of fish collected 
was enormous. The fish was smoked to conserve it for future needs. This 
is an example of the manner used by one tribe to manage their natural 
heritage. The efficiency of this traditional form of management was 
clearly established.
    Unfortunately this effective type of management, adapted to the 
African context, was rejected under the pretense of modernity or 
economic development. Now modern conservation laws have shown their 
limits and cannot alone solve the problem of the management of natural 
resources in Central Africa. The customary knowledge that has been long 
forgotten merits revival.

CURRENT SITUATION
    The problem of managing forest resources in Central Africa gives 
rise today to several questions. The economies of most countries of the 
region are supported either by oil or forest exploitation. Logging 
constitutes the first or second source of income to most of the 
countries of the region. For example, in Gabon, where oil reserves are 
being exhausted, the plan is to then exploit the forest resources for 
wood. The policy is to develop a logging industry, which is considered 
a means of development. Nevertheless, questions can be posed about the 
effect this policy will have upon gross national product and on local 
human populations who are dependent on the forest.
    In Central Africa almost all the logging companies are foreign 
owned. They cut and sell the wood on the international market while 
paying derisory taxes to the national government. Wood is given up 
almost free of charge, while logging companies do not conduct 
reforestation procedures. The logging methods are devastating. Some 
speak of selective cutting that consists of exploiting only the largest 
trees with the highest commercial value. In the northern Congo for 
example, the most sought-after species is of the genus Entandophragma 
(Sipo and Sapeli). It is not unusual to see a road of several 
kilometers cut for a single sapeli tree. In the process, dozens of 
other trees may be destroyed. The damage to the flora and fauna are 
huge. As for the village communities, they seem to enjoy a short-lived 
well being as long as there are desirable trees to cut. After that, 
they are left alone in a state of abject poverty.
    We can include some other negative effects of logging. The 
prospection teams and other workers essentially nourish themselves with 
bushmeat. The forest roads and the wood transport vehicles carry all 
sorts of forest products including elephant ivory, animal skins and 
bushmeat. The logging work sites are transformed into immense cities 
wherein thousands of people reside. Merchants of all kinds spring up 
because of the workers' salaries. Basic goods are sold in small shops. 
But behind the counters, merchants disregard the law and traffic in 
wildlife products such as ivory and leopard skins.
    In Pokola, northern Congo, for example, in a worksite created by 
the logging company CIB (Industrial Congolese Wood), the bushmeat trade 
is very well developed. Despite the strong local demand, large 
quantities of bushmeat are transported out of the country, notably to 
the neighboring Cameroon. Professional poachers install themselves 
alongside the forest roads and quietly operate with the complicity of 
the drivers of logging vehicles, who bring the illegal bushmeat to 
distant markets. All the species are slaughtered without restriction, 
the large game is preferred as it yields more profit. Even the species 
once protected by local taboos and beliefs such as the Bongo antelope, 
are poached. In the Pokola bushmeat market, one can daily find meat of 
almost all species of forest animals. The taboo myth was shattered with 
the intermingling of cultures among people who arrived in the area to 
work for the loggers.
    Logging plays a very important role in growth of the illegal 
bushmeat trade and constitutes a serious threat to wildlife. The forest 
roads open for removal of logs are used by the poachers to reach game-
rich areas that were previously inaccessible. In northern Congo near 
the border with the Central African Republic in the zone Enyele, where 
the logging company called ITBL operates, large camps of Central 
African poachers are installed in permanent camps. They illegally hunt 
and traffic bushmeat to feed the markets of Mbaiki and Bangui in the 
Central African Republic. It should be noted that the CAR once had 
forests rich in wildlife, but it has apparently been destroyed by the 
bushmeat trade. Central African hunters now focus on Congo as a source 
of game.
    Former soldiers of the army of former Zairean President Mobutu Sese 
Seko have hidden arms in the villages downstream of Bangui and of 
Nzongo (in the DRC). These stocks of munitions and arms are now used 
for poaching. These ex-soldiers have become professional poachers and 
operate on well organized circuits, and in certain cases, supported by 
the Central African Waters and Forests agents. Elephant poaching is 
very common in this zone, and their meat is sold in the CAR or 
elsewhere. The Central African Waters and Forests agents extract an 
unofficial tax that varies between 1,000 to 2,000 French CFA ($2 to 3$ 
US) on every 50 kg bag of elephant meat that is then freely sold in the 
markets of Bangui, despite the elephant's protected legal status.
    The present situation is catastrophic in all the countries of the 
Central African region. Tons of bushmeat are sold daily on the markets 
of the big urban centers. In Bata, Equatorial Guinea for example, the 
daily bushmeat market contains hundreds of baboons piled up for sale. 
It is estimated that residents of neighboring Libreville, Gabon consume 
more than 350,000 metric tons of bushmeat each year.
    In witnessing this, one wonders if the Central African countries 
have game laws. In fact, some of them have very good laws on paper, 
although other countries need considerable revisions. However, none of 
them effectively regulate the commerce of bushmeat, and it is sold 
openly under the eyes of the authorities whose job it is to control the 
illegal trade.

WHY THE FOREST INHABITANTS OF CENTRAL AFRICA CONSUME BUSHMEAT
    As previously noted, the climatic and ecological conditions of the 
humid tropical forest are hostile to raising cattle, and native people 
are obligated to rely on protein from the forests and rivers. Over 
several generations, myths, traditions, and a cultural preference for 
bushmeat grew among the inhabitants of the forest. These days, almost 
every family has some chickens. But poultry is used for the reception 
of special guests or saved for special ceremonies. Families prefer 
eating bushmeat.
    Therefore, there is a problem caused by people's food preference. 
Bushmeat often is considered as of better quality by its consumers, and 
this seems justified if one considers the low fat content of game meat. 
Still, the recent epidemics of Ebola or HIV/AIDS may originate from the 
contact between humans and hunted animals. This situation raises many 
questions: When did the bushmeat problem first appear? Was it not the 
appearance of modernization? Did not the ancestors live in harmony with 
nature? What does one say to the pygmies who have always lived in the 
forest? Did they know of the problems of HIV and other pathologies of 
the modern world? And what of the forest, wasn't it a holy place before 
the penetration of machines and other arsenals used to exploit her 
resources? Will bushmeat have to be forbidden for consumption? What 
alternatives are there for the people of the forest to eat? The answers 
to these questions will edify the approach to developing solutions to 
the bushmeat problem.
    The peoples of the forest always kept their food habits even when 
they migrated far from their region of origin. Most of the urban 
centers of the region are populated by rural migrants who have not 
abandoned their habits. Even in the city they have a tendency to keep 
their original food preferences such as bushmeat in the forest zone, 
and grasshoppers, caterpillars and other in savannah zones). Suddenly 
illegal dealings in forest products began developing (bushmeat, fruit 
and wild vegetables, palm wine etc.) from the country towards the city. 
At the start it was simply a matter of small quantities for family 
usage, but this new type of city-dwellers whose purchasing power was 
growing with employment found in the city began passing larger orders. 
The existing market and the increased requests provoked an 
unprecedented explosion of commerce of wild products, bushmeat in 
particular. It was more or less in the same manner that bushmeat found 
its place in the exotic restaurants of western cities.

THE SOLUTIONS
    The bushmeat crisis in Central Africa is a daily preoccupation 
regarding management and conservation of the forest resources in the 
region. All the actors, at the political level, administrative, 
scientific and private became aware of the seriousness of the problem 
and are working hard to look for solutions which will minimize impacts. 
In all the regional forums treating biodiversity conservation questions 
bushmeat is always central to the discussion. As was expressed, 
political will to find solutions to the management problems of the 
forest resources is evident in the region. Some encouraging regional 
initiatives include CEFDHAC, the COMIFAC and the reformation of OCFSA 
(Organization for the Conservation of the Wildlife in Africa). 
Nevertheless this political will is far from realizing its financial 
and equipment needs. The recommendations and other suggestions for 
solutions resulting from these discussions have barely begun to be 
implemented.
    One action which is taking place as was mentioned previously is the 
CITES Bushmeat Working Group. Approved by the CITES Secretariat in 
April 2000 this group has developed a five point action plan and has 
secured the basic funds to operate a central office with support from 
National Bushmeat Officers. The five priority actions of this group, 
represented by the directors of wildlife and protected areas from all 
Central Africa are: to review policy and legislation in the region with 
reference to bushmeat and establish a harmonization of this legislation 
for the region; create a region-wide public awareness campaign 
regarding the impacts of the illegal, commercial bushmeat trade and 
impacts on cultural heritage; develop a bushmeat trade monitoring 
system in conjunction with the CITES/MIKE (Monitoring Illegal Killing 
of Elephants); establish a regional approach to wildlife management and 
bushmeat control in logging concessions; and provide training and 
capacity building to bushmeat officers, ministry personnel, and law 
enforcement agents regarding the bushmeat trade. Base funding for this 
initiative has been secured and a reauthorization of the group will be 
submitted at the next Conference of the Parties in Santiago, Chile, 
November 2002.
    It is important to note that the approach taken by this group is 
not to forbid the consumption of bushmeat for those who actually need 
it but rather to increase strategies of sustainable use while 
developing alternate protein and income sources for local populations. 
It will be important to eliminate the commercial aspect of this trade 
and its impacts on wildlife populations.
    To attain this objective, there are needs for more time and 
resources than the CITES Bushmeat Working Group alone has available; 
the international community is called upon to collaborate with African 
nations to address this crisis. The current dimension of the bushmeat 
crisis surpasses the regional context and is indeed continental, the 
solutions to the problem cannot be found without a collaborative effort 
of the international community.
APPENDIX A: CITES BUSHMEAT WORKING GROUP SUMMARY INFORMATION
    The CITES Bushmeat Working Group was recommended in Document 11.44 
and approved [Decision 11.166*] in Nairobi, Kenya in April 2000 at the 
11th Conference of the Parties (COP) for the Convention on 
International Trade in Endangered Species of Wild Fauna and Flora 
(CITES).
    The Working Group includes Cameroon, Central African Republic, 
Democratic Republic of Congo, Republic of Congo (Brazzaville), 
Equatorial Guinea and Gabon and incorporates these countries as the 
case study region for underpinning the scope of work and possible 
solutions for the bushmeat crisis. It also includes a wider range of 
dissemination group countries, including: Benin, Cote d'Ivoire, Ghana, 
Republic of Guinea (Conakry), Kenya, Liberia, Mali, Niger, Sierra 
Leone, Togo, Zambia.
    The primary objectives of the CITES BWG are to:
    <bullet> Set the scope of problems relating to bringing national 
and cross-border bushmeat issues into the context of a sustainable and 
legal process;
    <bullet> Work on identifying solutions that address the scope of 
problems;
    <bullet> Facilitating the implementation process in achieving the 
solutions.
    The CITES BWG held its first meeting in Douala, Cameroon in January 
2001 where they set forth a scope of work and identified priority 
actions for the group. The U.S. Fish and Wildlife Service supported a 
meeting of the members of the core working group along with 
representatives from dissemination group and donor countries during a 
special session of the BCTF Collaborative Action Planning Meeting in 
May 2001 where opportunities for collaboration between BCTF and the 
CITES BWG were identified.
    The CITES BWG held a second formal meeting in Cameroon in July 2001 
where they established a framework for their priority actions, which 
formed the basis of a joint BCTF CITES BWG funding proposal approved by 
the John D. and Catherine T. MacArthur Foundation. With support from a 
USAID grant, the BCTF will again be providing an opportunity for the 
CITES BWG members to meet at the Ecole de Faune de Garoua [Garoua 
Wildlife College] in March 2002 during the bushmeat curriculum 
development workshop co-organized by the college and BCTF. During this 
meeting the CITES BWG will set forth the framework for a three-year 
implementation plan for the joint proposal funded by the MacArthur 
Foundation to include planning for: policy and legislation review, 
training for bushmeat monitoring and database development, review of 
wildlife management authority structures, public awareness campaigns in 
Central Africa, and developing wildlife management guidelines within 
logging concessions. As a result of the funding from the MacArthur 
Foundation bushmeat officers in each of the six core countries and a 
regional coordinator will be supported for the next three years. 
Matching funds to fulfill the CITES BWG efforts are being supplied by 
the U.S. Fish and Wildlife Service through a grant from CARPE [Central 
African Regional Programme for the Environment, USAID] and the UK 
Wildlife Management Authority.
    The CITES BWG has made excellent progress toward developing regular 
communication among wildlife and protected area directors from the six 
core countries of the Central Africa region. Having secured funding for 
priority activities they will be able to develop databases regarding 
trade in bushmeat, harmonize legislation related to wildlife 
exploitation and trade, collate information for a regional perspective 
on bushmeat trade, and raise awareness among the general public in 
Africa regarding the consumption and exploitation of wildlife. These 
steps will culminate in a set of recommended solutions that can be 
`willingly implemented by range states'.
    Decision 11.166 Available from: [http://www.cites.org/eng/decis/11/
166.shtml]
                                 ______
                                 
    Mr. Gilchrest. Thank you, sir.
    Dr. Hutchins?

 STATEMENT OF MICHAEL HUTCHINS, DIRECTOR/WILLIAM CONWAY CHAIR, 
   DEPARTMENT OF CONSERVATION AND SCIENCE, AMERICAN ZOO AND 
  AQUARIUM ASSOCIATION, AND CO-CHAIRMAN, BUSHMEAT CRISIS TASK 
                             FORCE

    Mr. Hutchins. Yes, thank you, Mr. Chairman, for the 
opportunity to testify today on the bushmeat crisis in Africa. 
I am here today representing the Bushmeat Crisis Task Force, or 
BCTF. BCTF is a coalition of 34 U.S.-based nongovernmental 
organizations and hundreds of individual experts all committed 
to resolving the bushmeat crisis. While Africans have hunted 
and consumed wildlife for millennia, it is only recently that 
hunting and trading of wildlife has exploded into a 
multimillion-dollar industry. Millions of tons of animals are 
being killed and consumed annually, including gorillas, 
chimpanzees, and elephants. This unsustainable commerce has the 
potential to empty African landscapes of wildlife in less than 
a generation.
    The African bushmeat crisis is symptomatic of much deeper 
socioeconomic problems that are affecting the entire continent. 
The complex causes of the bushmeat crisis, some of which you 
have heard about today, are interrelated and include growing 
human populations, widespread poverty, social and political 
instability, lack of economic or protein alternatives, lack of 
law enforcement capacity, modernized hunting technologies, and 
new transportation systems that facilitate the movement of 
bushmeat from rural areas into urban markets.
    The effects of the bushmeat trade will certainly be 
catastrophic for both people and wildlife. First, the 
commercial bushmeat trade removes this important resource from 
the communities that are most dependent upon it. Second, 
unsustainable hunting risks the irreversible extinction of 
species across Africa. And, third, the loss of keystone species 
could alter the structure and function of African ecological 
systems.
    Finally, as, again, you have heard before, butchering and 
eating wildlife, particularly great apes and other primates, 
increases the risk that people may contract and spread deadly 
diseases such as Ebola. And bushmeat has also been implicated 
in the emergence of HIV/AIDS.
    BCTF recently hosted a meeting of African conservation 
experts to identify priority solutions, and as a result, we are 
focusing our collective attention on the following actions: 
building local capacity to enforce existing wildlife laws; 
securing long-term funding to maintain a system of well-managed 
parks and reserves; increasing public awareness of the problem, 
both in Africa and the United States; regulating hunting and 
transportation of bushmeat used for commercial purposes; 
improving agricultural production and consumer access to 
bushmeat substitutes; building local capacity by training 
wildlife managers, law enforcement officers, and forestry 
personnel.
    BCTF members are working actively on all these solutions, 
but we recognize that the scale of the problem is so large that 
it cannot be effectively addressed without increased government 
involvement. We, therefore, make the following specific 
recommendations to the Subcommittee:
    First, recognize that unsustainable hunting for bushmeat is 
the most immediate threat to African wildlife today and that it 
threatens the livelihood of rural Africans, driving them 
further into poverty.
    Second, identify a Congressional Bushmeat Caucus to 
collaborate with NGO's and African governments on actions to 
address the bushmeat crisis.
    Third, expand U.S. efforts to improve natural resource 
management in Africa and, more specifically, help to develop an 
effective system of protected areas.
    And, last, expand U.S. support for sustainable economic 
development in Africa, including agricultural development.
    The bushmeat crisis is a wake-up call to longstanding 
problems across the continent. We hope that this hearing will 
put into motion a collaborative global effort to address the 
significant threat to human welfare and biological diversity. 
Time is of the essence, however, as our options for 
intervention will become more limited with every passing year.
    Thank you for your interest and attention.
    [The prepared statement of Mr. Hutchins follows:]

   Statement of Dr. Michael Hutchins, Director/William Conway Chair, 
   Department of Conservation and Science, American Zoo and Aquarium 
         Association, and Co-Chair, Bushmeat Crisis Task Force

    Thank you Mr. Chairman and members of the Subcommittee for 
providing us an opportunity to testify this morning on a looming 
biodiversity conservation and human welfare crisis in Africa the 
illegal, commercial exploitation of wild animals for food, commonly 
referred to as the bushmeat crisis.
    My name is Dr. Michael Hutchins, Director/William Conway Chair, 
Department of Conservation and Science at the American Zoo and Aquarium 
Association or AZA. I also serve as Co-Chair of the Bushmeat Crisis 
Task Force Steering Committee.
    Established in 1999, BCTF represents over 30 US-based institutions 
and hundreds of professionals from around the globe, all of whom are 
committed to working with our partners in Africa, Europe and the U.S. 
to address the bushmeat crisis.
    On behalf of BCTF we would like to commend the Subcommittee and 
specifically Chairman Gilchrest for the leadership you have shown in 
identifying the bushmeat crisis as a priority for consideration by the 
107th United States Congress.
    Increasing demand and the commercialization of bushmeat hunting has 
eradicated almost all large mammals from unprotected areas in West 
Africa and threatens to do the same over the next 20 years in Central 
Africa. East and Southern Africa are also currently experiencing 
dramatic increases in illegal, commercial hunting and the data are just 
beginning to emerge regarding its impacts.
    The causes of the current African bushmeat crisis are many 
including: widespread poverty; increasing consumer demand for meat; 
development of roads by extractive industries, such as logging, mining 
and petroleum which have opened up areas that were previously 
inaccessible; increasing human populations; lack of economic or protein 
alternatives; social and political instability; lack of capacity to 
enforce existing laws; and modernization of hunting technologies (guns 
and wire snares). Due to the complexities associated with the bushmeat 
trade, any solutions will require a global partnership for long-term 
success to be achieved.
    The problem is really one of scale. To provide a sense of the 
enormous impact of the bushmeat trade, Central Africans eat 
approximately the same amount of meat as many Europeans and North 
Americans, yet over 60% of this comes from indigenous wildlife. In 
fact, over 1 million metric tons of antelope, primates, elephants and 
rodents the equivalent of 4 million cattle are killed each year to 
supply Central African families with what is either their primary 
source of protein, or a desired luxury. Consumption of bushmeat by 
large, growing, urban populations, that often view eating bushmeat as a 
way to reconnect with their cultural traditions is one of many factors 
fueling the commercial wildlife trade.
    Although there is a significant bushmeat trade in Asia and Latin 
America, BCTF has focused its attention on Africa where the problem is 
most acute. We are particularly concerned about the Central African 
rainforests as their productivity is dramatically lower than the 
savanna ecosystems of East Africa and, as a result, the impacts of even 
limited commercial hunting are more severe. Except in isolated regions, 
commercial hunting of large, slow-growing wildlife species such as 
elephants, gorillas, and chimpanzees already exceeds their replacement 
rates. Forests are rapidly being emptied of animal life.
Why are we concerned about the bushmeat crisis?
    Economics: The bushmeat crisis is not simply a wildlife crisis. 
Rather, it is a symptom of much deeper socio-economic problems that 
must be addressed immediately for global security, health, socio-
cultural, economic and environmental reasons. Economics is one of the 
primary driving forces of the bushmeat trade. Much of the African 
continent lives in a dire state of poverty. The commercial bushmeat 
trade has emerged as a response to meet the basic needs for food and 
income resulting from such poverty.
    Logging, mining, petroleum and other large-scale extractive 
industries have facilitated the bushmeat crisis by providing a means to 
transport meat from the forest to large cities via newly constructed 
roads. In addition, many companies do not provide food for their 
employees who often become dependent on bushmeat for their protein 
needs. For example, BCTF member, the Wildlife Conservation Society, is 
working with a logging company and the Government of the Republic of 
Congo to prevent illegal bushmeat hunting inside the logging 
concession.
    The primary source of foreign currency in many African countries is 
wildlife tourism. Loss of charismatic species could result in less 
tourism.
    Human Health: Consumption of bushmeat also has critical public 
health implications. Butchering and eating wildlife, particularly apes 
and other primates, increases the risk that people may contract deadly 
diseases such as Ebola, and has been suggested as one of the potential 
vectors for the emergence of HIV/AIDS.
    Furthermore, if people cannot meet their basic nutritional needs, 
they are likely to become more susceptible to disease because of their 
depressed immune systems. There are numerous communities throughout 
Africa that are truly dependent on wildlife as a protein source. The 
commercial bushmeat trade removes this important resource from the 
communities most dependent upon it.
    Ecological/Conservation: Unsustainable hunting risks the 
irreversible extinction of species unique to Africa and the 
irreversible loss of value they confer to communities and to the world. 
These species include bonobos, chimpanzees, gorillas and forest 
dwelling elephants. Loss of key species could result in irreversible 
ecological change that could affect the entire forest ecosystem. For 
example, loss of fruit eaters will alter the seed dispersal patterns of 
up to 80% of the region's tree species. This could change forest 
composition and potentially alter rates of carbon sequestration. Loss 
of grazers could have an equivalent impact on savannah ecosystem 
structure and function.
    Cultural: Certain human communities are at risk of extinction. One 
example is the Pygmy populations of Central Africa that are losing 
their traditional hunting and gathering lifestyle. The loss of wildlife 
from their forest home threatens the very basis of their culture.
What is the BCTF doing to address this crisis?
    Collaboration among diverse groups is the primary way to mobilize 
expertise and resources towards solving the bushmeat crisis. The 
Bushmeat Crisis Task Force was formed as a result of a growing 
awareness among conservation professionals working in Africa regarding 
the dramatic impacts of the illegal, commercial bushmeat trade. BCTF's 
objectives are to: a) work with the general members of the BCTF to 
focus attention on the bushmeat crisis in Africa; b) establish an 
information database and mechanisms for information sharing regarding 
the bushmeat issue; c) facilitate engagement of African partners and 
stakeholders in addressing the bushmeat issue; and d) promoting 
collaborative decision-making, fund-raising and actions among the 
members and associates of the BCTF.
    BCTF recently hosted a meeting of the world's leading experts on 
the bushmeat issue to identify the priority solutions for the immediate 
and longer term. They are: policy development, sustainable financing of 
conservation activities, development of effective protected areas, 
increasing public awareness, facilitating public-private partnerships, 
development of economic and protein alternatives, organization of 
market seller and hunter associations and professional training. BCTF 
is actively working with its members to assure action is taking place 
in all these areas.
    Policy Development: Appropriate policy development for the long-
term, including legislating and enforcing environmental standards is 
likely to be the most effective way of ensuring that business practices 
do not have unnecessary detrimental environmental impacts. BCTF has 
made dramatic progress in policy development in its first two and a 
half years of operation. First, we have supported the formation and 
implementation of the CITES Bushmeat Working Group that consists of the 
heads of the Central African nations' wildlife departments. Second, we 
prepared the draft IUCN Resolution on Bushmeat that was adopted with 
modifications. Third, we have supported recent efforts at the 
Convention on Biological Diversity to enable the formation of a 
Bushmeat Liaison Group.
    Sustainable Financing of Conservation Activities: Securing long-
term funding to maintain a network of well-managed parks and resources 
is essential if we are to protect plants and animals representative of 
the region's unique biological heritage for future generations. BCTF 
has been involved in discussions with other organizations exploring 
mechanisms to fund a sustainable system of protected areas in Africa. 
BCTF has also assisted its members in seeking grants to implement on-
the-ground actions to address the bushmeat issue and also encouraged 
partnerships between and collective action by members.
    Development of Effective Protected Areas: Protected areas are 
critical because they are the only locations on the planet where 
biodiversity conservation is valued more than economics, and wildlife 
can be safe from the hunter's gun and the trapper's snare. As an 
organization BCTF has emphasized the need for long-term support of 
African protected areas. Many BCTF members such as World Wildlife Fund, 
Conservation International and the Wildlife Conservation Society have 
been extremely active in assisting African nations in the development 
of national parks and equivalent reserves.
    Increasing Public Awareness: Awareness campaigns across Africa are 
essential in the short term. Several efforts have begun to emerge which 
link cultural heritage with the information regarding the dramatic 
losses of wildlife. These efforts are reporting dramatic and immediate 
impacts with bushmeat sellers choosing to switch to alternative forms 
of meat. In the US, we are developing educational outreach materials to 
be used by BCTF supporting members and partners in educating the 
American public. We are also developing a longer-term effort to support 
public awareness campaigns across Africa with our many partners on the 
ground.
    We have established a Web site (www.bushmeat.org) and a global 
information network of experts, compiled detailed databases of bushmeat 
publications and projects, and provided connections among bushmeat 
working groups around the globe. We work closely with international 
NGOs, African governments and our colleagues in numerous U.S. 
government agencies. We provide resources and contacts to international 
media for bushmeat related stories including major media sources.
    Facilitating Public-private Partnership: Public-private 
partnerships enable improved regulation of the logging industry. 
Partnerships have the potential to generate significant conservation 
payoffs at relatively low cost. Innovative pilot projects are beginning 
to realize significant conservation payoffs from the greening of 
private sector business practices. BCTF and its members, particularly 
the Wildlife Conservation Society (WCS), have stressed the importance 
of working closely with extractive industries to develop effective 
wildlife management strategies in concessions. In addition, WCS has 
encouraged logging companies to enforce existing wildlife laws in areas 
under their control.
    Development of Economic and Protein Alternatives: Revitalizing 
agricultural production through strategic transportation planning and 
domestic agricultural research and extension will increase food 
production and consumer access to substitutes for bushmeat. 
Alternatives would also provide income-generating options to farmers 
turned hunters. BCTF has collected information on current efforts to 
provide economic and protein alternatives.
    Organization of Market Seller and Hunter Associations: Development 
of market seller and hunter associations could be a component of a 
highly effective bushmeat trade control system. Bushmeat sellers, 
mostly women, represent potential partners in controlling the amount 
and types of animals (non-endangered species) sold. BCTF has collected 
information on the importance of such associations to the bushmeat 
trade but has made little progress to date on this issue.
    Professional Training: With Africa's three regional wildlife 
colleges and support from USAID and the World Wildlife Fund US, we are 
currently organizing and conducting a series of workshops intended to 
develop bushmeat curriculum to be used in training wildlife and 
protected area managers.
    In summary, the BCTF model is showing promise as a new opportunity 
for addressing critical wildlife conservation issues. The very 
existence of BCTF has encouraged organizations and governments to view 
the bushmeat issue in a different light. With the full support of the 
U.S. government and international partners, we believe it is possible 
to effectively address the bushmeat crisis.
Recommendations
    BCTF makes the following recommendations for U.S. government 
involvement in seeking solutions to the bushmeat crisis:
    1. Recognize that uncontrolled hunting and consumption of wildlife 
is the most immediate threat to tropical forest biodiversity and that 
it increases the risk of deadly viral disease outbreaks, and further 
compromises the livelihood of poor rural families in Africa;
    2. Identify a Congressional Bushmeat Caucus to collaborate with 
NGOs and affected governments on specific mechanisms to address the 
bushmeat crisis;
    3. Encourage Congress to support efforts to improve African 
natural resource management and develop a system of effective protected 
areas; and
    4. Support Administration efforts to encourage alliances to 
promote sustainable economic development in Africa through better 
governance, improved agricultural practices, enhanced public health, 
and open trade.
    We applaud the efforts of Chairman Gilchrest and members of the 
Subcommittee to raise the profile of this issue, and we are hopeful 
that this hearing will put in motion a collaborative global effort to 
address this complex threat to biodiversity conservation and human 
health.
    Included for your reference are fact sheets BCTF has developed on 
various specific issues related to the bushmeat crisis:
    Bushmeat and International Collaboration
    Species Affected by the Bushmeat Trade in Africa
    Bushmeat and Economic Development
    The Role of the Logging Industry
    Coltan Mining in the Democratic Republic of Congo and Its Impact on 
Illegal Bushmeat Hunting
    Bushmeat and Global Human Health
    Bushmeat and Ecology
    Culture and Bushmeat
    [GRAPHIC] [TIFF OMITTED] T0615.007
    
Bushmeat and International Collaboration
    Species Involved: All Bushmeat Species Rodents to Elephants
    Stakeholders Involved: Rural Communities, Heads of State, National 
and International Conservation Organizations, Zoological Parks, Animal 
Welfare Organizations, Human Welfare Organizations, Tropical Forest 
Conservation Agencies, Local and National Governments, and 
International Treaty Organizations
Key Concepts:
    <bullet> The bushmeat crisis is the most significant immediate 
threat to the future of wildlife populations in Africa.
    <bullet> Increased demand resulting from high population growth 
trends, modernized hunting methods (guns and snares), and road 
development, all contribute to the growth of the illegal commercial 
bushmeat trade.
    <bullet> Tropical forests and other ecosystems are being emptied 
of their wildlife for this unsustainable trade, which is leading to 
severe ecological damage and human tragedy.
    <bullet> Solutions to the bushmeat crisis require international 
collaboration on: policy reform, sustainable financing, long-term 
support for protected areas, developing protein and income 
alternatives, awareness and education campaigns.
Summary:
    Approximately 30 million people live within the forested regions of 
Central Africa, 40-60% live in cities and towns, and most rely on the 
meat of wildlife as a primary source of animal protein. Forest antelope 
(duikers), wild species of pig, and primates are most often eaten, and 
as much as 1 million metric tons of wildlife is killed for food in the 
region each year. In West African nations human population densities 
are high (25-78 persons per square kilometer) compared to countries in 
the Congo Basin (5-20 persons per square kilometer). West African 
wildlife populations have been so depleted by years of unsustainable 
hunting for meat, that bushmeat is no longer the most important source 
of protein in families' diets. When bushmeat is eaten in West Africa, 
rodents have replaced the over-hunted and now scarce antelopes and 
primates as the most commonly eaten wild animals. East and Southern 
Africa are facing a serious decline of many wildlife populations 
outside of protected areas the bushmeat trade is believed to be largely 
responsible for this decline with increasing human populations and 
demand for meat driving the trade.
Background:
    Wildlife has been hunted for food ever since humans first evolved, 
and wildlife is still viewed as a resource `free' for the taking in 
many areas. Today in Africa, bushmeat continues to be an economically 
important food and trade item for thousands of poor rural and urban 
families. Animal parts are also important for their role in ritual, and 
bushmeat has become a status symbol for urban elites trying to retain 
links to `the village'--often commanding high prices in city 
restaurants. The immediate loss of wildlife and the secondary loss of 
many plant species jeopardizes the function and stability of natural 
habitats--including both forests and savannas threatening the long-term 
survival of ecosystems and the people dependent upon them.
Current Understanding and Activities:
    Hunting of wildlife to meet human demand for protein may still be 
sustainable in the few remaining areas where population densities are 
less than 2 people/km2, trade routes are poorly established, and human 
population growth rates are low. Markets, however, drive the scale of 
the commercial bushmeat trade now occurring in West and Central Africa, 
with their large, rapidly growing populations of consumers. This 
commercial-scale trade threatens the survival of many species, 
including several unique to the dense forested regions of Africa. 
Though deforestation has an obvious impact on wildlife dependent on 
these habitats, over-hunting for the commercial bushmeat trade 
constitutes a comparable threat to the ecosystem itself. It often 
results in the Empty Forest Syndrome: a forest filled with trees, but 
with few if any large animals. Such forests will, over the long term, 
suffer dramatic changes in structure and composition as the wildlife 
responsible for dispersing seeds are lost through over hunting. The 
immediate loss of wildlife and the secondary loss of many plant species 
jeopardize the function and stability of the forests' complex web of 
life, threatening the long-term survival of the forests themselves.
Solutions:
    Possible solutions include: implementation of wildlife management 
efforts in logging and mining concessions; maintenance of a network of 
protected areas; regulation of hunting and trade; increasing consumer 
access to affordable and palatable protein substitutes; development of 
alternative income-generating activities; enhancing national and local 
resource management capacity; and, widespread awareness-raising and 
education. These actions are all important components of comprehensive 
action to resolve the unsustainable bushmeat trade. For these steps to 
be taken, it is essential that conservation organizations, government 
agencies, donors, and interested individuals collaborate to share 
information and facilitate action. The Bushmeat Crisis Task Force was 
formed with these goals in mind.
BCTF Summary:
    Founded in 1999, the BCTF is a consortium of conservation 
organizations and scientists dedicated to the conservation of wildlife 
populations threatened by commercial hunting of wildlife for sale as 
meat. The BCTF operates under the direction of an elected Steering 
Committee and is funded by Supporting and Contributing Members.
    BCTF goals are to: a) work with the general members of the BCTF to 
focus attention on the bushmeat crisis in Africa; b) establish an 
information database and mechanisms for information sharing regarding 
the bushmeat issue; c) facilitate engagement of African partners and 
stakeholders in addressing the bushmeat issue; and d) promote 
collaborative decision-making, fund-raising and actions among the 
members and associates of the BCTF.Species Affected by the Bushmeat 
Trade in Africa: This is a summary of the major taxonomic groups 
affected by the bushmeat trade in Africa. For a complete species list 
please visit the BCTF Website: [http://www.bushmeat.org/html/
SpeciesAffected.htm]
    ANTELOPE: Duikers (Cephalophus spp.) are one of the primary targets 
for both subsistence and commercial hunting activities in many regions 
of Africa. With a limited understanding of duiker life histories in 
natural habitats and the difficulties of conducting monitoring 
activities, conservationists are challenged to determine the ecological 
effects of commercial bushmeat hunting on both duiker populations and 
the ecosystems in which they live. Current research indicates that 
duikers typically supply 40-80% of the meat available in bushmeat 
markets across Central Africa. In West Africa, years of commercial-
level exploitation coupled with habitat loss have resulted in 
considerably reduced duiker populations in many areas. Projections for 
duiker populations in the long-term suggest dramatically decreasing 
trends for the majority of species. Addressing the bushmeat trade 
should involve approaches that include all species effected from 
rodents to elephants, and should pay particular attention to Africa's 
duikers as a group of primary importance to both present and future 
generations of Africans.
    ELEPHANTS: African elephants are considered keystone species 
because of the pivotal role that they play in structuring the plant and 
animal communities where they reside. The continental decline of the 
African elephant and the contraction of its range have historically 
been associated with the ivory trade as well as habitat fragmentation 
due to human population expansion, and desertification. However, 
elephants are increasingly targets of the illegal market in bushmeat. 
Currently the majority of the elephants' range in Africa is outside of 
protected areas, particularly in Central Africa, where elephants are 
increasingly vulnerable to human encroachment and illegal hunting. 
Despite the growing consensus and recognition that elephants are being 
killed illegally not only for ivory, but also for their meat, there is 
a lag in the research focus on this issue. Most likely this is because 
illegal poaching for ivory has overshadowed investigations of the 
poaching of elephants for bushmeat. It is important to delineate this 
gap in the bushmeat research knowledge base in order to identify and 
prioritize critical habitat, threatened elephant populations within 
these regions, and the still un-asked research questions before it is 
too late. By defining the gap in the current knowledge conservation 
organizations will be better able to direct future field research and 
conservation projects, and to help potential funders of these projects 
to prioritize and allocate scarce research monies.
    PRIMATES: The effects of the bushmeat trade are particularly 
devastating to primate communities. Primates often become key targets 
when populations of antelope and other higher-return species become 
depleted due to over hunting. Currently there are more than 26 species 
of primates being harvested for the bushmeat trade including all 
species of great apes. The impacts of the bushmeat trade on primates is 
well-outlined in the 1998 Ape Alliance bushmeat report, which suggests: 
both local and complete extinctions of endangered and threatened 
species, expansion of live trade in apes [aka bushmeat orphans], 
destruction of subsistence-based human communities [due to loss of 
their resource base], and increased risk of disease transmission 
resulting from contact with primates. This final point is beginning to 
emerge as a significantly important research topic. New studies are 
identifying an increasing number of potential linkages between emerging 
infectious diseases and primates through the bushmeat trade, including 
HIV, Ebola, and others. The impacts of bushmeat hunting on both primate 
and human communities threatens the future of all primate populations 
locally and the human population globally.
    CARNIVORES: In contrast to their savanna counterparts, carnivores 
in rainforest habitats are inconspicuous (many are solitary and 
nocturnal), yet they are numerically important members of forest mammal 
communities throughout Central and West Africa. African forest 
carnivores are difficult to census using traditional transect methods 
and thus ecological information is rudimentary and the status of most 
species in African forests remains largely unknown. Carnivores are not 
`traditional' bushmeat species and are generally captured on an 
opportunistic basis. When they can afford to be selective, African 
forest hunters generally prefer duikers and primates. In some locales, 
however, carnivores are targeted and the trade in carnivore skins (such 
as leopard) can be significant. Cable snares are notoriously non-
selective and carnivores can be caught in such traps. They are better 
equipped than most mammals to escape by chewing their way out; however, 
the ``collateral mortality'' due to injuries incurred is unknown. While 
all forest carnivores may not be directly threatened by over-hunting, 
they are likely to be indirectly impacted due to competition with 
humans for the hunting of their most important prey species.
    Impacts of the escalating bushmeat crisis on forest carnivore 
populations are not known. The extent to which carnivores fall prey to 
humans is difficult to quantify or monitor over the long-term because 
these animals are not highly marketable and are usually consumed rather 
than sold. Evaluating the selectivity of hunters is impossible without 
information on the availability (i.e. relative densities) of target 
species, however, a given number of individuals extracted from an area 
may have more impact ecologically than other mammal groups because of 
their naturally low densities, low intrinsic rates of increase, and 
position on the food chain. Presumably, hunting poses the most serious 
threat to forest carnivore populations where they are already exposed 
to the adverse effects of forest fragmentation, such as in the Upper 
Guinea rainforests, considered a core area for the conservation of 
small carnivores. The IUCN Small Carnivore Specialist Group listed 
habitat destruction and hunting as the main threats facing small 
carnivores.
    RODENTS: Due to the difficulty of raising domestic hoof stock in 
Africa, various sources of wild animal protein, including rodents, have 
traditionally been used. As rodents are relatively abundant, easy to 
capture, and are preferred by consumers, they have been proposed by 
some as a potential alternate source of protein and income through game 
ranching and micro-livestock domestication. However, other viewpoints 
hold that rodent farming is an inefficient way to generate protein. 
Human consumption of rodents does have associated health risks however. 
In parts of tropical Africa, Lassa fever, an acute viral illness, has 
become a serious problem in recent decades. The reservoir of the Lassa 
virus is the multi-mammate rat of the genus Mastomys. Only a few of the 
349 African rodent species appear with regularity in the commercial 
bushmeat trade with the most commonly hunted rodent species including 
grasscutters or cane rats (Thryonomys swinderianus and T. gregorianus), 
giant pouched rats (Cricetomys gambianus and C. emini) and porcupines 
(Atherurus africaphus ssp). But while the range of rodent species 
directly affected by the bushmeat trade is not great, the numbers of 
animals consumed can be considerable. The species that have been 
documented by bushmeat market studies tend to be among the most 
abundant, as they are easier to locate and capture, and because 
ungulates, such as duikers, are still plentiful enough to make up the 
bulk of the bushmeat trade affording hunters more meat for their 
efforts than most rodents. However in some cases rodent species have 
been locally exterminated as in the case of the giant pouched rat in 
eastern Democratic Republic of Congo (DRC), where the human population 
is dense, the land fully cultivated, and other wildlife species 
overhunted. Similarly, some populations of grasscutter rats are well 
below carrying capacity, or have become extinct due to local 
overexploitation (NRC 1991). Most African governments have laws 
requiring that hunters have a license to take unprotected rodents. 
These types of measures could help to protect rodent species from 
overhunting, but are infrequently enforced (IUCN 1996).

Bushmeat and Economic Development
    Bushmeat Focal Issue: Eco-Economics
    Species Involved: Rodents to Elephants
    Stakeholders Involved: Rural Communities, Urban Communities, 
Hunters,
    Traders, Market Sellers, Logging Companies, Development Agencies 
and Donors
Key Concepts
    1. Lack of economic options and the value of bushmeat relative to 
its production and transportation costs make participation in the 
commercial bushmeat trade attractive to poor rural and urban people. 
Moreover, profits from the bushmeat trade attract non-local, commercial 
hunters who are less likely to practice restraint when hunting.
    2. In Africa, as in much of the rest of the world, growing urban 
populations and rising household incomes drive the increasing demand 
for meat. With wildlife ``free for the taking,'' and inadequate 
production and marketing of alternative protein sources, bushmeat will 
continue to fill this growing consumer demand for meat.
    3. Most people eat bushmeat because it is the cheapest and most 
readily available source of meat. Some are willing to use scarce 
financial resources to eat a bushmeat meal. In other parts of the world 
people shift away from eating bushmeat as soon as other sources of 
protein become both reliably available and cheaper.

Summary
    Economics drives the bushmeat crisis, although cultural attachment 
may also play a role. Growing demand for meat in most cities provides 
new economic opportunities for people whose traditional sources of 
income have withered as agricultural prices have fallen and jobs have 
become increasingly scarce. Although wealthier people will pay high 
prices for gorilla, snake, and porcupine in the capital cities, most 
bushmeat is eaten by families who cannot afford the more costly beef, 
chicken and pork. Economics can also be a key component to developing 
solutions to the bushmeat crisis. Cooperative efforts could help to 
increase law enforcement and to tax commercial trade in wildlife will 
contribute to solving the bushmeat crisis. Such activities would reduce 
the supply and increase the price of bushmeat. This would encourage 
consumers to seek alternatives, and thus help protect wildlife 
populations. Local production of economically affordable alternatives 
is vital, but may need to be subsidized initially to encourage 
production and keep alternative protein prices significantly lower than 
bushmeat. Reducing supply and shifting demand to locally produced 
alternatives are the keys to curbing the commercial trade in bushmeat 
without jeopardizing the health and welfare of Central Africans.

Background
    Evidence from other parts of the world suggests that poor families 
initially consume more bushmeat as their incomes rise. Consumption only 
begins to drop when families become wealthy enough to switch to eating 
more expensive cultivated sources of protein. Bushmeat consumption, 
therefore, appears to follow an inverted U pattern with income. If this 
pattern is also true for Central and West Africa, then changes in 
livelihoods of rural and urban families may increase or decrease 
consumption of bushmeat, depending on where they are on the income 
axis.
    Though people have eaten bushmeat on a subsistence basis for 
millennia, only recently has it become such an important source of 
income for so many people. In rural areas, people once made money 
growing and selling a variety of products, including: rice, cotton, 
cacao, coffee and peanuts. Over the past 20 years livelihoods have 
collapsed as infrastructures have decayed, prices fluctuated and the 
currency devalued. With farming unprofitable and limited off-farm jobs 
available, many rural people have turned to commercial hunting and 
trading of bushmeat. This is an attractive alternative because high 
returns can be made from a relatively small investment, there are only 
limited controls on hunting and trading of bushmeat, and logging 
companies provide hunters with access to once isolated regions of the 
forest, and traders with the means to transport bushmeat to markets. 
Urban populations fuel the demand for bushmeat. These communities have 
grown substantially since the 1960s and their buying power has 
fluctuated with the unstable economy. Bushmeat is meeting urban demand 
for meat because it is relatively cheap and available, particularly 
since logging roads and vehicles have increased hunters' access to once 
isolated forests and their wildlife populations.

Current Understanding and Activities
    Central Africans typically eat as much meat as many Europeans and 
North Americans (30-70 kg/person/year). Most of this meat comes from 
wildlife. Approximately 30 million people live in the forests of 
Central Africa, and they eat an estimated total of 1.1 million metric 
tons of wildlife each year the equivalent of almost 4 million cattle. 
The estimated annual value of this bushmeat trade in West and Central 
Africa could exceed 1 billion U.S. dollars. A hunter can make $300-1000 
per year from commercial hunting. This is more than the average annual 
household income for the region and is comparable to the salaries of 
those responsible for controlling the bushmeat trade. Hunters regularly 
reinvest their profits on improved technologies, which makes killing 
wildlife easier, more profitable, and less sustainable. The difference 
between subsistence and commercial hunting are becoming less clear as 
marketing opportunities increase. Traders, transporters, market 
sellers, restaurateurs, and their families also benefit from the 
commercial trade in bushmeat and we must recognize that all of their 
incomes would be affected if laws against the trade were strictly 
enforced. As demand for bushmeat increases, more people will be 
encouraged to become involved in the trade, increasing the pressure on 
wildlife populations, threatening the survival of rare species, and 
jeopardizing future access to ecological, nutritional and income 
benefits from wildlife. A few pilot projects have begun in West and 
Central Africa to assess the extent and impacts of the bushmeat trade, 
to place controls on the commercial bushmeat trade, and to develop 
alternative sources of protein. Widespread collaborative efforts are 
necessary to develop and implement bushmeat control and wildlife 
management activities and to share the lessons learned from such 
activities.

Recommended Solutions
    Efforts to constrain the supply of bushmeat and enforce laws that 
prohibit the commercial trade in bushmeat will, in the short-term, 
decrease the amount of bushmeat available in markets. However, if 
demand for bushmeat is strong and substitutes do not exist, bushmeat 
prices will likely increase, providing incentives for people to enter 
the trade and find ways to circumvent controls. Consequently, solutions 
to the bushmeat crisis must include ensuring that consumers have access 
to alternative protein sources that are both palatable and priced 
competitively with bushmeat. Unless consumers have economically viable 
alternatives they will continue, not surprisingly, to demand wildlife 
as an affordable and tasty source of meat.

The Role of the Logging Industry
    Species Involved: All Flora and Fauna--Entire Ecosystem
    Stakeholders Involved: Local communities, international timber 
producers, timber product traders and consumers, producer and consumer 
country governments, World Bank, Multilateral Development Banks, 
International Monetary Fund, Food and Agriculture Organization (FAO), 
African Timber Organization, International Tropical Timber Organization 
(ITTO)

Key Concepts:
    <bullet> After oil and minerals, logging typically provides the 
next most significant source of national revenue for the densely 
forested countries of West and Central Africa, and will continue to do 
so for at least the next 25-50 years.
    <bullet> Road construction associated with selective logging 
dramatically increases hunter access to isolated sectors of the forest, 
and decreases the cost of transporting bushmeat to urban markets, 
effectively increasing the supply to, and profitability of the bushmeat 
trade.
    <bullet> Per capita bushmeat consumption is highest in logging 
concessions, because the large numbers of company workers can afford to 
eat more meat than poorer unemployed families, they have the money to 
purchase guns and ammunition, and they have motorized access to the 
forest to hunt.
    <bullet> Logging companies are the de facto managers of most of 
the remaining relatively intact blocks of forest outside of protected 
areas and have a key role to play in ensuring that logging practices do 
not jeopardize the survival of wildlife populations within concessions.
    <bullet> Public advocacy has encouraged several logging companies 
to partner with conservation organizations. Such companies are 
developing and testing approaches to curb the export of bushmeat from 
concessions and to decrease bushmeat consumption by loggers and their 
families.

Summary
    Logging is an economically important land-use throughout West and 
Central Africa, and a major threat to wildlife. Present selective 
logging practices not only result in increased consumption of bushmeat 
within concession areas, but also facilitate the supply of bushmeat to 
urban markets and enhance the profitability of the trade. With 
assistance from governments and conservation NGOs, logging companies 
are beginning to alter their practices so that they no longer directly 
or indirectly promote the unsustainable consumption of bushmeat, 
thereby minimizing the impact of logging on forest wildlife. Widespread 
adoption and enforcement of appropriate forest and wildlife management 
policies and practices is essential to effective control of the 
commercial bushmeat trade.

Background
    The tropical forests of West and Central Africa cover an area of 
over 2 million km2 almost four times the size of France. Although as 
many as 80 species of trees are logged commercially in these regions, 
less than 5 account for the majority of wood exports. In Cameroon, 
Sapelli (Entandrophragma cylindricum) and Ayous (Triplochiton 
scleroxylon) comprise over 1/3rd of all log exports. In Gabon, Okoume 
(Aucoumea klaineana) accounts for over 70% of exports. Logging 
progresses like a wave over the landscape as timber companies enter 
into unlogged areas in search of the few valuable trees that are 
scattered in low density throughout the forest. Once these are logged 
the company quickly moves on to the next area. To find and harvest 
these individual trees, loggers must construct numerous survey trails 
and roads. This road-building both heavily fragments the forest, and 
opens it up to hunters. A hunting trip that might have taken days to 
complete before the arrival of logging may be reduced to a few hours 
when the hunter can hitch a ride on a logging vehicle. Moreover, with 
the help of the logging company transport, hunters no longer have to 
carry the dead animal(s) for long distances and therefore tend to kill 
many more animals on each trip. Logging companies not only directly 
increase demand for meat by hiring a large workforce, they also greatly 
facilitate their workers entry into the commercial trade to supply 
bushmeat to urban markets. This same scenario existed in West Africa in 
the 1950s and 1960s, and contributed to the widespread and dramatic 
declines in wildlife populations evidenced in West African forests 
today.

Current Understanding and Activities
    Decades of research and subsidies have convincingly demonstrated 
that natural forest management for timber is both economically and 
ecologically untenable. Yet, it may be possible to manage timber 
harvesting to generate a relatively constant, and economically viable 
stream of marketable wood, accepting that tree species composition will 
change within the logged forest, but ensuring that logging practices do 
not result in significant impacts on wildlife populations. The majority 
of large, relatively intact blocks of forest outside of protected 
areas, that comprise less than 6% of the landscape in Central Africa, 
are currently being logged or are earmarked for logging. It is critical 
that logging companies modify their practices to minimize the impact on 
wildlife, and that protected areas are provided with funding sufficient 
to ensure the long-term persistence of forest plants and animals. The 
role of protected areas in conserving forest biodiversity is 
particularly important in West Africa where less than 8% of the post-
Pleistocene forest remains, and protected areas constitute the last 
bastions for forest dependent species. Advocacy and media attention at 
the international level recently has encouraged several multinational 
logging companies to develop partnerships with conservation NGOs to 
design and implement pilot activities to curb the flow of bushmeat from 
concessions, and to provide logging company workers and their families 
with alternatives to bushmeat. Governments and donors are also working 
with trade associations to develop a `code of good conduct' for all 
logging companies active in the region.

Recommended Solutions:
    Logging companies provide revenues and employment essential to the 
economies of West and Central Africa, and have a major role to play in 
determining the future state of forests and wildlife management in the 
region. Providing logging companies with incentives to minimize impacts 
on plant and animal communities within concessions, to establish long-
term wildlife management plans, to set aside unlogged refuges for rare 
or threatened species, to halt the transportation of hunters and 
bushmeat on logging vehicles, to deny hunters road access to logged 
forests, and to seek ways to provide company employees with alternative 
sources of protein, are all important steps in mitigating the adverse 
impacts of logging on wildlife.
Coltan mining in the Democratic Republic of Congo and its impact on 
        illegal bushmeat hunting
    <bullet> Tantalum is a rare, valuable, metallic element which is 
twice as dense as steel and highly resistant to heat and corrosion. It 
can store and slowly release an electrical charge, a property that has 
made it a vital material for capacitors in portable electronic 
equipment including laptops, digital cameras, playstations and mobile 
phones. Other applications include surgical equipment, turbine blades 
for jet engines and lining chemical reactors.
    <bullet> It is mined in several countries with Australia 
responsible for over 60% of world production. All of the production of 
the largest mines is sold, in advance, on fixed price contracts to key 
tantalum processors. There is no central market for tantalum and, other 
than the major mine-processor contracts, prices are determined by 
dealers on an individual transaction basis.
    <bullet> In 2000, increased anticipated demand for electronic 
products caused a tantalum supply shortfall, precipitating a rush of 
panic buying and a massive price increase. In the Democratic Republic 
of Congo (DRC) this became a Klondike-style rush into the World 
Heritage Site National Parks where `coltan', a tantalum-bearing gravel 
ore, can be easily surface-mined with shovels and sieves. The mines are 
in rebel-held areas of the war-torn, impoverished DRC where warring 
factions are responsible for humanitarian atrocities and neighboring 
countries are accused of perpetuating the war as a cover for systematic 
exploitation of minerals.
    <bullet> The mining camps had a massive impact on local wildlife 
through commercial hunting for food, including the wholesale killing of 
endangered species such as the eastern lowland or Grauer's gorilla. 
This species occurs only in DRC and it is estimated that over 85% of 
the world's population occurred in Kahuzi Biega National Park prior to 
the arrival of 10,000 miners and 300 professional hunters. The 
population has likely been decimated.
    <bullet> The United Nations Security Council published two reports 
in 2001 which clearly stated that the private sector must accept some 
responsibility for contributing to this resource-based conflict through 
the purchase of illegally mined material the spoils of war
    <bullet> The panic-buying coltan boom was followed by a tantalum 
market slump in 2001. The plummeting prices were not, as widely 
reported, due to international pressure to boycott Congolese coltan nor 
to the development of alternatives to tantalum, but rather due to 
companies working off their expensive inventories they simply didn't 
need to buy it. Despite significant planned expansions of Australian 
mining capacity, demand for tantalum is likely to continue to grow at a 
steady rate that may again outstrip supply. Hence, sources such as DRC 
will remain strategically important.
    <bullet> There has been international call for companies to 
boycott Central African tantalum, which is the easiest and safest 
corporate option, particularly in terms of public relations. There is 
no need to purchase Congolese coltan at present due to large 
inventories still being used up after the panic-buying phase. However, 
due to smuggling and the nature of the world market, it is almost 
impossible to guarantee that shipments of ore purchased on the `spot' 
market are free of this `conflict coltan'. Sanctions may impact 
negatively on the poverty stricken region, which is so desperately in 
need of investment and may in fact increase dependence on bushmeat.
    <bullet> Food security for the Congolese people has been 
profoundly compromised by the long-standing conflict that has ravaged 
the country. Theft and destruction of crops and livestock has combined 
with voluntary and forced desertion of agriculture for more lucrative 
mining operations, and thereby to create growing dependence on food aid 
and imports. Under such conditions of stress, dependence on bushmeat 
has increased with sustainable wild harvest off-take hugely exceeded by 
the desperate population.
    <bullet> A regulated, Congolese, coltan industry based on long-
term, transparently negotiated business arrangements with legitimate 
Congolese coltan producers, under the terms of the DRC peace process, 
should be explored. Payment of a fair market price for an ethically 
sourced product could contribute significantly to the peace process in 
the region, as business intervention may be a viable route to stability 
in a conflict that is predicated on economics. This option is far more 
complex, not least as it raises significant questions about the 
acceptability and risk of doing business in a war zone. Paradoxically, 
however, this route could demonstrate greater environmental and social 
responsibility.
    <bullet> Fauna & Flora International (FFI) is global conservation 
organization that builds the capacity of partner organizations to find 
sustainable and innovative solutions to conservation issues in some of 
the most politically complex and most important reservoirs of 
biodiversity in the world. FFI is working with tantalum consuming 
industries to identify their role and responsibilities with regard to 
management of the coltan supply chain, and to find economically, 
politically, socially and environmentally viable solutions to the 
crisis.
    <bullet> FFI is working with corporations and industry bodies, 
governments, conservation organizations, humanitarian NGOs and aid 
agencies, inter-governmental bodies and financial institutions to 
identify possible routes in which coltan can generate long term 
benefits to DRC rather than fueling a war which has resulted in over 3m 
`excess deaths' in 3 years.
Karen T. Hayes, B.A. Mod. Zoo, M.B.A. Cantab.
Corporate Affairs, Fauna & Flora International
Great Eastern House, Tenison Road, Cambridge, CB1 2TT, UK
tel: +44 (0)1223 571000 mobile: +44 (0)7968 179951 fax: +44 (0)1223 
461481
www.fauna-flora.org
4 July 2002
Bushmeat and Global Human Health
    Species Involved: Non-human Primates, Humans, Potential other 
vector/reservoir species.
    Stakeholders Involved: Rural and urban communities in Africa, World 
Population, Centers for Disease Control, National Institutes of Health 
(USA), University and Government Health Researchers around the Globe, 
Private Companies engaging in extractive and/or construction-transport 
activity in tropical forest areas,
Key Concepts:
    <bullet> Wildlife, particularly primates, harbor diseases that can 
jump to humans and cause new and typically lethal diseases such as AIDS 
and Ebola
    <bullet> Hunting, butchering, and consumption of bushmeat places 
people at increased risk of contracting virulent animal borne diseases
    <bullet> Logging, Mining, and Hydroelectric or Fossil Fuel 
Transport projects have opened up new areas of forest to commercial 
hunting, increasing the risk that humans will be exposed to new animal 
borne diseases
    <bullet> Bushmeat is an important source of dietary protein for 
most Central Africans, and they are unlikely to stop eating bushmeat 
unless they fully understand the risks to their health, and to the 
continued presence of these animal populations, and possibly unless 
other cheaper substitutes are available
    <bullet> Increasing our understanding of the factors likely to 
promote transmission of diseases from wildlife to humans is critical to 
evaluating the public health risks associated with the commercial trade 
in bushmeat
    <bullet> Capacity building at local, national, and international 
levels for disease monitoring, surveillance, and care provision among 
forest populations not only provides better information in the medium 
to long term, but also valorizes local knowledge, provides educational 
opportunities, and offers economic alternatives to commercial hunting 
for forest populations in the immediate term.

Summary:
    Though bushmeat is often cited as essential to meeting the basic 
nutritional needs of rural African communities, studies are beginning 
to indicate considerable negative health implications connected with 
the processing and consumption of wildlife. Reports are beginning to 
emerge connecting non-human primates with Ebola virus in a variety of 
African outbreak sites. Deaths have also resulted from outbreaks of 
diarrhea linked with the consumption of bushmeat. Evidence of simian 
immunodeficiency virus (SIV) infection has been reported for 26 
different species of African non-human primates, many of which are 
regularly hunted and sold as bushmeat. Two of these viruses, SIVcpz 
from chimpanzees and SIVsm from sooty mangabeys, are the original cause 
of AIDS in humans. Together, they have been transmitted to humans on at 
least seven occasions. New research suggests that HIV recombinants are 
also appearing in forest sites where commercial hunting and in-
migration of human populations has affected the distribution and 
circulation of viruses. This has scientific as well as public health 
implications, locally and globally.

Background:
    Emerging infectious diseases are a major threat to global human 
health. While dramatic outbreaks of Ebola virus or Sin Nombre (hanta) 
virus have attracted widespread media attention, the disease with the 
greatest global impact to have emerged recently is the acquired 
immunodeficiency syndrome (AIDS). First recognized in 1981, AIDS 
represents the endstage of infection with one of two lentiviruses 
(human immunodeficiency virus types 1 or 2) of zoonotic origin. HIV-1 
has spread to most parts of the world, while HIV-2 has remained largely 
restricted to West Africa. On a global scale, HIV/AIDS represents the 
most important public health threat of the new millennium. These recent 
research results emerge at a time when human populations are increasing 
while availability of resources to meet basic nutritional needs are 
decreasing. Finding ways to reduce human health threats potentially 
caused by the bushmeat trade while addressing protein needs for 
millions of people is a global imperative. Bushmeat in Central Africa 
constitutes 80% of all meat consumed and provides poor rural and urban 
families with as much as 50% of daily protein requirements. Forest 
antelope (duikers) are the most popular species to hunt because they 
are relatively large and abundant, and are easily trapped at little 
cost using wire snares. As antelope numbers decline, hunters shift to 
primates, which are easy but more expensive to hunt, as each animal 
costs a shotgun shell. Eventually, as all large animals are depleted, 
people resort to hunting and selling rodents. Given the greater genetic 
proximity of apes and monkeys to humans, people are most at risk of 
contracting animal borne diseases when bushmeat markets have a high 
ratio of primates.

Current Understanding and Activities:
    Commercial logging of tropical forests represents an important 
economic activity for several African countries. Logging operations 
facilitate the intensification of commercial hunting by building roads 
into once relatively inaccessible areas of forest with abundant 
wildlife, and by allowing hunters to travel on logging vehicles and to 
transport their bushmeat to urban markets. This increased penetration 
of tropical forest has the potential to increase human exposure to new 
infectious agents. In west central Africa alone, numerous primate 
species known to harbor SIV, including colobus, sun-tailed and DeBrazza 
monkeys as well as mandrills, drills, chimpanzees, and red-capped 
mangabeys, are regularly hunted and sold at local bushmeat markets. 
Certain of the simian viruses have properties that render them at least 
candidates for natural transmission. Thus, although there is no 
evidence that zoonotic transmissions have occurred as a direct result 
of this commercialized bushmeat trade, the potential for human exposure 
has increased, as have the conditions that might support the emergence 
of new zoonotic infections. A number of studies are currently being 
undertaken to investigate the linkages between wildlife diseases and 
human health. Such research is essential in addressing many important 
questions concerning wildlife human interactions. Equally important are 
projects to explore alternative models for economic development that do 
not entail large scale ecological disturbance, and to develop and test 
approaches to meeting Central Africans' basic nutritional and protein 
needs, whilst shifting consumer preferences away from eating bushmeat.
    The events that brought about the HIV-1 pandemic may never be fully 
elucidated, though their connection to emergence mechanisms for other 
pathogens, such as Ebola or Hepatitis, merits serious attention. Recent 
research suggests that initial emergence of SIV into human populations 
as HIV-1occurred during the first wave of extractive activity in 
African forests, during the rubber boom of the 1920s and 1930s. 
Regardless of what ultimately caused its explosive spread, conditions 
that promote and sustain zoonotic disease emergence have likely 
increased rather than decreased in the past two decades. Studies 
underway seek to confirm and track continued transmission of SIVs to 
humans at present, and to determine the prevalence of infection and 
associated risk factors. Researchers are also developing and testing 
diagnostic assays capable of recognizing a wide range of lentiviral 
infections in both humans and primates, including the development and 
application of non-invasive approaches to screen primate populations in 
the wild for evidence of SIV infection. Related work trains local 
forest residents to monitor and report on the health of gorillas and 
other non-human primates, and has been instrumental in documenting and 
responding to recent Ebola outbreaks. Addressing the origins and future 
of HIV and other pathogens entails attention to the convergence of 
issues such as environmental change, conservation of endangered primate 
species, economic development, public health, environmental governance, 
and corporate environmental leadership. Such work will increasingly 
require interdisciplinary collaboration of scientists with expertise in 
anthropology, history, ecology, political science, economics, 
primatology, epidemiology, virology and conservation biology. It will 
demand an emphasis on infrastructure development and training in the 
areas concerned, sensitivity to feelings of stigma, and respect for 
distinct culturally based attitudes to some of these issues. It will 
foster discussions concerning resource allocations based on scientific 
and public health priorities as well as the changing definitions and 
perpetual demands of economic development.

Recommended Solutions:
    An interdisciplinary working group of international researchers 
studying emergent viral disease in tropical forest sites all over the 
world met under the auspices of the International Society for Ecosystem 
Health in June, 2002 in Washington D.C.; they will meet again at 
Harvard University, under the auspices of the Harvard Academy for 
International and Area Studies, and the Harvard AIDS Institute, in 
November 2002 (for more information, write <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0d7f656c7f6964634d7a6e6b646c23656c7f7b6c7f6923686978">[email&#160;protected]</a>). 
During the final roundtable session in June, with representatives from 
Department of State, Department of Interior, Department of Agriculture, 
and other government agencies as well as non-governmental 
organizations, the following recommendations emerged:

Governments and donors:
    1. Recognize that previous distinctions between domestic and 
international health concerns are no longer necessarily accurate; 
Pathogens in a tropical forest today could eventually reach Arizona or 
Michigan.
    Example: HIV history, above.
    Recommendation: Institute internal training modules for government 
agencies and policy makers, demonstrating and discussing links between 
human health, ecosystem health, good governance, strong economic 
performance, stability, and U.S. national interests/security concerns.
    2. Consider a Relative Risk Framework: Place known risks (spread of 
existing HIV strains, emergence of new HIV strains, and spread of 
Ebola) on a continuum from high to low risk. Examples: Such an approach 
has worked well for Food Safety in North America. Recommendations: In 
the processes that make up the bushmeat trade (opening of forest areas, 
in-migration, meat demand, market development, hunting intensification, 
ecological change, market response, etc.) determine via hazard analysis 
where are critical control points. Identify the risk reduction points 
and develop a plan and standards for each point. Research can inform 
that process, creating better management programs and training 
programs.
    3. Build better funding support for multidisciplinary research 
initiatives with explicit health and ecology focus.
    Examples: recent NIH initiatives under Fogarty auspices, and others 
just taking shape.
    Recommendations: strong research protocols protecting animal and 
human health, and encouraging teams to share and archive their samples; 
engage in old-fashioned, omnivorous survey work with open minds to 
identify not only known but also as yet unknown pathogens.
    4. Foster participation in training opportunities at research and 
health career levels.
    Examples: WCS training for local residents in Africa on Primate 
Health, supported by USFWS; training for international researchers at 
the Biology of Disease Vectors Program, Colorado State University, 
supported by MacArthur Foundation.
    Recommendation: Earmark funds for local capacity building in any 
conservation or environmental protection initiative; create and/or 
strengthen scholarship and fellowship initiatives in these fields for 
international research training.
    5. Senior Government leadership is needed in multilateral 
negotiations and recently advancing initiatives related to forests and 
trade where the U.S. has interest.
    Examples: We are entering a new institutional era on forest 
management: CBD has adopted a forest action program; G8 interest; Rio + 
10 with clear forest-related deliverables.
    Recommendation: While no one institution or organization has total 
control over such issues as cross sectoral collaboration for 
sustainable forest management, the U.S. can and should be aggressive on 
public-private partnerships, as those emerging in Congo basin 
countries.
    6. Ensure the viability and perpetuity of protected areas in 
tropical forests.
    Examples: slow building of a transborder initiative in the western 
Congo basin, where core areas are surrounded by public/private and 
trinational government efforts at joint management of mixed-use zones. 
Recent research suggests that core protected areas, more than buffer 
zones or management areas, are the best chance for continued densities 
of forest fauna, with viable population numbers, while experiments in 
effective management play themselves out in adjoining areas. As 
wildlife repositories, such core areas have clear value for the 
education of international publics as well as local residents.
    Recommendation: Maintain or increase funding levels for 
establishment and management of protected areas. Earmark funds for 
capacity building programs in core areas that value and reward local 
forest and health knowledge, while expanding skills bases and providing 
new economic opportunities in research, tourism, and health related 
fields for local residents.

Private sector:
    1. Identify appropriate protein alternatives to bushmeat and 
mechanisms for making these resources available and affordable to rural 
and urban communities.
    Example: recent trials with imported chicken and fish in 
Cameroonian logging concessions.
    Recommendation: exploring protein alternatives must be done with an 
eye open for the introduction of new pathogens to wildlife communities 
via the domesticated animals introduced. However, care in the 
distribution and marketing of alternatives can reduce such risks, while 
also reducing consumption of wild animals.
    2. Integrate research-based monitoring of disease processes into 
development projects and for-profit activities in tropical forests.
    Examples: PRESICA project in Cameroon, working with logging 
companies and local populations to conduct blood tests of humans and 
wildlife in logged areas, while increasing awareness and dialogue about 
SIV/HIV among stakeholders; Brazilian example of Power Company funding 
pre- and post- dam construction monitoring of arbovirus levels, and 
offering treatment to local populations where levels have increased.
    Recommendation: Partner with existing research projects, or create 
an internal agency/service for research and monitoring, focusing on 
links between human health and the bushmeat trade including mechanisms 
of disease transmission, monitoring prevalence patterns, and 
documenting and supporting human nutritional needs.

Environmental NGOs:
    1. Work to develop health indicators, for use across ecosystems.
    Example: Biodiversity indicators exist at various degrees of 
specificity. How is that addressed and how we can combine the health 
with the biodiversity? Also, robust (non-normative) indicators/criteria 
are being implemented since the September 11 scare, in various sites 
around the world.
    Recommendation: Use current WCS wildlife health program as a model, 
or starting point. Also, return to original Hotspots Monitoring plan 
for Conservation International: biomedical issues were a part of the 
plan. Let us pick those aspects up; work with medical and public health 
resources in hotspots, and try to systematize our information gathering 
and training on these topics.
    2. Develop awareness raising activities, at various levels.
    Example: The Bushmeat Crisis Task Force has effectively generated 
interest in U.S. based zoo-going publics, and in the North American 
media. Project PRESICA is developing and testing brochures and other 
educational materials in Cameroon. Conservation International is doing 
awareness raising work in Ghana.
    Recommendation: weak spots on such work include reaching the outer 
edges of the stakeholder spectrum: local residents of tropical forest 
areas, and corporate leaders at the international level. Bolster 
funding and collaboration across organizations on effective awareness 
raising at these levels, learning from the successful experiences 
mentioned above.
Bushmeat and Ecology
    Bushmeat Focal Issue: Ecological Processes and Bushmeat
    Species Involved: Seed-dispersing animals, including duikers, 
monkeys, apes and elephants
    Stakeholders Involved: Rural Communities, Hunters, Traders, 
Protected Area Managers, Logging Companies, Development Agencies and 
Donors, Future Generations
Key Concepts:
    <bullet> Hunting Wildlife for meat is a greater immediate threat 
to biodiversity conservation than is deforestation.
    <bullet> People in the Congo Basin eat as much meat as do 
Europeans and Americans; 60%-80% of animal protein is derived from 
wildlife. As much as 1 million metric tons of bushmeat is eaten each 
year in the Congo Basin.
    <bullet> Primates and antelopes that are commonly hunted for meat, 
play an important role in the forest by spreading the seeds of trees, 
vines and shrubs.
    <bullet> Forest wildlife productivity is very low compared to 
savanna populations and cannot sustainably supply protein demands for 
growing human populations in West and Central Africa.
    <bullet> Legitimizing and helping countries enforce existing 
wildlife laws is central to effective wildlife conservation.
    <bullet> Securing long-term support for protected areas and buffer 
zones will be the only solution for many species' survival.
    <bullet> A significant percentage of the animals being hunted are 
classified as threatened or endangered and are protected by 
international laws (e.g. CITES).

Summary
    Though deforestation and habitat loss is often cited as the primary 
cause of local wildlife extinction, hunting for both local consumption 
and large commercial markets has become the most immediate factor that 
threatens the future of wildlife in the Congo Basin in the next 5-15 
years and has already resulted in widespread local extinctions 
throughout the Upper Guinea Forest Ecosystem of West Africa. Empty 
Forest Syndrome describes a forest that has been emptied of its 
wildlife structurally, it appears normal, but no large-bodied animals 
are present. As wildlife are being hunted out of forests, those 
ecosystems lose important seed dispersers, thus affecting the ecology 
of the entire ecosystem.
    The short-term economic benefits derived from the commercial 
bushmeat trade, though expedient for poor families today, may 
jeopardize long-term economic opportunities for future generations. And 
worse may place people in increased jeopardy of contracting and 
transmitting animal-derived diseases such as Ebola or HIV (See BCTF 
Fact Sheet on Health).

Background
    If only one species of animal existed in the forest, hunters would 
continue to hunt that species until it became so scarce, from over 
hunting, that profits from hunting declined below that which the hunter 
could make doing something else, such as farming or fishing. 
Unfortunately for rare and endangered species, the forests of West and 
Central Africa are home to numerous wildlife species that are hunted 
for food. In this case, when hunters go hunting they are not targeting 
single species, but are roaming the forest in search of any animal 
worth (in economic terms) killing. A bushmeat hunter with a shotgun is 
inclined to shoot the largest animal he can be assured of killing 
because this will generate the most profit per cartridge. So although 
an animal may become scarce, even to the point of almost going locally 
extinct, a hunter will shoot it if he encounters it, and it is large 
enough to warrant using up an expensive shotgun cartridge. Given this 
fact, rare and endangered species are likely to be driven to extinction 
by hunters when other more abundant animals continue to make hunting 
profitable.
    Moreover, even when over hunting and bushmeat scarcity causes 
prices to rise and substitutes to be more competitive, hunting will 
continue in areas where bushmeat capture and transport costs remain 
comparable to the costs of livestock rearing.
    Bushmeat is often a primary source of protein for local 
communities, as other alternatives are frequently not viable. In 
Central Africa, domestic animals such as cattle, goats, pigs, chickens 
and ducks are raised by rural and urban households, but they are 
primarily viewed as savings and insurance rather than as sources of 
protein. This traditional value of livestock remains important to 
households in the region today because inflation is high and access to 
banks and formal credit is limited or absent. Furthermore, tsetse flies 
and trypanosomiasis severely limit cattle raising in the forested and 
scrubby savannah landscapes typical of the region. As a result, the 
meat of domestic livestock tends only to appear in rural or urban 
markets that are located relatively close to savannahs and ethnic 
groups with a tradition of pastoralism.

Current Understanding and Activities
    Hunting of wildlife to meet people's demand for protein may still 
be sustainable in the few remaining areas where population densities 
are less than 2 people/km2, trade routes are poorly established, and 
human population growth rates are low or negative. The scale of the 
commercial bushmeat trade now occurring in West and Central Africa, 
however, is driven by markets with high human densities and growth 
rates. This industrial-level market threatens the survival of many 
species, including several unique to the dense forested regions of 
Africa. While deforestation is an obvious menace to wildlife dependent 
on these habitats, hunting constitutes an even greater threat to the 
ecosystem. Even where tree cover is relatively intact, we find forests 
without wildlife this is known as Empty Forest Syndrome. Such forests 
suffer dramatic effects in structure and composition as the wildlife 
necessary to disperse seeds and enable regeneration are gone. This may 
result in loss of many plant species as well as considerable effects on 
water flow, including streams and major rivers.
    Loss of wildlife from hunting, means loss of seed dispersing 
animals that play a key role in determining tree composition and 
distribution, altering both the structure and function of the forest 
and potentially causing irreversible ecological effects (e.g., carbon 
sequestration) with global consequences.
    Wildlife populations, though highly diverse in these forests, are 
not as productive when compared with savanna-based wildlife 
populations. In general, there is an order of magnitude difference 
between the biomass available for hunting within the same amount of 
space when we compare forests (2,500 kg per square kilometer) and 
savannas (25,000 kilograms per square kilometer) (Robinson and Bennett 
2000). Thus, animal husbandry programs such as the game ranching 
efforts (commercial management of wildlife for meat and skins) found in 
East and Southern Africa are not a viable alternative in West and 
Central Africa.

Recommended Solutions
    <bullet> Long-term support for protected areas including provision 
of well-equipped and trained anti-poaching units is a clear priority 
for mitigating the commercial bushmeat trade. This is particularly true 
for West Africa where much of the original forest cover has been 
removed and protected areas provide some of the only land available for 
many wildlife populations.
    <bullet> Target extractive industries to manage wildlife resources 
in partnership with governments and conservation NGOs.
    <bullet> Increase support for national and transborder protected 
area networks and for developing wildlife management capacity at local, 
national, and regional levels.
    <bullet> Provide support for stabilization of conflicts throughout 
the region an important link with dramatic losses of wildlife that 
removes potential economic development and ecological importance from 
future generations of Africans.
    <bullet> Support environmentally sound economic development 
throughout West Africa and the Congo Basin. Influence broader 
environmental strategy implementation (e.g. through National Bushmeat 
Action Plans) and increase capacity for international cooperative 
efforts.
    <bullet> Development of multi-level research and education 
programs including: fundamental and applied research to increase 
understanding of tropical forest ecosystems; to improve methods for 
harnessing sustainable, renewable natural resources; to develop 
alternative sources of income and protein; to adapt school and 
university curricula to include an improved understanding of 
biodiversity; to introduce new technology such as interpretation of 
satellite imagery, communications and tools such as GIS and molecular 
biology.
    <bullet> Support public awareness campaigns designed to reach out 
to range states to raise awareness of the bushmeat crisis and their 
role in implementing solutions.

Culture and Bushmeat
    Bushmeat Focus Issue: Social Ecology
    Species Involved: All bushmeat species: rodents, giant pangolins, 
brush-tailed porcupine, duikers (forest antelope), monkeys, 
chimpanzees, gorillas, elephants, and humans
    Stakeholders Involved: Rural and urban communities, indigenous 
groups, conservation and development organizations
Key Concepts:
    <bullet> Bushmeat is an important source of protein for poor rural 
and urban families in West and Central Africa.
    <bullet> Many communities will continue to hunt even where 
alternatives exist as bushmeat and hunting are culturally and socially 
important.
    <bullet> When people do not have stable land tenure or livelihood 
security, they are less likely to care for the resources in the areas 
where they reside.
    <bullet> Population growth has a major effect on the demand for 
bushmeat. Even if per capita consumption remains stable, increasing 
population can have a devastating effect on wildlife and natural 
resources. More land must be cleared for housing and agriculture, and 
more forest resources must be extracted to meet basic needs.

Summary
    Local communities are inextricably tied to the current bushmeat 
crisis in West and Central Africa. They form the network of hunters, 
traders, truck drivers, market-resellers, restaurateurs and consumers 
that moves wildlife from the forest to the urban cooking pot. All 
participants in their trade network rely on bushmeat for some of their 
livelihoods. Wildlife provides protein, cultural and religious 
linkages, and a source of income many rural families. People do not 
typically view bushmeat hunting as a problem. Rather, wildlife is 
viewed more as crop pests, threats to their lives and livelihoods, an 
inexhaustible resource free for the taking, and a new source of income. 
However, growing human population and changing economic conditions are 
driving demand for bushmeat that now exceeds the rate that hunted 
wildlife are replaced within the forest. Unsustainable hunting for meat 
will mean the loss of a valuable source of food and income for the huge 
number of families involved in bushmeat trade networks. Finding ways to 
conserve threatened and endangered wildlife species, without 
compromising the health and welfare of poor rural and urban families is 
a challenge. Shifting demand to locally produced alternatives to 
bushmeat and revitalizing the traditional agricultural economies of 
recent entrants into the bushmeat trade, are the keys to curbing the 
commercial trade in bushmeat without jeopardizing the health and 
security of West and Central Africans.

Background
    Wildlife species have held great importance for forest-dwelling 
peoples for millennia. Duikers (forest antelopes), monkeys, rodents and 
bushpigs all serve human communities as sources of protein, cultural 
and social artifacts and now, as sources of cash when sold to bushmeat 
markets. Hunting is vital to communities without access to agricultural 
markets, or to those who are too poor to purchase other sources of 
meat. Hunting is inextricably woven into many societies. Animal parts, 
such as horns, feathers or bones are a crucial part of many cultural 
and religious ceremonies. In areas where people live at low densities 
and can rotate their usage of forest resources, wildlife populations do 
not seem to suffer much damage. However, increasing population 
densities and unstable land tenure risks depleting the wildlife upon 
which many communities depend for their way-of-life and cultural 
identity. Halting unsustainable hunting and helping to retain the 
cultural value of wildlife is a challenge when many people involved in 
the commercial trade in bushmeat view wildlife as abundant, 
inexhaustible, and free to be used.

Current Understanding and Activities
    Livelihood insecurity, and absence of land tenure facilitate the 
unsustainable commercial trade of bushmeat. Poor people with few job 
opportunities see hunting or trading or re-selling bushmeat as a source 
of income to meet today's critical needs, and, not surprisingly, are 
less concerned that their actions risk forfeiting their livelihood in 
the future. Similarly, families without the legal or practical ability 
to restrict who hunts how much in their forest, are encouraged to hunt 
all the wildlife they can as quickly as possible, before others do.
    Conservation and development organizations (both governmental and 
nongovernmental) must tread carefully when working with local people on 
the bushmeat issue. All of us resent ``outsiders'' imposing 
restrictions on our behavior that seem artificial and unconnected to 
our personal situations, needs and realities. Building relationships 
and capacity among all key stakeholder groups enables the development 
of appropriate solutions that can link resource use regulations and 
activities that offer alternative sources of protein and economic 
opportunities.

Recommended Solutions
    Working with all participants in the commercial bushmeat trade to 
increase livelihood and resource access security will increase the 
success of any projects that seek to decrease the quantity of wildlife 
hunted for food. Targeting development activities to draw population 
pressure away from fragile areas, and promoting the use of family 
planning can help secure access to forest resources over the long term. 
People must have access to alternative, economically competitive, and 
palatable protein sources, for bushmeat consumption to decrease.
                                 ______
                                 
    Mr. Gilchrest. Thank you, sir.
    Dr. Richard Carroll?

  STATEMENT OF RICHARD W. CARROLL, DIRECTOR, WEST AND CENTRAL 
      AFRICA AND MADAGASCAR PROGRAMS, WORLD WILDLIFE FUND

    Mr. Carroll. Yes, Mr. Chairman, thank you for the 
opportunity to testify today on the devastating impact of the 
bushmeat trade in Africa and to offer some solutions.
    I am Dr. Richard Carroll, Director of the West and Central 
Africa and Madagascar Program at the World Wildlife Fund. WWF 
and its 5 million members worldwide is the largest private 
conservation organization working internationally to protect 
wildlife and wildlife habitats, and we currently sponsor 
conservation programs in more than 100 countries.
    Many of the issues have been raised by my colleagues, and I 
will focus my comments on protected areas and logging 
concession controls and the political process of the Yaounde 
summit as three viable, concrete, and interrelated solutions to 
the bushmeat trade in Central Africa.
    Protected areas are the only land-use form fully dedicated 
to biodiversity conservation where wildlife should be safe from 
gun and snare. In the corridors between these protected areas 
and in other forests where logging concessions operate, illegal 
and uncontrolled logging and hunting must be stopped, and 
transportation routes--roads, railways, and airplanes for the 
international transport--must be controlled.
    As a muddy-boot gorilla researcher who reached silverback 
or gray-beard status in the forests of Central Africa, let me 
take you to the ground level for a little run through the 
jungle, if I may, to show you how one protected area, Dzanga-
Sangha in the Central African Republic, got started and its 
impact on conservation.
    In 1976, as a Peace Corps volunteer, I was asked by the 
Minister of the Environment in the Central African Republic to 
check out the wildlife conservation potential in the forests of 
the southwest CAR. I arrived at the remote town of Bayanga, and 
the next day I was in the forest with my new-found BaAka Pygmy 
friends, Mekma and Mevanda. It was clear from the tracks, 
nests, signs, and sightings that this was indeed a rich forest 
and wildlife punctuated by beautiful forest glades called 
``byes'' in the BaAka language, where wildlife congregates. 
However, hunting camps were on every stream, and snare trails 
crisscrossed the animal trails.
    We walked over 2,000 kilometers of transsects and confirmed 
the importance of the forest and the degree of threat to this 
forest. Mike Fay joined me and completed the surveys in the 
southern tip of the country. The network of logging roads 
allowed access to migrant workers from the logging company even 
to the deepest reaches of the forest, formerly the realm only 
of the BaAka Pygmies. Company workers check their snares, and 
the meat returns on the logging vehicles in the evening. The 
forests is being emptied by outsiders with no long commitment 
to the region, leaving little for the people that need it most.
    For forest people like the BaAka Pygmies whose cultural, 
physical, and spiritual life depends on an intact forest, 
forest and wildlife depletion means cultural extinction for 
these forest people. Where the forest is going and the wildlife 
is gone, the Jengi, or the forest spirit, is no longer there.
    The BaAka said to me that they wanted an intact forest and 
wildlife and the continued use of these resources, but also the 
skills to adapt to a changing way of life in this forest. That 
required literacy, numeracy, and health care. So we set out to 
try to establish a protected area system that will preserve the 
forest and the wildlife with a management program that will 
allow for the continued traditional uses of these resources and 
provide health care and education that is so necessary.
    We named it Dzanga-Sangha and the program was funded by the 
WWF/USAID Wildlands and Human Needs Program, and continued 
support has come from CARPE over many years. Additional support 
came from the U.S. Fish and Wildlife Service Elephant 
Conservation Act that supported anti-poaching efforts. Former 
poachers from the local population were trained as protectors, 
and bushmeat camps and major elephant poachers were quickly 
reduced.
    A training camp was established to train eco-guards for 
Dzanga-Sangha and other protected areas within the region. 
Before this protection program began, you were lucky to see one 
elephant at the now famous Dzanga bye. Today, at any time of 
the day a visitor may encounter 50 to 200 elephants using this 
clearing. Research at this bye has identified over 3,000 
individual elephants using this clearing alone. I invite you 
all to come and see this amazing place any time you would like.
    By 1990, the Dzanga-Ndoki National Park and the Dzanga-
Sangha Dense Forest Reserve were officially created. The 
interior regulations for the park and reserve called for 90 
percent of the tourism revenues to be disbursed locally, and 
close to 200 people found employment. As local people began to 
receive the conservation dividend, they began to realize that 
live elephants at the Dzanga bye were more valuable than dead 
elephants. Conservation began to be seen as a viable 
development tool, and the wildlife began to rebound.
    We are also working with the logging companies in the 
region, getting them to take their responsibilities, to close 
off roads to poachers, to provide alternatives to poaching, and 
to sanction the transport of meat on their logging vehicles.
    We recognize, though, that elephants don't carry passports, 
and this forest is contiguous across the borders into the Congo 
and southeastern Cameroon, and the development of a trinational 
protected area complex is proposed. Three national parks were 
developed and officially joined into the Dzanga River 
Trinational in December 2000, allowing trans-border anti-
poaching patrols. Now a poacher apprehended in Dzanga-Sangha 
can no longer flee into Cameroon or the Congo. The result is a 
trinational protected area system covering over 7 million 
acres. This trinational program is a direct result of the 
unprecedented political commitment expressed in the Yaounde 
Declaration on Conservation and Sustainable Management of the 
Forests, signed by the heads of state of six Central African 
countries in March 1999 and has resulted in the creation of 
additional forest protected areas totaling approximately 15,000 
square miles. And they have a plan for 12 additional trans-
border programs like the Dzanga River Trinational which they 
would like to implement in the next 5 years.
    In order to stem the bushmeat crisis in Central Africa, we 
are requesting the leadership of the U.S. Government to support 
these Yaounde Summit commitments. The key to conservation of 
the forests in the Congo Basin is the development of an 
ecologically representative, financial viable protected area 
network spanning the entire basin from the Mountains of the 
Moon to the Gulf of Guinea, connected by conservation corridors 
of sustainably managed forests.
    Over the next few weeks, WWF, WCS, and CI will submit a 
joint proposal to the U.S. Government requesting $15 million a 
year for 10 years, likely to be administered through CARPE or 
Fish and Wildlife Service, that we hope will result in over 30 
million acres of functional national parks, over 60 million 
acres of managed logging concessions in the surrounding areas, 
and a vast reduction in the biodiversity loss through the 
bushmeat trade.
    Mr. Chairman, it is a time of great conservation 
convergence in the Congo Basin. The stars are truly aligned for 
the first time in the history where the political will of the 
region's governments is at an all-time high. Key conservation 
organizations are taking a common path to support a protected 
area network spanning the basis. And the U.S. Government has 
taken leadership in the Congo Basin Initiative, forming a 
conservation constellation which bodes well for timely efforts 
in this region.
    I have also submitted for the record a report made by the 
Traffic Bureau on the bushmeat trade in East and Southern 
Africa that is not included in my oral testimony.
    Thank you very much, and I would be happy to answer any 
questions, and also happy to take you out in the field any time 
you would like to.
    [The prepared statement of Mr. Carroll follows:]

Statement of Dr. Richard W. Carroll, Director, West and Central Africa 
              and Madagascar Program, World Wildlife Fund

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify today. I am Dr. Richard Carroll, Director for 
West and Central Africa and Madagascar at the World Wildlife Fund. WWF 
is the largest private conservation organization working 
internationally to protect wildlife and wildlife habitats. We currently 
sponsor conservation programs in more than 100 countries, thanks to 
support of 1.2 million members in the United States and more than 5 
million members worldwide.
    We are here today to discuss the devastating impact of the bushmeat 
trade in Africa and some solutions to protect the many species affected 
by this trade. We are also here to discuss the future of millions of 
Africans who depend on forest products for their livelihoods. The 
United States, primarily through programs administered by the Fish and 
Wildlife Service and USAID--in particular, CARPE--has played a critical 
role in the protection and conservation of the forest and its wildlife. 
World Wildlife Fund strongly urges that these programs be increased and 
expanded to firmly establish a network of ecologically representative 
protected areas spanning the Congo Basin.

The Bushmeat Crisis in the Congo Basin
    <bullet> The Bushmeat Crisis in the Congo Basin is a human health 
and food security issue, an economic and political issue as well as an 
urgent ecological issue. The bushmeat trade is the leading cause of 
biodiversity loss in the Congo Basin and is driven by an accelerating 
logging industry and growing human population.
    <bullet> Approximately 20 million people depend on the resources 
of the forest for food, materials and shelter. Consumption of bushmeat 
is estimated to be about one million metric tonnes per year. As human 
populations are expected to double in the next 25 years, if no 
alternatives are found to the bushmeat crisis, it will spell extinction 
of most wildlife species and result in a massive food disaster.
    <bullet> If the demand for bushmeat continues to grow as expected, 
and consumers do not switch to the meat of domestic animals, we can 
expect that apes and most large bodied forest mammals will be 
eradicated from the forest, throughout much of the region.
    <bullet> The bushmeat problem covers both subsistence hunting and 
commercial hunting. Commercial hunting supplies urban markets in the 
African countries themselves, and even serves consumption needs abroad 
where there are large expatriate populations of Africans.
    <bullet> Projections of future logging trends suggest that an 
estimated 70 percent of the region's forests could be lost by 2040 
unless large-scale changes aimed at conserving the forest and the 
livelihoods of its native people are taken now.
    <bullet> At the local level, bushmeat is a survival issue. Simple 
subsistence is no longer possible. All communities and all families are 
part of the cash economy, however modestly. Families must pay school 
fees, buy medicines, purchase salt, sugar, soap and kerosene.
    <bullet> Civil conflict both stems from and creates resource 
degradation. Increasingly, military weapons are used by commercial 
poachers, especially for large animals such as elephants. Most illegal 
shooting of bushmeat still takes place with shotguns using shells 
manufactured in Congo or Nigeria. Pressure should be brought to close 
these factories and limit the availability of hunting apparatus such as 
steel cable used for snares.
    <bullet> Logging companies are showing an increasing willingness 
to collaborate, especially on reduction of bushmeat hunting on their 
concessions. Examples are the work of WCS in Congo and of WWF with a 
Malaysian company near the Minkebe reserve in Gabon. These methods hold 
promise for replication throughout the priority regions.
    <bullet> The chimpanzee and other primates have been suggested as 
potential vectors for the emerging diseases related to HIV/AIDs and the 
recent outbreaks of Ebola have been linked to the handling and eating 
of wildlife.
    <bullet> For forest people like the BaAka pygmies, whose cultural, 
physical and spiritual life depends on an intact forest, forest and 
wildlife depletion means cultural extinction of these forest peoples.
    <bullet> WWF is working with governments and private railway 
companies in Cameroon and Gabon to reduce transport of bushmeat.
    <bullet> In terms of GDP, all sub-Saharan countries allocate a 
relatively larger percentage of their budgets to national protected 
area systems than do either the United States or Canada.
    <bullet> The Yaounde Heads of State Summit and Declaration have 
raised the political commitment to conservation in the Congo Basin by a 
quantum leap and has presented a unique opportunity to establish a 
coherent conservation plan for the Congo Basin. This plan calls for a 
regional network of transborder and other protected areas, a halt to 
uncontrolled and illegal logging, and hunting and greater integration 
of local populations and the private sector in forest management.

WHY IT IS IMPORTANT: BIODIVERSITY AND RESOURCES IN THE FORESTS OF 
        CENTRAL AFRICA
    Stretching from the Mountains of the Moon in eastern Democratic 
Republic of the Congo to the coast of the Gulf of Guinea, the Congo 
Basin contains a quarter of the world's tropical forests, covering 2.8 
million square kilometers. Forest covers almost 50 percent of the 
landmass spanning the political boundaries of Cameroon, Equatorial 
Guinea, the Central African Republic, the Republic of Congo 
(Brazzaville) and the Democratic Republic of Congo. The Congo Basin is 
exceeded in size only by the Amazon Basin. The tropical forest block 
also contains some of the richest biodiversity in Africa, which 
includes countless plant, animal, and insect species. The region 
harbors the most diverse assemblage of plants and animals in Africa, 
with more than 1,000 species of birds and over 10,000 plant species of 
which about 3,000 are endemic to the region. The forests are home to 
about 400 mammal species, including intact populations of large 
mammals, such as forest elephants, gorillas, bongos and buffaloes. They 
are also important as a source of food, materials and shelter for over 
20 million people.
    The Central African forests are home to some of the most 
spectacular and endangered wildlife species in Africa, including one 
half of the remaining elephants on the continent. A keystone species of 
these forests are the forest elephants, which create habitat for other 
wildlife and disperse seeds. Also making their home in this region are 
the three subspecies of gorilla: the endangered mountain gorilla, the 
eastern lowland gorilla and the more numerous western lowland gorilla. 
Other terrestrial wildlife found in the Congo Basin are chimpanzees, 
bonobo, okapi, and bongo. The rivers of Central Africa harbor some of 
the richest concentrations of the world's aquatic biodiversity, most of 
which is endemic. Plant species in the Congo Basin, many with medicinal 
properties, are numerous and continue to be discovered.
    In addition to the myriad species of flora and fauna, the Congo 
Basin is home to people representing a range of ethnic groups, 
including the many different groups of indigenous hunter-gatherer 
people. The BaAka are one such group whose lives and well-being--
physical, cultural, and spiritual--are intimately linked with the 
forests. The forest also represents great economic importance and 
promise to these people and their countries.
    The Congo Basin is also extremely rich in natural resources. The 
region's crude oil production surpassed four million barrels a day in 
2000, more than Iran, Venezuela or Mexico. The United States gets 16 
percent of its oil from sub-Saharan Africa--almost equaling imports 
from Saudi Arabia. By 2015, it is expected that the region will supply 
the United States with 25 percent of its oil--surpassing the Persian 
Gulf. The vast majority of this oil will come from the Gulf of Guinea, 
in the Congo Basin.
    Development of this strategic resource area is vital to America's 
national security. However, unless conservation of the rainforest is 
expanded now, one resource will simply be traded for another. Both can 
be used; one can be saved.

WHY IT IS THREATENED: BUSHMEAT, LOGGING, POPULATION GROWTH AND RESOURCE 
        EXTRACTION
    Central African forests are under threat by a multitude of factors. 
Almost four million hectares of Africa's forests are destroyed each 
year as a result of forest clearance for agriculture to feed the 
growing number of people in the region. Mineral and oil extraction, 
unsustainable logging and pervasive political instability are other 
factors. Road building by logging companies penetrates into the heart 
of previously remote forests and gives easy access to commercial 
hunters and buyers of bush meat. This, combined with a lack of 
surveillance, has led to extreme over-hunting in Central Africa's 
forests of such vulnerable species as the western lowland gorilla, 
elephant and leopard. The chimpanzee--recently disclosed as the 
potential source of the HIV 1 virus in humans and vital to medical 
research--is also severely endangered; its forest home is being logged 
and it continues to be hunted and sold as food in Central Africa. With 
human populations growing at 2-3percent and subsistence level 
agriculture still the predominant source of food and income for the 
majority of Central Africans, habitat loss as a result of forest 
conversion to agriculture, and climate change are likely to be the most 
significant long term threats to biodiversity. The immediate threats 
are illegal logging and commercial hunting and trading of wildlife for 
meat and ivory facilitated by logging operations.
    Logging is an economically important land-use throughout Central 
Africa. All nations within the region are dependent on extractive 
industries for a large percentage of their Gross Domestic Product, 
almost all foreign exchange, and much of the tax revenues that finance 
government expenses. Logging companies have control over 50-80 percent 
of the forests outside protected areas. In many cases, poor management 
practices and technical shortcomings cause needless damage and 
degradation in and around logging concessions, while many operations 
are carried out in violation of forestry regulations. Although it 
contributes significantly to national economies and, to some extent, to 
local needs, illegal logging has a particularly devastating impact on 
biodiversity. Illegal logging deliberately targets the remaining 
pristine forests, including protected areas. Available data indicate 
that deforestation rates were relatively low until the 1980s, but 
increased rapidly during the 1990s. This rate is still increasing.
    Logging industries directly and indirectly facilitate a large 
increase in commercial bushmeat hunting. While the hunting of bushmeat 
has been a traditional livelihood for forest indigenous people, in 
particular pygmies, the development of a large-scale commercial trade 
in bushmeat is relatively recent and has been facilitated by the 
development of logging roads deep into the forest. Current logging 
practices not only result in increased consumption of bushmeat within 
concession areas but also facilitate the supply of bushmeat to urban 
markets and enhance the profitability of the trade.
    This alarming level of threat is caused by many inter-linked 
factors. In general, national governments have continued the forest 
exploitation policies introduced last century by the colonial powers. 
They are supported and encouraged in this by multilateral and bilateral 
institutions, to which they are heavily indebted, as part of the 
structural adjustment polices and economic liberalization programs 
imposed as a condition of further lending. Thus, the primary goal of 
forest policies in the region is to promote industrial timber 
production for export by allocating most of the forest as logging 
concessions. Unfortunately, the policy, institutional and legal 
frameworks for controlling private sector interests and enforcing 
conservation regulations are extremely weak. As a result, illegal 
logging practices have flourished throughout the Congo Basin, combined 
with unsustainable use of other wild resources by a growing population 
with few economic alternatives to face rising poverty. Other root 
causes include the lack of technical, scientific and financial 
resources and, in some countries, political instability and recent 
wars.
    Neglecting the threats from unsustainable forestry operations in 
the short and medium term will not only undermine the efforts to reduce 
poverty but will create more poverty. The result of this will be more 
instability in the Congo Basin. The costs for mitigating the impacts of 
forestry operations will be much cheaper now than later within the next 
10 or 20 years deforestation is likely to be at the maximum. It is 
critical to urgently mobilize resources to implement a comprehensive 
strategy to protect the invaluable forests and associated resources 
within the Congo Basin.

WHAT CAN BE DONE: CROSS-BORDER COOPERATION, PROTECTED AREAS AND 
        SUSTAINABLE LOGGING
The Yaounde Summit
    The Congo Basin is a challenging environment for forest 
conservation. Political instability, high levels of government debt, a 
decline in export commodity prices and a long history of poor resource 
management have led some analysts to wonder if conservation can 
actually happen. However, the good news is that low population 
densities and large areas of intact forests provide an excellent 
starting point for forest protection.
    One of the most encouraging signs is the growing support among 
governments and communities in Central Africa for region-wide, 
collaborative forest conservation. A promising first step was taken in 
1996 when the Ministers of Forestry, NGOs and international 
organizations signed an international declaration for forest 
conservation--The Brazzaville Process. Coordinated by the World 
Conservation Union (IUCN), this provides a forum for governments and 
other stakeholders to work together on forest conservation in the 
region. What was urgently needed, however, was higher level commitments 
to forest conservation that could be turned into practical action on 
the ground.
    The Yaounde Forest Summit held on March 17, 1999, hosted by 
President Paul Biya of Cameroon and chaired by HRH The Duke of 
Edinburgh, was the first public expression of the high level political 
will to conserve the forests of Central Africa. The Summit created a 
unique opportunity for the governments of countries of the Congo Basin 
to make commitments to forest conservation. Bringing together six 
African Heads of state and representatives from the international 
community including the World Bank, the United Nations and European 
Commission, the summit's aim was: To discuss and conclude new trans-
national protected areas in the Congo Basin and agree upon a shared, 
long-term vision for these forests.
    The Yaounde Summit marked a watershed in forest conservation in 
Central Africa. The summit opened a new era of `conservation 
convergence' in Central Africa and was the first time that regional 
Heads of State came together to develop a coherent plan for the 
conservation of the second largest contiguous forest in the world. 
World Wildlife Fund helped organize the summit and the resulting 
Yaounde Declaration contained plans to protect vast tracts of forest in 
the Congo Basin. The summit marked a turning point in the political 
commitment to the region's environment. A key element is that Central 
African Governments have set aside areas of great economic value to 
themselves that are of global biodiversity significance.
    Far from being ``a series of empty promises,'' the Yaounde 
Declaration has resulted in solid conservation achievements in Central 
Africa. The total amount of additional forest protected areas created, 
confirmed or in the final stages of gazettement since March 1999 totals 
13,866 square miles! In Cameroon alone three new national parks and a 
gorilla sanctuary have been created. Two other national parks are in 
the final stages of gazettement. Six new protected areas have been 
created, covering an area of 5,759 square miles (or 3 percent of the 
national territory). Furthermore, these areas represent economic 
forests that have been set aside for conservation in an area where 
public auction of logging concessions yields offers of the equivalent 
of $21 per hectare, representing foregone income to the Cameroon 
Government of over $30 million. In a further indication of political 
will, the government has recently withdrawn eight logging concessions 
in an ecologically sensitive area and is negotiating with conservation 
agencies to find ecologically acceptable alternatives to logging.
    Other countries in the region (Gabon, Congo, Equatorial Guinea) 
have also increased their protected areas in response to the Yaounde 
Declaration. In the Congo Republic in December 2000, the government 
announced that it would quadruple the size of the Odzala National Park 
to over one million hectares, thereby creating one of the largest 
national parks in Central Africa.
    Regional officials took another major step forward in December 
2000. A collaborative management agreement between the governments of 
Cameroon, Central African Republic and Congo has been signed, creating 
the Sangha River Trinational, which links three contiguous national 
parks (Lobeke in Cameroon, Dzanga-Ndoki in Central African Republic and 
Nouabale-Ndoki in the Congo Republic) protecting 2.8 million hectares 
extending into all three countries. A similar transborder conservation 
program covering 15,000 square miles in the boundary region of 
Cameroon, Gabon and Congo is currently being negotiated. Africa already 
spends a greater relative proportion of its GNP on its protected areas 
than does Europe and the United States combined.
    Tropical forests represent not only reservoirs of biodiversity but 
are also important economic resources. Forest exploitation will 
continue. Recent experiences in Congo (Nouabale-Ndoki) and Gabon 
(Minkebe) show that logging companies are increasingly willing to 
collaborate with conservationists and that when agreements are 
established, they can effectively control the level of bushmeat 
hunting.
    While Africa has shown considerable political will in creating this 
protected area network, it is clear that demographic trends and the 
need for agricultural land are unlikely to result in more than 10 
percent of the African territory being set aside for protected areas in 
the long term.
    Conservation in Central Africa should concentrate on securing 
protected areas and in ensuring that they are well-managed and 
effectively protected. Central Africa is one of the last remaining 
areas in the world where vast, fairly intact forest still exist. We 
have the unique opportunity and political momentum to support the 
positive efforts fostered within the region to create a world class 
network of protected areas spanning much of the central African 
forests, linked by corridors of sustainable managed forests. The 
potential represented by the Yaounde Summit may be the last window of 
opportunity for conservation in central Africa and writing it off as 
`empty promises' will certainly result in an empty forest.
    We live in a world filled with bad news, especially the news which 
comes from much of Central Africa. It is easy to write these countries 
off as a loss. I submit that the results demonstrated from the Yaounde 
Summit represent a great glimmer of hope for the forest, wildlife and 
people of the region and the world should come to their aid. Failure to 
substantively act now will be a failure for the international community 
and an irretrievable loss for humanity.
    WWF and its partners recognize that protected areas alone are not 
sufficient to conserve biodiversity or to ensure the continued 
provision of vital goods and services from the forest. For this reason, 
WWF seeks to promote more sustainable management of the vast majority 
of the world's forest that remain outside of protected areas.

Sustainable Forest Management
    The forests of Central Africa are currently under threat from 
logging as a result of demand for timber from transnational logging 
companies in Asia and Europe. In 1990, the volume of timber exported 
from the Congo Basin to Asia was less than 200,000 cubic meters. In 
1997, this has risen to over two million cubic meters. Today, in Gabon, 
800,000 hectares of forests are allocated to logging concessions and 
this is likely to increase to more than two million hectares under 
current pressures. In neighboring Equatorial Guinea, exports have 
tripled since 1994. A growing demand for timber in China and other 
emerging economies has led to exploitation of forests in West Africa's 
coastal states--where traditionally there have been weak controls and 
legislation--mobilizing major capital resources with unprecedented 
speed and flexibility, and exploiting greater proportions of timber 
resources than ever before. Conservationists predict that most forests 
which are not currently designated as protected areas will be subject 
to some logging activity within the next five years.
    WWF is promoting sustainable forest management in Cameroon, CAR and 
Gabon through a collaborative program between WWF Belgium, the WWF-
Cameroon Program Office and the WWF-Central Africa Regional Program 
Office funded by the European Union. In each country, national working 
groups have been established to develop regional certification 
standards under the auspices of the Forest Stewardship Council. In 
addition, WWF is providing support to one private logging company in 
Gabon to design a sustainable forest management plan which takes into 
account the impact of the logging activity on biodiversity and the 
local population.
    In CAR, WWF, in partnership with the government, is working to 
promote sustainable management of the Societe de Bois de Bayanga 
logging concession within the Dzanga-Sangha Dense Forest Special 
Reserve. The Dzanga-Sangha Project is charged with assisting in the 
control of logging operations to ensure that the practices are 
consistent with the Forestry Code and with assisting in the development 
of a sustainable forest management plan for this concession.
    In Cameroon, WWF is implementing the Jengi initiative, a pilot 
project to establish sustainable forest management and a protected 
areas system in the forests of south-eastern Cameroon. Although the 
Lake Lobeke Reserve (part of the Sangha River Trinational Protected 
Areas complex) and Boumba-Bek-Nki Complex (a component of the trans 
border initiative) will preserve part of this forest and help ensure a 
homeland for the BaAka pygmies, the speed and nature of current 
commercial logging, if unchecked, will result in three forest islands 
in a sea of devastation.
    Jengi to the BaAka is the spirit of the forest. Jengi presides over 
the initiation ceremonies of youth and provides guidance for these 
forest people whose cultural, physical and spiritual live depends on an 
intact forest. The BaAka have lived in harmony with the forest for 
centuries and now their songs are being drowned by the noise of 
bulldozers and chainsaws. Poaching camps follow the bulldozers, the 
wildlife disappears, and in many villages, the Jengi has not come for 
years. The Jengi project aims to halt and reverse forest mining, to 
achieve large-scale sustainable forest management and timber 
production, to develop alternative sources of income for local 
communities and to develop a conservation trust fund to support the 
three protected areas. The aim is to restore the Jengi as the guardian 
of the forest.
    Most of the protected areas in Central Africa are surrounded or 
impacted in some way by logging concessions. Logging operations often 
bring in a significant immigrant labor force and become a pole of 
attraction for others seeking economic opportunities with these 
companies. Those that find work have money to buy food and clothes, and 
those that don't have time to kill literally--by becoming bush meat 
hunters to supply the concession work force. In many concessions, bush 
meat is the only source of protein available and is sanctioned by the 
companies, who are responsible to ensure adequate food and supplies to 
their laborers.
    Although to date, the forest certification process has had limited 
success in Central Africa due to a reluctance by companies to adopt 
logging practices that may be more costly and where there is limited 
market demand for certified products, we have found a willingness by 
companies to try to limit bush meat hunting and transportation on their 
concessions. Concessions bordering the Minkebe Forest Reserve in Gabon, 
the Dzanga-Sangha Reserve in CAR, Lake Lobeke in Cameroon and Nouabale-
Ndoki in Congo-Brazzaville have all put in place measures to control 
bush meat exploitation, including sanctions of employees and drivers 
involved in hunting or transportation, closing roads to prevent access, 
providing alternative food sources, and closer collaboration with 
international NGOs and government authorities.

Congo Basin Initiative
    Overall, the key to conservation of the forests of the Congo Basin 
is the development of a network of ecologically representative, 
financially viable, protected areas spanning the basin, from the 
Mountains of the Moon to the Gulf of Guinea, connected by conservation 
corridors of sustainable managed forests. Over the next month, WWF, WCS 
and CI will submit a joint proposal to the U.S. government and to 
private sector donors to co-fund this program. If funded, this program 
will have a profoundly beneficial impact on the environmental and 
economic welfare of the Congo Basin.
    WWF, WCS and CI believe that expanded U.S. support for the Congo 
Basin Initiative will demonstrate the leadership role that the United 
States can and is playing in environmental conservation. U.S. support 
of this initiative will have a prominent impact at the upcoming World 
Summit on Sustainable Development in Johannesburg later this year.
    The tangible benefits of this project will be:
    <bullet> Over 30 million acres of functioning national park land 
in five Congo Basin countries.
    <bullet> Over 60 million acres of managed logging concessions in 
surrounding areas.
    <bullet> Increased number of host governments in natural resource 
management.
    <bullet> Significant shift in land-use management practices in 
host countries.
    <bullet> Significant and vibrant eco-tourism industry established.
    <bullet> Increased sustainability from tourism revenue.
    The more intangible benefits of this project will be:
    <bullet> Reduced rates of deforestation.
    <bullet> Vast reduction in biodiversity loss.
    <bullet> Increased U.S. presence and economic opportunities.
    <bullet> Better governance and transparency.
    <bullet> Significantly increased security over vast areas of 
forest.
    <bullet> Reduction of increase in levels of communicable diseases.
    <bullet> Sustainable development based on renewable outputs.
    In 1995, a USAID program called CARPE was created for Central 
Africa. This program was designed to increase forest management in the 
Congo Basin and its extreme success has been documented. WWF, WCS and 
CI believe that this program should be expanded and extended to 
coincide with the pressures being put on the Congo Basin from 
development and other human factors. WWF and other organizations are 
also seeking vastly increased funding for the African Elephant and 
Great Ape Conservation Acts. These programs managed through the U.S. 
Fish and Wildlife service have been extremely instrumental in 
protection of these keystone species and helping to stem the bushmeat 
tide.
    In closing, Mr. Chairman and members of the Subcommittee, WWF 
wishes to express our gratitude for your active interest in helping 
governments in the Congo Basin region to address the bushmeat crisis. 
We stand ready to assist the Committee in providing constructive 
solutions to this serious problem.
                                 ______
                                 
    [Attachments to Mr. Carroll's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T0615.008
    
    [GRAPHIC] [TIFF OMITTED] T0615.009
    
    Mr. Gilchrest. I think we will have to pay a visit maybe 
sometime this fall.
    Dr. Robinson?

   STATEMENT OF JOHN G. ROBINSON, SENIOR VICE PRESIDENT AND 
  DIRECTOR, INTERNATIONAL CONSERVATION, WILDLIFE CONSERVATION 
                            SOCIETY

    Dr. Robinson. Mr. Chairman, thank you very much for the 
opportunity to comment on this issue. I am here to represent 
the experiences of Wildlife Conservation Society, WCS, which 
conserves wildlife and wildlands throughout the world.
    Fifteen years ago, our field conservationists began to 
describe a mounting wave of hunting that was affecting wildlife 
around the world. The wave first passed through Asia, 
extirpating wildlife in the forests of Southeast Asia. It is 
now cresting in Africa, and we anticipate that hunting at a 
similar scale will well in Latin America within the next 5 to 
10 years.
    The present magnitude of the problem in Africa has captured 
all of our attention, and our testimony will focus on this part 
of the world, but recognize that this is a global phenomenon. 
The phenomenon has been called the ``bushmeat'' or ``wild meat 
crisis'' because hunting is being driven by the demand for wild 
meat for human consumption.
    The Wildlife Conservation Society would like to thank the 
Subcommittee, and particularly you, Mr. Chairman, for 
recognizing the importance of this issue.
    The recent explosion of hunting in Africa, like the 
situation in Southeast Asia 20 years ago, has been stimulated 
by road construction associated with logging and petroleum 
development. The network of roads reaches into the most remote 
areas and allows commercial hunters entry into the forest and 
provides hunters with access to urban markets. It has been open 
season on all wild species.
    The scale of hunting in Africa right now is really truly 
vast, and you have heard a lot of testimony to that effect. In 
Central Africa alone, consumption of meat from wild animals is 
at least one million metric tons, and estimates go as high as 
five. One million metric tons is equivalent to 9 billion 
quarter-pound hamburgers of wild meat a year, enough to give 
even McDonald's pause. There are 33 million people living in 
Central Africa, and on average, every man, woman, and child 
eats the equivalent of one bushmeat hamburger each and every 
day of the year. Central African families eat as much meat as 
most families in Europe and the U.S., but most of the meat, 
unlike in Europe and U.S., comes from wildlife.
    This level of harvest is not sustainable. Harvest threatens 
the survival of many wildlife species and is especially 
pernicious to those large-bodied, slow-breeding species, a 
special conservation concern, such as great apes, large 
carnivores, and elephants--all species recognized by the U.S. 
Congress as needing special attention. And as Mr. Graham said 
earlier, the loss of wild species affects the functionality and 
integrity of forests as a whole.
    In addition to the forests and the species themselves, it 
is the millions of rural poor living at the ecological frontier 
who suffer the most from the loss of wild species. While they 
themselves hunt and sell bushmeat, they are losing their food 
resources. These are the people identified as the focus for the 
New Partnership for Africa's Development, NEPAD, which was 
supported at last month's G-8 meeting, who live on less than 
US$1 a day.
    Addressing the bushmeat problem is difficult. In our 
programs and in the programs of many of our collaborators, we 
have found some approaches which offer a way forward.
    First and foremost, establishing refuges for wildlife 
populations is essential. A network of well-managed protected 
areas will both support diverse populations of wildlife and 
provide reservoirs for wildlife that are being hunted 
elsewhere.
    Second, the commercial trade in bushmeat needs to be 
regulated and phased out as quickly as possible, and the 
distinction has been made often between subsistence and 
commercial trade. Often this can be accomplished by working 
with the logging companies themselves. As you heard from Mr. 
Burnam, the Wildlife Conservation Society has been working with 
a private timber company, Congolaise Industrielle des Bois, and 
the Ministry of Forest Economy in northern Congo since 1998 to 
reduce hunting and transport of bushmeat in 4.5 million acres 
of its concession.
    Third, ways to provide alternative sources of animal 
protein to rural communities and to workers in companies that 
are exploiting those natural resources must be developed.
    The U.S. has several immediate opportunities to help stem 
the tide of bushmeat hunting. The G-8 Africa Action Plan in 
support of the New Partnership for Africa's Development, for 
example, identifies a very general strategy that is of 
relevance to the bushmeat problem.
    We would specifically urge the Subcommittee to: recognize 
the enormity of the bushmeat crisis, both for wild species and 
for the ecosystems where they occur, and for the rural poor who 
have traditionally depended and will depend on wildlife 
resources; recognize also that the bushmeat crisis is not just 
about driving some species to extinction, it is not just about 
great apes and elephants, it is about the destruction of the 
very fabric of tropical forests and the lives of the people who 
are supported by those forests.
    We also urge that we support the Administration efforts to 
establish partnerships with African countries and provide 
support through mechanisms like NEPAD that will strengthen good 
governance, encourage peace and security, build institutional 
capacity, and provide the hunting to accomplish these tasks.
    And, finally, we encourage Congress to increase funding for 
the Central Africa Regional Program for the Environment, CARPE, 
which you heard about earlier, the Multinational Species 
Conservation Fund, and the Global Environment Facility, GEF. To 
varying degrees, these underfunded programs support critical 
conservation activities, including protected areas 
establishment and management, anti-poaching enforcement, local 
and institutional capacity building, and monitoring.
    I thank you for the opportunity to comment on these issues, 
and I would be pleased to answer any questions.
    [The prepared statement of Dr. Robinson follows:]

Statement of Dr. John G. Robinson, Senior Vice President and Director, 
       International Conservation, Wildlife Conservation Society

    Mr. Chairman, Members of the Subcommittee: Thank you very much for 
the opportunity to comment on the growing problem of bushmeat 
consumption. I am here today to represent the views of the Wildlife 
Conservation Society, founded in 1895 as the New York Zoological 
Society, a 107-year old US-based membership organization. The Wildlife 
Conservation Society conserves wildlife and wild lands throughout the 
world, as well as managing animal collections at the Bronx Zoo and 
other ``Living Institutions'' in the New York area.
    Fifteen years ago, our researchers and conservationists in the 
field began to describe a mounting wave of hunting that was affecting 
wildlife living in the forests and grasslands around the world. Since 
humans evolved we have hunted and eaten wildlife. Today it is only the 
poorest families that rely on meat from wild species as an important 
source of protein. This is true even in the United States where 
families in poor rural districts still hunt for the freezer. When 
hunting becomes commercial to satisfy demand from urban populations, it 
quickly becomes unsustainable, as we found in this country at the turn 
of the last century. Now it is the tropical regions that face a 
bushmeat crisis. The wave first passed through Asia, extirpating 
wildlife in the forests of South-east Asia and Indochina. It is now 
cresting in Africa, and we anticipate that hunting at a similar scale 
will swell in Latin America within the next five to ten years. The 
present magnitude of the problem in Africa has captured all of our 
attention, and our testimony will focus on this part of the world, but 
recognize that it is a global phenomenon. The phenomenon has been 
called the ``bushmeat'' or ``wild meat crisis'' because the hunting is 
being driven by a demand for wild meat for human consumption.
    The Wildlife Conservation Society would like to thank the 
Subcommittee, and especially Chairman Gilchrest, for recognizing the 
importance of this issue. Unrestrained wildlife harvest threatens the 
survival of many wildlife species, especially those living in the 
tropical forests of the world. Hunting is especially pernicious for 
those large-bodied, slow breeding species of special conservation 
concern such as the great apes, large carnivores, and elephants all 
species recognized by the U.S. Congress as needing special attention. 
The local extinction and loss of wild species has cascading effects on 
the functionality and integrity of forests as a whole, and endangers 
efforts to both protect and manage those forests in a sustainable 
fashion. And the loss of wildlife resources threatens people's health 
and well-being and affects their cultural integrity.
    The recent explosion of hunting in Africa, like the situation in 
South-east Asia and Indochina twenty years ago, has been stimulated by 
the opening up of previously inaccessible regions. Road construction 
often associated with logging and petroleum development has created a 
network of roads that reach into the most remote areas. This network 
allows commercial hunters entry into the forest, and provides hunters 
with access to urban markets. Moreover, much of forested Africa has 
experienced in recent years the additional challenge of civil unrest 
and conflict. The resulting breakdown of national and local authority 
has left a governance void in many places and precluded most attempts 
to manage and control the hunting. It has been open season on all wild 
species.
    The scale of hunting in forested Africa is vast. In central Africa 
alone, consumption of meat from wild animals is estimated at between 
one and five million metric tons a year. If we take the most 
conservative figure of one million metric tons, this is equivalent to 9 
billion quarter-pound hamburgers of wild meat a year enough to give 
even McDonalds pause. Who eats all those hamburger-equivalents? There 
are 33 million people living in Central Africa, and, on average, every 
man, woman and child eats the equivalent of on bushmeat ``hamburger'' 
each and every day of the year. Central Africa families eat as much 
meat as do many families in Europe and the United States, with one 
difference most of the meat eaten in rural Central Africa comes from 
wildlife.
    This level of harvest is not sustainable. We estimate that today's 
harvest rate in Central African forest is at least five times what 
could be produced sustainably under even optimal conditions. The 
consequence of this overexploitation is that wildlife is being strip-
mined out of tropical forests, resulting in what has been called the 
``Empty Forest'' a forest without wildlife, unnaturally quiet. Across 
Central Africa, we are estimating that, except in adequately protected 
or inaccessible areas, ungulate populations have been already reduced 
by 50%, primate populations perhaps as much as 90%. Elephants, so long 
pursued for their ivory, are now also hunted for their meat. Hunters 
rarely target particular wildlife species because they are simply 
hunting for meat. So almost all animals from mammals, to birds, to 
replies are affected by hunting. Constant heavy hunting is destroying 
local populations of the most vulnerable species, especially those that 
large-bodied and breed slowly: gorillas, chimpanzees, bonobos, many 
monkey species, the large carnivores, and elephants. As species are 
extirpated from one area, hunters move into new areas.
    The loss of wildlife species has wider implications on the forests 
themselves. The species preferred by hunters generally are large-
bodied, typically fruit eaters and herbivorous browsers. These species 
frequently play keystone roles in forest ecology as pollinators, seed 
dispersers, and seed predators, as well as comprising the majority of 
the vertebrate biomass. Their reduction or extirpation produces 
cascading effects through the biological community, causing other 
species to disappear, and the ability of the forest to recover from 
disturbance to diminish.
    In addition to the forest and the species themselves, it is the 
rural poor who suffer the most from the loss of wildlife species. The 
commercial trade in bushmeat provides only a transitory benefit and a 
long-term cost to these people. It is the millions of people at the 
margins of the cash economy, who are at the ecological frontier, and 
whose lives are intertwined with the wildlife, plants and wider 
functioning of the forest. It is they who experience drops in daily 
protein consumption as forests are opened up to outsiders. It is the 
people identified as the focus on the New Partnership for Africa's 
Development (NEPAD), launched at last month's G8 meeting, who live on 
less than US$1 per day. They lack the education, skills and cultural 
context to take advantage of cash-earning jobs from plantations and 
industry, and as their wildlife resources disappear, their backs are 
against the wall. Lacking capital and access to markets, they cannot 
switch to alternative sources of animal protein.
    Addressing the bushmeat problem is difficult. How to impose 
regulation on a human activity too variable and dispersed to be 
considered a true industry? How to draw the line between subsistence 
hunting by local people and commercial exploitation by outsiders, when 
there are so many examples that fall between the two extremes? How do 
we tackle a problem that is but an indirect effect of national 
expansion into the frontier? In our programs we have found some 
approaches that offer a way forward.
    First and foremost, establishing refuges for wildlife populations 
is essential. A network of well-managed protected areas will both 
support more diverse and abundant populations of wildlife and provide 
``reservoirs'' for wildlife that are being hunted elsewhere. 
Establishment of such reserves is thus crucial to steward the resources 
essential to the nutritional, social and cultural well-being of the 
rural poor living in forest environments. The Wildlife Conservation 
Society, and our collaborators WWF and CI, are active in establishing 
and managing parks throughout the Congo Basin. Proposed and existing 
parks in the five countries of the Basin might cover some 30 million 
acres. The key to better management of protected areas is expanding and 
strengthening staff capacity to regulate access to and use of protected 
forest resources.
    Second, the commercial trade in bushmeat needs to be regulated and 
phased out as quickly as possible. Many tropical countries lack the 
government institutions needed to accomplish this. Often the only 
effective institutions to be found in remote forest areas are the 
timber companies themselves. The Wildlife Conservation Society, for 
instance, has been working with a private timber company, Congolaise 
Industrielle des Bois (CIB), and the Ministry of Forestry Economy in 
northern Congo since 1998 to reduce hunting and transport of bushmeat 
in 4.5 million acres of its concession. The effort is a four-pronged 
one of education, enforcement, provision of alternative sources of 
animal protein, and monitoring. So it involves the local communities in 
managing and protecting wildlife populations, and monitors markets in 
logging camps and villages. It has established an ``ecoguard'' brigade 
to close down the commercial trade through the control of vehicle 
traffic on logging roads, and by preventing wild meat being carried out 
of the area on flights down to the cities.
    Third, ways to provide alternative sources of animal protein to 
rural communities and to workers in companies exploiting natural 
resources must be developed. The Wildlife Conservation Society, for 
instance, is working with the CIB logging company to establish other 
economically-feasible sources of animal protein for people living 
within their concessions.
    The U.S. has several immediate opportunities to help stem the tide 
of bushmeat hunting: making nonconcessional debt eligible under the 
Tropical Forest Management Act; encouraging USAID programs and the UN 
Food and Agriculture Organization (FAO) efforts that focus on the 
development of alternative protein sources and livelihoods; and playing 
a leadership role in establishing an African forest certification 
program for logging companies that practice wildlife management and 
help prevent bushmeat hunting and trade. In addition, the G8 Africa 
Action Plan in support of the New Partnership for Africa's Development 
(NEPAD) identifies a general strategy for Africa that is highly 
relevant to the bushmeat problem. NEPAD calls for:
    <bullet> Resource mobilization. In the context of the bushmeat 
problem, there is a need to establish funding mechanisms to support the 
establishment and sound management of protected areas. Even in the 
United States, the National Park Service is not economically self-
sufficient. Economic incentives are also needed to encourage the timber 
industry to manage forest resources more sustainably including forest 
wildlife. Further funds are needed to develop alternative animal 
protein sources for the rural poor living in the forest frontier.
    <bullet> Peace and security. This almost goes without saying. The 
protection of wild areas and the sustainable use of natural resources 
requires good governance and appropriate management. And this requires 
political, social and economic stability.
    <bullet> Governance. In this context there is a need to ensure 
that national governments have the capacity to engage with the natural 
resource extraction companies in ways that are transparent and promote 
long-term, sustainable management of all forest resources. In addition, 
the responsibility for many management decisions still remain with 
local governments, and it is important that their authority derives 
from well-informed, transparent, democratic processes.
    <bullet> Human resources. To ensure that the capacity to manage 
Central Africa's wild forests develops to address the threats from 
unsustainable hunting, we must reinforce and scale up ongoing training 
mechanisms and launch new avenues for learning and in so doing help 
educate the next generation of conservation leaders. We need to ensure 
that the region's resource management agencies have the capacity to 
protect and manage the region's natural resources.
    We would therefore urge the Subcommittee to:
    <bullet> Recognize the enormity of the bushmeat crisis, both for 
wild species and the ecosystems where they occur, and for the rural 
poor who have traditionally depended and will need to depend on 
wildlife resources and forest biodiversity in the future. Recognize 
that the bushmeat crisis is not just driving some species to 
extinction, it is not just about threats to the Great Apes and 
elephants, it is about the destruction of the very fabric of tropical 
forests and the lives of the people who are supported by those forests.
    <bullet> Understand that consumption of bushmeat also has severe 
public health implications. Handling and eating wildlife, especially 
apes and other primates, increases the risk that people will contract 
deadly hemorrhagic diseases such as Ebola, and has facilitated the 
emergence of new diseases like HIV/AIDS.
    <bullet> Support Administration efforts to establish partnerships 
with African countries and provide the support through the NEPAD 
process and the other identified opportunities for the establishment of 
protected areas, efforts to curtail the commercial bushmeat trade, and 
ways to provide alternative sources of animal protein for the rural 
poor of Africa.
    <bullet> Encourage Congress to increase funding for the Central 
Africa Regional Program for the Environment (CARPE), the Multinational 
Species Conservation Fund and the Global Environment Facility (GEF). To 
varying degrees, these underfunded programs support critical 
conservation activities including protected areas establishment and 
management, anti-poaching enforcement, local and institutional capacity 
building, and monitoring.
    I thank you again for the opportunity to comment on these issues. I 
would be happy to answer any questions.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Dr. Robinson.
    Dr. Bakarr?

   STATEMENT OF MOHAMED I BAKARR, SENIOR TECHNICAL DIRECTOR, 
     CENTER FOR APPLIED BIODIVERSITY SCIENCE, CONSERVATION 
                         INTERNATIONAL

    Dr. Bakarr. Thank you very much, Mr. Chairman. I have 
already submitted my written testimony for the record and will, 
therefore, focus on specific aspects with your permission, sir.
    Mr. Gilchrest. Yes, sir.
    Dr. Bakarr. I am here to represent the views of 
Conservation International in my capacity as senior technical 
director in the Center for Applied Biodiversity Science, which 
is leading CI's strategy for addressing the bushmeat issue in 
Africa. Thank you very much for the opportunity to testify on 
this issue.
    CI is a nonprofit organization dedicated to conservation of 
biodiversity, focusing specifically on the world's biologically 
richest and most threatened ecosystems where the risk of 
extinction is so very real, as well as on tropical wilderness 
areas where opportunities for protecting large tracts of 
natural habitats still remain. With programs in more than 30 
countries around the world, CI's work focuses on demonstrating 
that human societies are able to live harmoniously with nature. 
Wildlife utilization in general and the bushmeat issue in 
particular are, therefore, at the very crux of our conservation 
efforts and actions around the world.
    For more than 10 years now, we have been working with local 
communities, government agencies, scientists and other 
conservation professionals to analyze and understand the global 
implications of wildlife utilization and consumption. From the 
extensive commercial trade of turtles in Southeast Asia to the 
subsistence hunting practices of Pygmies in Central Africa, it 
has become clear to us that the issues at stake are indeed 
very, very complex.
    Mr. Chairman, the bushmeat issue and its consequences for 
African wildlife and people has been eloquently outlined in the 
testimony of my colleagues on this panel. Therefore, I do not 
wish to reiterate the same points but, rather, specifically 
highlight the concerns that we bring forward as an institution. 
And I will specifically ask that you allow me to draw one very 
significant conclusion about the current status quo, and that 
is, whereas wildlife is still very much an important resource 
for human livelihoods in Africa, bushmeat utilization is no 
longer sustainable because populations of most of the species 
involved are being greatly impacts and some locally extirpated 
throughout their range. And as you can rightly surmise, this 
implies a double-edged sword with respect to the bushmeat 
problem in Africa. On the one hand, populations are being 
extirpated; on the other hand, the livelihood of a great 
majority of people is increasingly at risk from the loss of 
wildlife. It is this complex challenge we are confronted with 
for achieving conservation on the continent.
    As a conservation organization that cares about people and 
wildlife, CI has been very keen on exploring and implementing 
solutions that accommodate this concern. We are committed to 
pursuing an integrated approach that accommodates diverse 
perspectives and involves multiple stakeholders and partners to 
maximize success in mitigating the threat. In this regard, we 
have helped organize regional workshops in West and Central 
Africa where major stakeholders have analyzed and discussed the 
social, cultural, economic, and biological contexts, and have 
helped establish frameworks for developing and implementing 
solutions. Our involvement in the BCTF also reflects our 
commitment toward a broader alliance to tackle this complex and 
large-scale problem.
    More specifically, our country programs are confronting the 
problem head on in the field by targeting all major 
stakeholders at the national level. In Ghana, for example, the 
focus has been on mobilizing the public through a massive 
awareness and sensitization campaign based on cultural and 
traditional practices, known as totems. Totems are wildlife 
entities, mostly animals, that symbolize cultural values and 
beliefs to people. Although success is yet to be translated in 
terms of actual reductions in bushmeat hunting and threats to 
wildlife, the effort to link bushmeat problem to totems has 
garnered the attention of all Ghanaians. We are pursuing 
similar approaches in Liberia with our partners, in Cote 
d'Ivoire and Sierra Leone, in order to find locally appropriate 
solutions to the problem.
    Mr. Chairman, the scale of the bushmeat problem in Africa 
is enormous. Long-term success, therefore, requires solutions 
that are scaled up proportionally to ensure a balance between 
human livelihood needs and biodiversity. The piecemeal approach 
simply has not worked, and even when it does, we are only 
prolonging the inevitable. We need landscape approaches that 
allow integration of social, economic, and biological 
priorities. This is no doubt a daunting task for African 
countries and conservation organizations, and one that will 
require major investment and commitments by governments and 
funding agencies.
    The leadership of U.S. Government agencies in supporting 
bilateral initiatives on biodiversity conservation across 
Africa has been formidable, as we heard this morning. The 
bushmeat crisis cannot be separated from all other conservation 
challenges on the continent, which means that the U.S. 
Government assistance through the USAID and international 
programs of the U.S. Fish and Wildlife and the USDA Forest 
Service has already made crucial contributions in one way or 
another toward addressing the problem. Therefore, I propose 
here that considerations be given to the following specific 
strategies for increased funding from the U.S. Government, 
possibly through an especially targeted mechanism:
    The expansion and effective management of protected areas 
is absolutely crucial. As we heard this morning from my 
colleagues, it is the only way we can guarantee the survival of 
viable populations of wildlife on the continent. Protected 
areas are for people. They are not against people. That message 
will be made clear.
    We need to promote alternative sources of protein. Africans 
are very good at adapting. All of the wildlife can be hunted to 
extinction, and people will still have protein to feed on. So 
what is stopping us from raising the profile of those 
alternative sources right now when we have a chance to save 
wildlife from extinction?
    We need to be very, very strong and efficient at monitoring 
activities of extractive industries. Many of these countries 
depend on extractive industries as a major source of income. If 
we cannot stop those industries, we need to make their 
practices much more efficient.
    We need to raise public awareness and engage wider 
involvement of people across the continent. There are 
traditional and cultural implications for using bushmeat. We 
cannot work against people. We have to understand their 
perspective and build it into our strategies in order to 
succeed at the bigger scale.
    And, of course, we still need to promote more research and 
enhance our understanding of the species at hand.
    I thank you very much once again, Mr. Chairman, and applaud 
the efforts of this House Subcommittee in its attempt to 
understand the ramifications of this critically important 
challenge in Africa. We look forward to working with you on any 
initiative that will emerge from this hearing.
    Thank you.
    [The prepared statement of Dr. Bakarr follows:]

     Statement of Dr. Mohamed I Bakarr, Senior Technical Director, 
  Center for Applied Biodiversity Science, Conservation International

    Mr. Chairman, members of the Subcommittee, and colleagues on this 
panel good morning. I thank you all very much for the opportunity to 
testify before you on the growing problem of bushmeat consumption in 
Africa. I am here to represent the views of Conservation International, 
in my capacity as Senior Technical Director in the Center for Applied 
Biodiversity Science, which is leading CI's strategy for addressing the 
bushmeat issue in Africa. CI is a non-profit organization dedicated to 
the conservation of biodiversity, focusing specifically on the world's 
biologically richest and most threatened ecosystems where the risk of 
extinction is ever so real, as well as on tropical wilderness areas 
where opportunities for protecting large tracts of natural habitats 
still remain. With programs in more than 30 countries around the world, 
CI's work focuses on demonstrating that human societies are able to 
live harmoniously with nature. Wildlife utilization in general and the 
bushmeat issue in particular are, therefore, at the very crux of our 
conservation efforts and actions around the world.
    For more than 10 years now, CI has been working with local 
communities, government agencies, scientists and other conservation 
professionals to analyze and understand the global implications of 
wildlife utilization and consumption. From the extensive commercial 
trade of turtles in Southeast Asia to the subsistence hunting practices 
of pygmies in Central Africa, it has become clear to us that the issues 
at stake are indeed very complex. Although bushmeat utilization has 
been flagged since the early 1960s as a potential long-term threat to 
wildlife populations in Africa, it is the same practice that has 
sustained the livelihoods of many generations of Africans. For the most 
part, people in Africa still hunt wildlife and consume bushmeat for the 
same reason their forefathers before them did. Bushmeat hunting has 
been a tradition and a way of life in Africa for eons, and all animal 
species (from rodents to great apes) are hunted for consumptive use.
    But like for many other facets of life on the continent, the ethics 
of wildlife exploitation has undergone dramatic changes in recent 
years. Human populations have grown rapidly on the continent, and more 
people are now engaged in the exploitation of wildlife than ever 
before. More importantly, use of low-tech hunting tools such as traps 
have been replaced by easily accessible guns and rifles that facilitate 
rapid extirpation of large numbers of animals. With access to more 
powerful and highly effective weapons, large mammals such as elephants 
and great apes that were once hunted by only the most experienced and 
traditionally revered hunters, have become easy prey for the 
commercially minded hunters. These itinerant commercial hunters are in 
turn being aided by gradual transformations of the African landscape 
through the activities of extractive industries (logging and mining), 
which are opening up previously remote areas and creating transient 
settlements.
    Mr. Chairman, members of the Subcommittee and fellow panelists, I 
do not need to reiterate the consequences of these transformations for 
Africa's wildlife and biodiversity, because the media has done an 
excellent job bringing it to the global community. Please allow me, 
however, to just draw one very significant conclusion about the current 
status-quo. And that is, whereas wildlife is still very much an 
important resource for human livelihoods in West Africa, bushmeat 
utilization is no longer sustainable because populations of most of the 
species involved are being greatly impacted, and some locally 
extirpated throughout their range. As you can rightly surmise, the 
bushmeat problem in Africa has emerged as a double-edge on the one 
hand, wildlife populations are being extirpated, and on the other, the 
livelihood of a great majority of people is increasingly at risk from 
the loss of wildlife. It is this complex challenge we are confronted 
with for achieving biodiversity conservation on the continent.
    As a conservation organization that cares about people and 
wildlife, Conservation International has been very keen on exploring 
and implementing conservation solutions that accommodate this concern. 
We are committed to pursuing an integrated approach that accommodates 
diverse perspectives and involves multiple stakeholders and partners to 
maximize success in mitigating the threat. In this regard, we have 
helped organize regional workshops in West and Central Africa where 
major stakeholders discuss and analyze the social, cultural, economic 
and biological contexts, and establish frameworks for developing and 
implementing solutions. Our involvement in the Bushmeat Crisis Task 
Force (BCTF) also reflects our commitment toward a broader alliance to 
tackle this complex and large-scale problem. Through BCTF, CI and other 
organizations committed to saving biological diversity around the world 
have been able to reach decision-makers and the general public, with 
the strongest possible messages that reflect our collective concern on 
this crucial issue.
    More specifically, CI country programs are confronting the problem 
head on in the field by targeting all major stakeholders at the 
national level. In Ghana for example, the focus has been on mobilizing 
the public through a massive awareness and sensitization campaign based 
on cultural and traditional priorities, such as totems. Totems are 
wildlife entities (animal species) that symbolize cultural values and 
beliefs. Although success is yet to be translated in terms of actual 
reductions in bushmeat hunting and threats to wildlife, the effort to 
link bushmeat problem to totems has garnered the attention of all 
Ghanaians. To put this into an even better perspective, let me quote a 
recent message from the Director of CI's Ghana Program, Okyeame Ampadu-
Agyei: ``The bushmeat crisis is now receiving national attention. This 
is mainly due to our sustained awareness campaign based on the 
conservation of totems in Ghana. The new concept has galvanized the 
entire citizenry to address the problem by involving politicians, 
traditional rulers, hunters, market women and the general public. The 
attached paper presents the novelty approach. It shows how our culture 
is inextricably linked with animals. This could be the final key to 
address the bushmeat crisis in many parts of Africa.''
    Mr. Chairman and members of the Subcommittee, the scale of the 
bushmeat crisis in Africa is enormous. Long-term success therefore 
requires that solutions such as those emerging in Ghana be scaled-up 
proportionally to ensure a balance between human livelihood needs and 
biodiversity conservation goals. Additional approaches are needed to 
ensure effective protection of species already threatened by the 
commercial trade. This is in no doubt a daunting task for African 
countries and conservation organizations, and one that would require 
major investment by governments and funding agencies. So what role 
should the U.S. Government play? The leadership of U.S. Government 
Agencies in supporting bilateral initiatives on biodiversity 
conservation across Africa has been formidable. The bushmeat crisis 
cannot be separated from all other conservation challenges on the 
continent, which means that U.S. Government assistance through the 
Agency for International Development (USAID), and International 
Programs of the U.S. Fish and Wildlife and the U.S.D.A. Forest Service 
has already made crucial contributions in one way or another toward 
addressing the bushmeat problem. Therefore, I propose here that 
considerations be given to the following specific strategies for 
increased funding from the U.S. government, possibly through an 
especially targeted mechanism:
    <bullet> Creation, expansion and effective management of forests 
parks and protected areas: The creation, expansion and effective 
management of forest parks and protected areas that maintain a safe 
haven for forest animals is the only way of guaranteeing viable 
populations of many wildlife species on the long-term. It is from these 
last remaining natural areas that repopulation of depleted landscapes 
can occur, to give future generations of Africans a chance at 
sustaining traditional livelihood practices.
    <bullet> Promotion of alternative sources of protein: As long as 
people depend on wildlife as a source of protein, bushmeat hunting will 
remain a major factor in sustaining rural livelihoods. But the 
commercial trade can be greatly reduced by promoting stable, 
competitively priced supplies of animal protein other than bushmeat, 
particularly in urban areas across the region, where bushmeat is more 
of a luxury food item.
    <bullet> Monitoring and influencing activities of extractive 
industries: By working closely with extractive industries such as 
logging and mining, government agencies and conservation organizations 
can ensure that activities associated with resource extraction (i.e. 
the creation of roads etc.) do not lead to the widespread slaughter of 
wildlife for commercial purposes.
    <bullet> Promotion of public awareness raising and public 
education on risks of bushmeat consumption: The traditional, cultural 
and livelihood implications of impending wildlife extinctions are still 
not effectively understood by most Africans. With recent reports of 
potential links between bushmeat consumption and HIV (the virus that 
causes AIDS in humans), there is need to use this critical message as 
part of a large-scale effort to change attitudes towards bushmeat 
hunting and consumption.
    <bullet> Promotion of research on sustainable hunting: There is 
need to continuously increase understanding of wildlife population 
dynamics by conducting research and monitoring to determine the 
practicality of sustainable hunting for long-term survivability of 
animal populations.
    I thank you very much once again, Mr. Chairman, and applaud the 
efforts of this House Subcommittee in its attempt to understand the 
ramifications of this critically important conservation challenge in 
Africa. We look forward to working with you on any initiative that will 
emerge from this oversight hearing.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Dr. Bakarr.
    Each of the witnesses today at one point or another made 
reference to more resources, and some of you have mentioned 
specifically the United States and have given us actual figures 
for those resources, which is always helpful.
    Dr. Bakarr, you mentioned a number of things that you would 
like this Committee and the Congress and the United States to 
consider with our participation in preserving and restoring 
much of the beauty and the magnificence of the forests in 
Africa. You suggested that we participate more in the expansion 
of protected areas, alternative sources of protein, monitor 
extractive industries, more public awareness, and so on.
    What would be helpful for us to pursue those goals, along 
with a number of other goals that you have all suggested and 
made some specific dollar amounts available, would be to give 
us in our deliberation with our colleagues to win their heart 
and mind to vote for these issues. Apparently the road to 
Damascus enlightened Paul and enlightened apparently this 
logging company from Europe. It doesn't always work in the 
bowels of the House of Representatives.
    But what makes it easier is for us to be as specific and as 
targeted as possible with these issues, so what would be 
helpful, Dr. Bakarr--and I am not sure if you are prepared to 
do it here, but if you gave us a map of Africa, Central Africa, 
West Africa, and you said here is where the--here are the areas 
that are benefiting from this type of attention. This is where 
the people are finding alternative sources of protein. These 
are the protected areas that we need to expand, and this is why 
we have to expand them, because of the hydrology, because of 
the species that are there, because of the stability of the 
community. Here is the local community that we can get into in 
Liberia. When we mention Liberia in the Congress, we see 
instability, we see tragedy, we see horrific acts; Sierra 
Leone, to some extent as well.
    So if you could be--and your colleagues this afternoon, you 
can educate us, and I think it is a good idea. I am not sure 
who mentioned the Bushmeat Congressional Caucus. We wouldn't 
serve any endangered species. We might serve some invasive 
species that we have here in this country. And I also think 
that is a good idea to have a Bushmeat Caucus to connect us 
with your issues.
    But, Dr. Bakarr, just two questions. Can you give us some 
specific areas that need to be protected and how would they be 
protected? And what would the acreage be? Do you have any idea 
as to the alternative sources of protein which would involve 
local agriculture that would be beneficial? Some ideas on how 
to monitor the extractive industries. It is hard for us to 
monitor our extractive industries in this country with all our 
capabilities. And one last question: Is there a future for 
subsistence consumption in Africa?
    Dr. Bakarr. Thank you very much, Mr. Chairman. That is a 
very excellent question.
    With respect to protected areas, I think I can reiterate 
that the efforts on the ground currently have been site-based. 
They need to be scaled up at the regional level, and those 
sites where investments have been making tremendous 
achievements can then become core areas that we can build upon 
to expand across the larger landscape that we are discussing. 
Such a proposal is already coming forward, as you heard from 
one of my colleagues here, through a partnership involving all 
the major international NGO's and the U.S. for Central Africa. 
We don't have yet such a large-scale partnership for West 
Africa, and we need that in order for protected areas to be 
scaled up to that level.
    The approach here is that various institutions usually 
focus on holding onto sites where they believe viable 
populations of species exist. But if you can integrate those 
sites into bigger sites, bigger areas, then you have a chance 
of building stronger and more efficient landscapes for longer 
success in conservation, and that is the approach we hope to 
take in West Africa as well.
    In West Africa, Liberia and Ivory Coast represent the best 
hope for safeguarding biodiversity, not only just wildlife but 
also the forest ecosystem itself because they have the best 
tracts of forest left at the moment. There are still 
significant tracts in Sierra Leone, but they are becoming 
increasingly isolated from the rest of the forest block, and 
efforts need to be made to make those links as well. But as you 
correctly pointed out, the issue of stability is a big one 
right now, and it is probably going to take us a few more years 
before we can get to that level.
    With respect to alternative protein, the forest ecosystem 
in West and Central Africa is very difficult to raise 
domesticated animals. It is not an easy thing. And so the 
majority of the people have relied on fish resources and 
occasionally some vegetable crops as well for alternative 
sources of protein. Now, if wildlife were to disappear 
completely, Africans are so adaptive that they will find 
something else to focus on as a priority, and I will not be 
surprised if fish, both freshwater and marine, don't play a 
major role in that. There is a lot of fish--in fact, there are 
graphics to show that many of the countries where bushmeat is a 
problem produce the largest tonnage of fish that is consumed 
domestically.
    Mr. Gilchrest. Is this fish farming? Is this aquaculture?
    Dr. Bakarr. Aquaculture, collection from freshwater 
sources, as well as marine fisheries. So there is no shortage 
of alternative sources of protein. The real dilemma we have is 
being able to sensitize the public to understand that wildlife 
is not as sustainable as they might think. And what we are 
ending up with is smaller and smaller bodied animals, which 
people are fine with. They will eat them. They will live on 
cane rats. That is no problem at all. So to them, all this 
noise about bushmeat is not real because they get hundreds of 
ken rats every day. But the reality is the large mammals are 
disappearing because they are the ones that are easy targets, 
they are the ones that are easy prey. They bring more money. 
They are more cost-effective for the hunter.
    So our problem is not a shortage of protein. It is being 
able to raise the profile of those that are more sustainable so 
that the pressure on those that are not can be reduced and 
eliminated in the long term.
    With respect to monitoring extractive industries, I think 
there are very good lessons already from programs in Central 
Africa, but they will not succeed without good backing and 
support from the government. And I think that is the dilemma we 
have in Liberia, unfortunately. With the good support of 
government agencies, logging companies can be monitored 
effectively by NGO's and local partners. Not a problem.
    Mr. Gilchrest. Does anyone else want to comment? Dr. 
Robinson?
    Dr. Robinson. Thank you, Mr. Chairman--
    Mr. Gilchrest. Just to interrupt just for a second, you can 
also comment on this. I know I fired a lot of questions out at 
you, Dr. Bakarr. And all of you, I would like your input on 
those questions, and also the question of is there a future for 
subsistence living, farming in this part of Africa.
    Dr. Robinson. Thank you, Mr. Chairman. Dr. Bakarr actually 
addressed, I think, these questions extremely well, but let me 
elaborate on a couple of these ideas.
    One, let me reiterate that certainly in Central Africa 
right now we are seeing this constellation of stars coming 
together that Dr. Carroll talked about, that the conservation 
community is developing a very systematic consensus on really 
what is needed, and that consensus involves the establishment 
of protected areas. And we are talking about 30 million acres 
of land which could be under protection, double that under some 
kind of management, forest management.
    Mr. Gilchrest. So we are talking about 60 million acres.
    Dr. Robinson. There are about 30 million acres in protected 
areas and about 60 million acres in managed forests.
    Mr. Gilchrest. There are 30 million acres right now in 
protected areas?
    Dr. Robinson. About 8 right now.
    Mr. Gilchrest. Eight.
    Dr. Robinson. Yes, but there is the potential of basically 
getting up to about 30. There are discussions going on with 
African governments and within the community to establish those 
areas at the present time.
    Mr. Gilchrest. This would be in Central and West Africa?
    Dr. Robinson. This is primarily Central Africa.
    Mr. Gilchrest. Central Africa.
    Dr. Robinson. That is correct. At the present time, funding 
going into Central Africa for environmental and conservation 
reasons probably doesn't exceed more than about $12 million a 
year, and that is from bilateral, multilateral, and all 
conservation organizations. The amount of funding going into 
Central African conservation is insignificant.
    Mr. Gilchrest. It is $12 million.
    Dr. Robinson. Yes, $12 million.
    Mr. Gilchrest. From all sources?
    Dr. Robinson. From all sources. And so the potential, there 
is a political will in Africa which is really exciting right 
now. There is a consensus among the conservation organizations 
within--
    Mr. Gilchrest. Where did the $12 million come from?
    Dr. Robinson. Pardon?,
    Mr. Gilchrest. That is everybody?,
    Dr. Robinson. That is everybody. It is actually shocking 
when you add it up. And, clearly, there is an opportunity to 
make a huge difference with not very much more of an increment.
    And so when you hear calls for additional funding through 
mechanisms like CARPE, through the multi-species funds, we have 
mechanisms in the U.S. to provide that kind of funding.
    I think there is also the potential to work very 
systematically with logging companies who are increasingly 
under pressure to say that they are producing wood in a more 
sustainable way and having less of an impact on the forest 
landscape, especially with respect to wildlife.
    Mr. Gilchrest. Is one of the criteria for the logging 
companies to replant after they log? Can you replant that type 
of forest?
    Dr. Robinson. At the present time, few, if any, companies 
are doing any replanting. At the minute they are very much high 
grading, just taking off a few trees, a few high-value trees 
over very, very extensive areas. So the impact on the forest, 
if you look at the forest, sometimes it is not that great. But 
as the logging companies move through the forest, they hunt, 
and the forest is just being stripped out. But those companies 
are interested in working with conservation communities, with 
certification agencies, and I think there is a real potential 
to have an impact there.
    Let me just sort of say something very quickly about the 
future of subsistence hunting in Africa. Even in the United 
States, people still hunt for the freezer. And those are people 
for the most part who have the opportunity and who frequently 
have their backs against the walls in other contexts.
    In the long term, subsistence hunting in Africa will have 
to dwindle. But I think the major thrust at the minute is not 
focusing so much on stopping the subsistence hunting because we 
don't have the alternative sources of protein to replace in 
much of Africa at the present time. The real thrust from a 
conservation standpoint and from a sustainability standpoint is 
to really focus on that commercial hunting, because it is the 
commercial hunting which is having the impact.
    Mr. Gilchrest. So you would say, Dr. Robinson, that the 
local consumption compared to the lucrative cash markets is 
small?
    Dr. Robinson. The amount of meat which is actually being 
consumed for subsistence may be actually as high as about 
three-quarters of all the meat which is being hunted. But it is 
that quarter which goes to the commerce which is hitting the 
large species, hitting those species which people want to eat, 
and is basically pushing the whole system over the top.
    Mr. Gilchrest. That is a vote, but I think we can finish.
    Dr. Carroll?
    Mr. Carroll. Yes, thank you very much. You asked about 
specific targets for the development of protected areas across 
the Congo Basin, and in my written testimony I have included a 
map of conservation priorities that were developed in a 
workshop facilitated by WWF, but it included 160 experts on 
biodiversity and biogeography in the Congo Basin. And this was 
produced really at the request of the Yaounde Summit 
governments as they were trying to develop a coherent plan for 
the Congo Basin conservation.
    So we got together; you know, all these experts developed a 
map of conservation priorities with the key overlap areas of 
species diversity, species richness, and opportunity for 
conservation. And that map has been adopted, as well as the 
blueprint for the conservation by the Yaounde Summit. And their 
plans that they are trying to put in place in the next 5 years 
are based on the landscapes identified in this map.
    Now, WWF and WCS are working with these countries to try to 
refine those big priority blobs on the map into really specific 
areas defined with limits that could be potential protected 
areas.
    For instance, in the country of Gabon right now, the 
Government of Gabon is very interested in very quickly putting 
in place 12 new national parks that are being proposed by the 
joint work of WWF and WCS. And we are very optimistic that will 
be put in place, but that is a result of this priority-setting 
exercise, the Yaounde Summit commitment to putting 10 percent 
of each national country's forest into protected area 
management--into protected areas. And when we talk about the 
cost, that map that you see in front of us, our estimates--just 
to put in place protected areas to cover only 10 percent of the 
Congo Basin in protected areas, our estimates are that that 
could range up to $100 million a year in cost to do that.
    So when we are making--as Dr. Robinson pointed out, 
currently our levels are so far below that, you know, $12 
million, that we have a major gap, and we are hoping for 
leadership from the U.S. Government to try to help fill those 
gaps and help--
    Mr. Gilchrest. Your recommendation was $15 million.
    Dr. Robinson. Yes.
    Mr. Gilchrest. A year, for 10 years.
    Dr. Robinson. Yes, sir. To go through, probably through 
CARPE, because CARPE we look at as a mechanism to bring 
together--that brings together the--
    Mr. Gilchrest. Is there a commitment--some of us will try 
to reach that commitment. Are you asking--it would be actually 
a little bit easier for us to do it if we knew that Japan, 
England, France, Germany, Italy, whoever, they were also making 
a commitment.
    Dr. Robinson. Yes, and we hope that happens as well. We 
hope that the leadership of the U.S. Government will push those 
other countries to make that commitment. The European Union has 
been a major supporter of protected areas through a program 
called ECOFAC that has been managing six protected areas across 
the Congo Basin. And we are going to urge them, based on the 
leverage that we hope will come from the U.S. Government Congo 
Basin Initiative to continue their funding for the same period 
of time for those protected areas so that it nestles together 
very well.
    Now, the governments are also making commitments to put 
these in place through the Yaounde process. They are putting 
their own money on the table to get these areas in place. You 
know, there have been many declarations by heads of state, but 
this one really seems to be taking hold because of the 
international spotlight that is being put on it.
    Like I said, since 1999 there have been 15,000 square 
kilometers of new protected areas put in place through this 
process, and they have committed to 12 major landscapes in 
protected areas. And if we can only keep that encouragement 
going by providing the funding for that--
    Mr. Gilchrest. We will do our best. I don't want to 
interrupt, but I think there is a vote going on. There is more 
than one vote, apparently, so I am going to have to wrap this 
up in just about 2 minutes, and I apologize for that. Here 
comes the buzzers again.
    Just a couple more questions before I leave, though, and 
you have all been very, very helpful. Dr. Hutchins and all of 
you mentioned in various ways the bushmeat trade. is there any 
way to know where the more expensive markets of the bushmeat 
trade are, that 25 percent?
    Mr. Hutchins. I might just address that. Actually, BCTF has 
been working on a project that is intended to try to identify 
not only where the major markets are but the important trade 
routes, where is the bushmeat being transported to and from, 
because we do feel that these are important places where 
control could be effected. And this is called the Bushmeat Hot 
Spots Map Project, and we are working with our members, which 
are, in fact, represented by all the organizations that are at 
this table, and with the CITES/MIKE people who have been for 
several years monitoring the trade in elephants, illegal trade 
in elephants and the taking of elephants throughout Africa.
    We are hoping to try to bring those processes together 
because they do collect a lot of information on bushmeat as 
well. So the monitoring, I think, will be very important for 
developing a strategy to address the bushmeat issue.
    Mr. Gilchrest. Bring a big light and a camera, show 
somebody eating gorilla meat in a restaurant in Paris or 
Washington, D.C., God forbid.
    Mr. Agnagna, you stated very eloquently some of the ancient 
traditions and sacred rules of the various peoples of the 
continent of Africa. And we talked about subsistence farming 
and the future of it. Can some of those ancient traditions and 
sacred rules of managing resources be retained and passed along 
to succeeding generations?
    Mr. Agnagna. I didn't get the last part of the question.
    Mr. Gilchrest. Can the traditions, the ancient traditions 
of subsistence farming, with their sacred rules, are they still 
alive in the hearts of people in Africa? And are they being 
passed down to the children?
    Mr. Agnagna. I will say that in the deep Africa--I am 
talking about a village.
    Mr. Gilchrest. Yes.
    Mr. Agnagna. I think the villager or the local population, 
the rural population, they still have those traditions. The 
problem is that, as I said, you know, the modernization, the 
technology, but people in the deep village, they still have 
this tradition. The problem is that our laws are modern laws. 
They didn't take really in consideration the rules, the 
traditional rules.
    What I am--you know, I wanted to say that now there is a 
process in Central Africa, a big process of revising wildlife 
laws, and we want to include--we want to take some of the 
values, traditional values and put them in the laws, because I 
think that that was really the best way. I don't think that the 
population or the local population--they don't have some more 
to learn from modern conservation because they know, they know 
how to manage, how to manage the natural resources.
    Mr. Gilchrest. Maybe we can blend the two together. I hope 
the spirit of the forest stays in the forest.
    Thank you all very much. I appreciate it. We will stay 
engaged.
    The hearing is adjourned.
    [Whereupon, at 1:05 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [The article ``Bushmeat and the Origin of HIV/AIDS'' 
submitted for the record follows:]

[GRAPHIC] [TIFF OMITTED] T0615.015

[GRAPHIC] [TIFF OMITTED] T0615.016

[GRAPHIC] [TIFF OMITTED] T0615.017

[GRAPHIC] [TIFF OMITTED] T0615.018

[GRAPHIC] [TIFF OMITTED] T0615.019

[GRAPHIC] [TIFF OMITTED] T0615.020


        [The article ``Warfare on gorillas poses threat to 
        survival'' submitted for the record follows:]
        [GRAPHIC] [TIFF OMITTED] T0615.011
        
        [GRAPHIC] [TIFF OMITTED] T0615.012
        
        [GRAPHIC] [TIFF OMITTED] T0615.013
        
        [GRAPHIC] [TIFF OMITTED] T0615.014
        

    [A statement submitted for the record by Reginald Hoyt, 
Senior Vice President, Conservation and Science, Philadelphia 
Zoo, follows:]

          Statement of Reginald Hoyt, Senior Vice President, 
                Conservation & Science, Philadelphia Zoo

Introduction:
    This testimony was prepared to respond to the questions of the 
Chairman that were directed to panelists on 11 July, concerning 
conservation activities in Liberia, West Africa. Liberia has been 
recognized as a global conservation priority as it retains nearly 40% 
of its lowland tropical rainforest intact. These forests represent the 
largest remaining tracts of the Upper Guinea Forest block that once 
covered much of West Africa (Togo to Sierra Leone). Home to forest 
elephants, the pygmy hippopotamus, a host of primates (including the 
chimpanzee, Diana monkey, red colobus and black and white colobus), and 
seven species of antelope (including the Jentink's and zebra duikers, 
which are unique to West Africa) Liberia represents the best chance for 
the long-term survival of many species of conservation concern.
    Unfortunately, Liberia was embroiled in a violent civil war that 
lasted from 1989 to 1997. This war resulted in 40% of the population 
being either killed or made refugees before it was to end. To this day, 
political and economic instability plague conservation efforts in 
Liberia.
    The Philadelphia Zoo's One With Nature conservation program has 
been working with Liberia partners since 1992. Given that the civil 
conflict in Liberia did not subside until 1997, our earlier efforts 
focused on maintaining the capacity to conduct conservation activities 
within the country via stipend support to professional staff within the 
Forestry Development Authority and the Society for the Conservation of 
Nature of Liberia. In addition, in-kind donations of uniforms, office 
equipment and a used vehicle were made. From 1997-1999 the Zoo focused 
its attention on assessments that evaluated the condition of Sapo 
National Park or data collection concerning species of conservation 
concern. It was not until 2000, that our efforts came to focus on the 
harvest and commercial use of wildlife.

Problem Outline and the Philadelphia zoo's work in Liberia:
    A conservation assessment conducted in 1997 via a grant from the 
Philadelphia Zoo found that Liberia's only national park, Sapo National 
Park, had survived the civil conflict intact and that it appeared that 
wildlife populations had actually thrived during the war. While 
bushmeat harvest has been a long-term problem in Liberia, with an 
estimated value of $47,000,000 prior to the war, the ferocity of the 
fighting within the region adjacent to Sapo National Park had resulted 
in much of the population becoming refugees. Those that remained lacked 
the equipment (guns or shot) or materials (wire for cable snares) to 
continue to harvest wildlife with any efficiency, so during the 
conflict wildlife populations rebounded. But with much of post-war 
Liberia, things were to change rapidly.
    In economic collapse and led by Charles Taylor, the former warlord 
who began the conflict in 1989, Liberia is currently listed among the 
poorest countries in the world. The desire for economic growth have led 
to a ``gold rush'' like approach to resource utilization in Liberia, 
with timber extraction being among the most obvious. With the arrival 
of Oriental Timber Company in Liberia in 1999 the destruction of 
Liberia's forest reserves has proceeded at an alarming rate.
    The construction of logging roads has fragmented the Krahn-Bassa 
National Forest, providing access for settlers, who practice slash and 
burn agriculture, and hunters. While the road networks continue to 
expand, impacting nearly all of the remaining forest blocks in Liberia, 
people in need of work (unemployment estimated at 85%) turn to the only 
sources of income they know. Those who returned from refugee camps to 
their homes in Liberia's towns and cities found no work. Over the years 
many of them have turned to Liberia's natural resources as a source of 
income. Some have found work in logging or mining, while a growing 
number have turned to the harvest of wildlife.
    In 1997, we found very little commercial bushmeat hunting in those 
areas adjacent to Liberia's forest reserves in Sinoe County. However, 
during a survey of the Cestos River in 1999, our team discovered a 
nearly ``empty forest'' where we found few antelope. We discovered that 
hunters from a near-by logging camp were setting between 150 and 300 
wire snares each per night. With much of the meat rotting in the 
forest, since 150 snares are far too many to efficiently manage, local 
villagers were angry and routinely destroyed the snares of the loggers. 
But every night we heard gunfire as hunters ``called'' in duikers to be 
shot.
    Unlike the testimonies presented by our colleagues representing the 
situation in Central Africa, primates were not the primary targets of 
hunters in 1999. At the time antelope were plentiful, having been given 
a reprieve from hunting during the war years. With gun shot costing 
nearly $2 per cartridge, and antelope representing a larger and easier 
killed prey, primates were not heavily hunted. However, should antelope 
populations decline, a switch to primates could be expected.
    In 2000, the Philadelphia Zoo working with its Liberian partners 
conducted a hunter survey to better understand the distribution of 
selected animals of concern. During that survey hunters requested 
posters that would show them which species were protected by law, and 
complained that the government was not doing enough to protect the 
forest or the wildlife resources of Liberia. During that same year, to 
improve communications between conservationists and communities, the 
Zoo founded its ``Community Relations Officer'' program in the area 
adjacent to Sapo National Park. In addition to public awareness and the 
facilitation of communications, the duties of the position included the 
collection of data on bushmeat activities in the region.
    Since the founding of this program we have seen dramatic shifts in 
the pressure on wildlife. In 2000, to meet financial needs, villagers 
were selling one half of all large animals killed by the handful of 
snares set by a hunter. By 2002 hunters were only retaining the heads 
and entrails for their family's protein needs. Everything else is being 
sold to merchants who transport the meat to Monrovia. Becoming more and 
more organized, traders are now requesting large antelope, as it will 
bring them greater profit. In addition, villagers complain that 
``outsiders'' from the cities have begun hunting within their tribal 
lands. While local hunters typically use 25-35 wire snares, these 
``commercial hunters'' often set more than 150 snares. Data shows that 
when these large-scale hunting operations begin, everyone's hunting 
success per unit effort declines.
    In an effort to better understand the bushmeat trade in Liberia, 
the Philadelphia Zoo developed an Urban Public Opinion and Bushmeat 
Survey that was conducted earlier this year in eight communities 
throughout Liberia with funding from the Conservation Endowment Fund of 
the American Zoo and Aquarium Association. The survey engaged 20 
Liberian students in the effort, and was coordinated through several 
partner organizations in Liberia. The more than 2,300 interviews that 
were conducted are providing insights into the beliefs of the Liberian 
public, and the bushmeat market. Data analysis continues, as does work 
on the next phase of our bushmeat initiative. In 2003, the Zoo will 
again partner with Liberians to conduct a Rural Public Opinion and 
Bushmeat Survey (funded by the Critical Ecosystem Partnership Fund 
managed by Conservation International) in five forested regions of the 
country so that we can better understand the viewpoint of rural 
villagers.
    To address the requests of hunters surveyed in 2000, the Zoo has 
produced a poster of ``Liberia's Protected Wildlife'' and distributed 
5,000 during the Urban Public Opinion and Bushmeat Survey. Currently, 
our partners in Liberia are conducting a Pilot Public Awareness 
Campaign, so that we may evaluate various media and its effectiveness 
in transmitting conservation messages to the public. In 2003, a 
National Public Awareness Campaign will take advantage of what we will 
have learned from the Pilot Campaign, and will focus efforts on 
addressing Liberia's pressing environmental issues. This Campaign will 
also be funded by a grant from the Critical Ecosystem Partnership Fund.
    Today the Philadelphia Zoo is taking the lead role in addressing 
the bushmeat crisis in Liberia, by conducting research and coordinating 
the activities of our Liberian partners. The goal of our work in 
Liberia is to identify the causes and aggravating activities that drive 
the bushmeat market. While we do not have figures on how many animals 
are killed annually, nor on how much money this extractive industry 
produces each year, it is clear that the bushmeat trade in Liberia is 
growing rapidly and that numerous species are already being harvested 
unsustainably. Further, it is clear that Liberia's bushmeat industry is 
not restricted to its boundaries, and that this environmental crisis 
must be addressed on at least a regional if not global level.
    Finally, I must point out that the ``Bushmeat Crisis'' is not the 
creation of international conservation organizations. Our work 
demonstrates that Liberians recognize the need for the management of 
their natural resources. Some communities have even attempted to stop 
bushmeat hunting as they see it as a serious threat to their wildlife 
resources, but there is a lack of capacity at all levels of society to 
deal with the challenges.

Financial commitment to conservation in Liberia
    During the decade that the Philadelphia Zoo has worked in Liberia 
our efforts have been primarily funded by donations from our 
membership. Grants have been difficult to acquire due to the political 
instability of the region, but we have remained committed. While the 
Zoo has received funding recently from the American Zoo and Aquarium 
Association and from the Critical Ecosystem Partnership Fund, and our 
colleagues have received support from the World Bank and a handful of 
European organizations, funding has been lacking for conservation in 
West Africa. While testimony given on 11 July indicated that 
$12,000,000 a year was being spent on conservation in Central Africa, 
all of West Africa receives considerably less than $1,000,000 in 
financial support annually. As a global conservation priority, West 
Africa should be given greater financial support to meet the threat of 
habitat loss and the bushmeat crisis. This support can also be used to 
leverage development and good governance efforts in the region.

Recommendations
    1. USAID, USFWS, and the State Department work together with US-
based conservation organizations to support conservation priorities in 
Liberia and West Africa
    2. USAID funds currently being withheld in Liberia be released to 
address projects that meet both development and conservation goals
    3. US work with the EU and others to develop stronger financial 
support to address the bushmeat crisis in West Africa
    4. Congress support efforts of US-based organizations to improve 
forest and wildlife management and conservation in West Africa
    5. Recognize that development and conservation are not mutually 
exclusive, and support partnerships that promote sustainable economic 
development that is also compatible with the conservation of natural 
resources for the betterment of future generations of West Africans
    We appreciate the Committee's attention to this issue, and hope 
that our testimony will be of service. Additional information is 
available upon request.
    [An attachment to Mr. Hoyt's statement follows

    [GRAPHIC] [TIFF OMITTED] T0615.010
    
                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
